<html>
<title> - HEARING TO HIGHLIGHT RESEARCH INNOVATIONS ACHIEVED BY OUR NATION'S AGRICULTURAL COLLEGES AND UNIVERSITIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                     HEARING TO HIGHLIGHT RESEARCH
                  INNOVATIONS ACHIEVED BY OUR NATION'S
                 AGRICULTURAL COLLEGES AND UNIVERSITIES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               BIOTECHNOLOGY, HORTICULTURE, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2015

                               __________

                           Serial No. 114-27
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                               ____________
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
96-879PDF                   WASHINGTON: 2015                        
                      
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4522352a05263036312d2029356b262a286b">[email&#160;protected]</a>  
                      
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

       Subcommittee on Biotechnology, Horticulture, and Research

                    RODNEY DAVIS, Illinois, Chairman

GLENN THOMPSON, Pennsylvania         SUZAN K. DelBENE, Washington, 
AUSTIN SCOTT, Georgia                Ranking Minority Member
CHRISTOPHER P. GIBSON, New York      MARCIA L. FUDGE, Ohio
JEFF DENHAM, California              JAMES P. McGOVERN, Massachusetts
TED S. YOHO, Florida                 ANN M. KUSTER, New Hampshire
JOHN R. MOOLENAAR, Michigan          GWEN GRAHAM, Florida
DAN NEWHOUSE, Washington

                                  (ii)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Davis, Hon. Rodney, a Representative in Congress from Illinois, 
  opening statement..............................................     1
    Prepared statement...........................................     3
DelBene, Hon. Suzan K., a Representative in Congress from 
  Washington, opening statement..................................     4

                               Witnesses

Hauser, Ph.D., Robert J., Dean, College of Agricultural, Consumer 
  and Environmental Science, University of Illinois, Urbana, IL..     5
    Prepared statement...........................................     7
    Suplementary material........................................    61
Moyer, Ph.D., James W., Associate Dean for Research, College of 
  Agricultural, Human, and Natural Resource Sciences, Washington 
  State University; Director, Agricultural Research Center, 
  Pullman, WA....................................................    10
    Prepared statement...........................................    12
Brashears, Ph.D., Mindy M., Professor of Food Safety and Public 
  Health, Texas Tech University; Director, International Center 
  for Food Industry Excellence, Lubbock, TX......................    15
    Prepared statement...........................................    17
Heithaus, Ph.D., Michael R., Associate Dean, College of Arts and 
  Sciences, Florida International University; Executive Director, 
  School of Environment, Arts and Society, North Miami, FL.......    25
    Prepared statement...........................................    27
Lacy, Ph.D., Michael P., Professor and Department Head, 
  Department of Poultry Science, University of Georgia, Athens, 
  GA.............................................................    33
    Prepared statement...........................................    35
Buhler, Ph.D., Douglas D., Senior Associate Dean for Research, 
  College of Agriculture and Natural Resources, Michigan State 
  University; Director, MSU AgBioResearch, East Lansing, MI......    37
    Prepared statement...........................................    39
    Suplementary material........................................    61

 
                     HEARING TO HIGHLIGHT RESEARCH
                  INNOVATIONS ACHIEVED BY OUR NATION'S
                 AGRICULTURAL COLLEGES AND UNIVERSITIES

                              ----------                              


                      TUESDAY, SEPTEMBER 29, 2015

                  House of Representatives,
 Subcommittee on Biotechnology, Horticulture, and Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Rodney 
Davis [Chairman of the Subcommittee] presiding.
    Members present: Representatives Davis, Thompson, Scott, 
Gibson, Denham, Yoho, Moolenaar, Newhouse, Conaway (ex 
officio), DelBene, McGovern, Kuster, Graham, and Peterson (ex 
officio).
    Staff present: Haley Graves, Jessica Carter, John Goldberg, 
Mary Nowak, Mollie Wilken, Stephanie Addison, Faisal Siddiqui, 
John Konya, Anne Simmons, Keith Jones, Liz Friedlander, Nicole 
Scott, and Carly Reedholm.

  OPENING STATEMENT OF HON. RODNEY DAVIS, A REPRESENTATIVE IN 
                     CONGRESS FROM ILLINOIS

    The Chairman. This hearing of the Subcommittee on 
Biotechnology, Horticulture, and Research to highlight research 
innovations achieved by our nation's agricultural colleges and 
universities, will come to order.
    I would like to first welcome everybody. I will offer my 
opening statement here momentarily too. I apologize for being 
somewhat late. One of those few occasions here where the 
elevators weren't working too well in the Longworth Building, 
and in order to try and save one of my--well, some of us. 
Actually, I was trying to save, Mr. Chairman, one of your 
fellow Texas colleagues who was stuck with a little bit of the 
elevator door open. Note to self, don't stick your finger in 
there. I almost lost it. But Kevin Brady is doing fine, so he 
is okay. So my apologies and my excuse because the Chairman, 
Mr. Conaway, always like to start hearings on time and I don't 
want him to take away my gavel. So thank you again for coming, 
and I would like to begin with my opening statement.
    Good morning. Again, I would like to welcome everybody 
here. This is the third in a series of hearings highlighting ag 
research, extension, and education programs for this 
Subcommittee. On April 14, we had the honor of hosting Deputy 
Secretary of Agriculture Harden, along with 17 bright and 
gifted young people involved in the 4-H Program. These young 
men and women spoke to us about the need and opportunity to 
build a coalition of urban and rural youth to enhance 
agricultural knowledge across our nation. Then on July 15, the 
full Agriculture Committee held a historic hearing involving 
the presidents of all 19 1890 land-grant universities in order 
to commemorate the 125th anniversary of the enactment of the 
Second Morrill Act. This Act, like its predecessor in 1862, 
contributed to our nation's capacity to conduct research in 
support of agricultural production through the creation of 
land-grant universities.
    Since that time, we have added to our capacity by providing 
land-grant status to designated tribal colleges in 1994, and 
quasi-land-grant status to cooperative forestry colleges under 
the McIntire-Stennis Act, our nation's veterinary colleges 
under the Animal Health and Disease Capacity and Infrastructure 
Program, and most recently Hispanic-serving agricultural 
colleges and universities in 2008.
    We have likewise recognized the investment in agricultural 
research capacity in numerous unaffiliated colleges and 
universities, and have authorized funding to further augment 
capacity and infrastructure at these designated non-land-grant 
colleges of ag. Together, this system of agricultural colleges 
and universities provides our nation's farmers and ranchers 
with tremendous advances in technology, as well as helping to 
solve problems ranging from food safety to resource 
conservation, from nutrition to water quality, and from 
diseases of livestock and crops to renewable energy production.
    Two weeks ago, the Agriculture Committee heard from the 
various mission areas and agencies of the USDA. Among the 
testimony we heard was commentary from the Research, Education, 
and Economics mission area, highlighting the return on 
investment from ag research. For example, the Agricultural 
Research Service introduced 348 new plant varieties last year, 
and filed 110 patent applications. Some of the work done by ARS 
has resulted in the insecticide DEET, the most common active 
ingredient in insect repellents, flaked mashed potatoes, sliced 
apples that stay fresh longer, and frozen foods. Now, the 
flaked mashed potatoes don't come close to the real thing, but 
they are good in a hurry. A conclusion drawn by many 
stakeholders is that we must prioritize food and agricultural 
research within our national policy discussions. I am convinced 
by what I have seen, that the public support for ag research 
does, in fact, have a very high rate of return. In fact, the 
International Food Policy Research Institute, having studied 
the impact of ag research and extension published since 1953, 
has concluded that this investment has provided an annual rate 
of return of 48 percent. I would like my 401(k) to do that. How 
about each of you? And to echo comments made by Pope Francis 
during his address to Congress just last week, ``I am confident 
that America's outstanding academic and research institutions 
can make a vital contribution in the years ahead.''
    We recognize that as we approach our discussions in 
developing the next farm bill, there are numerous policy 
changes confronting our nation's research sector. Today, we 
will begin those discussions. In doing so, we have assembled a 
great panel of preeminent researchers representing some of our 
most illustrious agricultural colleges and universities, and 
have asked that they focus on the successes that have resulted 
from this Federal investment.
    I am particularly honored that the Dean of the University 
of Illinois College of Agriculture, and my friend, Dr. Bob 
Hauser, has joined us today and is participating in the 
hearing. Dr. Hauser has served on the faculty in the College of 
Agriculture at the U of I for more than 3 decades, and 
understands the importance of the agricultural research 
conducted at America's land-grant universities. I look forward 
to hearing from him and the other distinguished members of our 
panel about some of the great success stories from our 
agricultural institutions across the country. And, Dr. Hauser, 
I have to give you credit, you came just at the right time to 
the event I was at Saturday at the U of I, just in time to not 
have to hear me speak. That was very good. Yes, exactly.
    [The prepared statement of Mr. Davis follows:]

 Prepared Statement of Hon. Rodney Davis, a Representative in Congress 
                             from Illinois
    Good morning. I would like to welcome everyone here today to the 
third in a series of hearings highlighting agricultural research, 
extension, and education programs.
    On April 14th, this Subcommittee had the honor of hosting Deputy 
Secretary of Agriculture Hardin along with 17 bright and gifted young 
people involved in the 4-H program. These young men and woman spoke to 
us about the need and opportunity to build a coalition of urban and 
rural youth to enhance agricultural knowledge across our nation.
    Then on July 15th, the full Agriculture Committee held a historic 
hearing involving the Presidents of all nineteen 1890 land-grant 
universities in order to commemorate the 125th anniversary of the 
enactment of the Second Morrill Act.
    This Act, like its predecessor in 1862 contributed to our nation's 
capacity to conduct research in support of agricultural production 
through the creation of land-grant universities.
    Since that time, we have added to our capacity by providing land-
grant status to designated tribal colleges in 1994, and quasi-land-
grant status to Cooperative Forestry colleges under the McIntire-
Stennis Act, our nation's veterinary colleges under the Animal Health 
and Disease capacity and infrastructure program, and most recently, 
Hispanic Serving Agricultural Colleges and Universities in 2008. We 
have likewise recognized the investment in agricultural research 
capacity in numerous unaffiliated colleges and universities and have 
authorized funding to further augment capacity and infrastructure at 
these designated non-land-grant colleges of agriculture.
    Together, this system of agricultural colleges and universities 
provides our nations farmers and ranchers with tremendous advances in 
technology as well as helping to solve problems ranging from food 
safety to resource conservation; from nutrition to water quality; and 
from diseases of livestock and crops to renewable energy production.
    Two weeks ago, the Agriculture Committee heard from the various 
mission areas and agencies of the USDA. Among the testimony we heard 
was commentary from the Research, Education, and Economics mission area 
highlighting the return on investment from agricultural research.
    For example, the Agricultural Research Service (ARS) introduced 348 
new plant varieties last year and filed 110 patent applications. Some 
of the work done by ARS has resulted in the insecticide DEET, the most 
common active ingredient in insect repellents, flaked mashed potatoes, 
sliced apples that stay fresh longer, and frozen foods.
    A conclusion drawn by many stakeholders is that we must prioritize 
food and agricultural research within our national policy discussions. 
I am convinced by what I have seen that public support for agricultural 
research does in fact have a high rate of return. In fact, the 
International Food Policy Research Institute having studied the impacts 
of agricultural research and extension published since 1953 has 
concluded that this investment has provided an average annual rate of 
return of 48%. And to echo comments made by Pope Francis during his 
address to Congress just last week, I am ``confident that America's 
outstanding academic and research institutions can made a vital 
contribution in the years ahead.''
    We recognize that as we approach our discussions in developing the 
next farm bill, there are numerous policy challenges confronting our 
nation's research sector. Today, we will begin those discussions. In 
doing so, we have assembled a panel of preeminent researchers 
representing some of our most illustrious agricultural colleges and 
universities and have asked that they focus on the successes that have 
resulted from this Federal investment.
    I am particularly honored that the Dean of the University of 
Illinois, College of Agriculture, Dr. Bob Hauser, is participating in 
this hearing. Dr. Hauser has served on the faculty in the College of 
Agriculture at the University of Illinois for more than 3 decades and 
understands the importance of the agricultural research conducted at 
America's land-grant universities. I look forward to hearing from him 
and the other distinguished members of our panel about some of the 
great success stories from agricultural institutions across the 
country.
    Before I introduce the rest of the panel, I would first like to 
recognize the distinguished Ranking Member of the Subcommittee, Ms. 
DelBene for her opening statement as well as to introduce her honored 
guest.

    The Chairman. And before I introduce the rest of the panel, 
I would first like to recognize the distinguished Ranking 
Member of the Subcommittee, Ms. DelBene, for her opening 
statement, as well as to introduce her honored guest.

OPENING STATEMENT OF HON. SUZAN K. DelBENE, A REPRESENTATIVE IN 
                    CONGRESS FROM WASHINGTON

    Ms. DelBene. Thank you, Mr. Chairman, and thank you for 
calling today's hearing on a topic that we are both passionate 
about. And thanks to all of our witnesses for being here today. 
I am especially excited to have Dr. Jim Moyer from Washington 
State University here to share his perspective on this issue, 
and explain some of the great research being done at Washington 
State University. Dr. Moyer is the Associate Dean of Research 
for the College of Agricultural, Human, and Natural Research 
Sciences at Washington State University, and while the main 
campus is located Pullman on the eastern side of Washington 
State, and closer to Congressman Newhouse's region, they also 
have an extension in Mt. Vernon in my district, and an 
extension where they are doing fantastic work, particularly in 
agriculture. So Dr. Moyer has been doing research in the field 
for over 30 years. Sorry to date you there. I am very proud to 
have him here. And we look forward to your testimony.
    Research provides the foundation for innovation, 
particularly in agriculture. Not only that, but it is important 
that researchers have the certainty to see a project through to 
the end. Starting and stopping research because funding runs 
out is highly detrimental. As a former businesswoman, I 
understand that when the Federal Government invests in 
research, it saves us money in the long run. And it might not 
always be clear to everyone why basic research is important or 
what it will teach us, but that work has been very critical. 
There is even an award called the Golden Goose Award which 
celebrates obscure science to show how basic research, even 
research that may sound odd, can lead to major breakthroughs 
and significant impacts on society.
    Last year, as hopefully everyone in this room knows, we 
passed a 5 year farm bill. A very important part of that 2014 
Farm Bill, for my district and for many others, was that it 
included unprecedented funding levels for research on specialty 
crops, some of which is being done at Washington State 
University's Mt. Vernon campus. Programs like the Specialty 
Crop Research Initiative, SCRI, gives us a great return on our 
investment. And we are fortunate to have fantastic universities 
across the country doing all kinds of valuable research. The 
Agriculture Committee recently held a hearing to mark the 125th 
anniversary of the enactment of the Second Morrill Act of 1890, 
which authorized additional direct appropriations for the land-
grant colleges of agriculture that had been established under 
the First Morrill Act of 1862. Not investing in research harms 
our economic competitiveness, and hinders the important work 
that has been started in many areas.
    I am pleased we are holding this hearing to learn about the 
innovative work being done throughout the research, extension, 
and education communities, and to learn about the challenges 
that you are facing.
    So thank you again, Mr. Chairman, for holding this hearing. 
And I yield back.
    The Chairman. Thank you, Ranking Member DelBene.
    The chair would request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony, and to ensure there is ample time for 
questions. The chair would like to remind Members that they 
will be recognized for questioning in order of seniority for 
Members who were present at the start of the hearing. After 
that, Members will be recognized in the order of their arrival. 
I do appreciate the Members' understanding.
    Witnesses are reminded to limit their oral presentations to 
5 minutes. All written statements will be submitted for the 
record.
    Again, I would like to welcome all of our witnesses to the 
table. Dr. Hauser, Dr. Moyer, and now I would like to also 
welcome Dr. Mindy Brashears, the Director of the International 
Center for Food Industry Excellence, at Texas Tech University 
in Lubbock, Texas. It is okay, it is not the University of 
Illinois, and Mike is not here to hear that. Dr. Michael 
Heithaus, the Associate Dean of the College of Arts and 
Sciences at Florida International University in North Miami, 
Florida. And thank you for spending a few minutes with your 
Congressman, Carlos Curbelo, as he came by earlier today too. 
Dr. Michael P. Lacy, Professor and Department Head, the 
Department of Poultry Science at the University of Georgia in 
Athens, Georgia. And Dr. Douglas D. Buhler, Senior Associate 
Dean for Research in the College of Agriculture and Natural 
Resources at Michigan State University in East Lansing, 
Michigan. And I ask that you and my colleague, Mr. Moolenaar, 
take it easy on the University of Illinois this year in 
football.
    Dr. Hauser, speaking of the University of Illinois, please 
begin when you are ready.

    STATEMENT OF ROBERT J. HAUSER, Ph.D., DEAN, COLLEGE OF 
AGRICULTURAL, CONSUMER AND ENVIRONMENTAL SCIENCE, UNIVERSITY OF 
                      ILLINOIS, URBANA, IL

    Dr. Hauser. Mr. Chairman, and distinguished Members of the 
Subcommittee on Biotechnology, Horticulture, and Research, as 
mentioned, I am Bob Hauser, Dean of the College of 
Agricultural, Consumer and Environmental Sciences. At Illinois, 
the Experiment Station and the Illinois Extension is also under 
the Dean's supervision.
    Thank you for the opportunity to testify on the subject of 
agricultural research and innovation. I will focus my remarks 
on agricultural research issues related to major crops and 
renewable energy crops, and the role of USDA-NIFA funding.
    While my written testimony expands on points made during 
the next 4 or 5 minutes, I would like to emphasize three take-
home messages. First, Federal-state partnership for 
agricultural research between USDA and state agricultural 
experiment stations has been a huge success, and we need to 
ensure that same success, going forward, by ensuring 
appropriate capacity. Second, agricultural research and 
development benefits greatly from partnership between public 
and private institutions. And finally, the need for 
agricultural research, especially among major crops, is 
absolutely critical for consumers at home and worldwide.
    For context, our college research derives support from many 
sources, with annual research expenditures at about $45 
million. Our competitive research support from USDA is roughly 
equal to our USDA formula funds, and we are funded at higher 
levels from other Federal agencies and from private companies. 
We have also been awarded significant grants from the USAID.
    Now, I cited several, several, examples in my written 
testimony of successful crop research assisted by USDA-NIFA 
involving nitrogen uptake, flowering response, photosynthesis, 
planting density, and on and on, and these successes often 
involve other efforts and partnerships at the University of 
Illinois involving, for example, our Plant Breeding Center and 
the Energy Biosciences Institutes, and others, but an important 
point is that USDA projects are instrumental in a positive 
proof of concept, and then leveraged into much, much more. 
Another thing to keep in mind is that we translate science for 
use in practice, whether it is technology or whether it is 
information. I just mentioned some technology examples, but a 
couple of other information examples include USDA assistance in 
helping us develop FarmDoc, a leading platform for farm and 
risk management research and decision tools, and USDA has also 
helped us put the timely information in the hands of producers 
during the implementation of the most recent farm bill. Again, 
as illustrated by most of these examples, we like to leverage 
resources through these partnerships. Just yesterday, for 
example, a major chemical and agricultural technology company 
launched an innovation center on our campus that looks to 
partner with us in many ways, including improved cropping 
systems. But we do have some challenges. Those challenges are 
often related to declining state support for agricultural 
research and extension. As higher education relies more on 
tuition, we cannot justify subsidizing agricultural research 
activity with student dollars. With respect to crop science, 
attracting a sufficient, number of top students is an issue, 
even though the jobs are plentiful for those students. A 
research productivity in this area measured in a competitive 
grant funding has been excellent, but crop research, like all 
research in academia, is driven by grant opportunities. But 
funding for the locally applied research, that locally applied 
research in this area, has diminished. Illinois has lost 
substantial capacity for crops research, and one example is the 
recent budget cut devoted to crops in four field research 
centers. But despite these challenges, were all exceptional 
opportunities for Illinois and our sister institutions.
    Secretary Vilsack addressed us on campus about 
international food security a couple of weeks ago, and he 
emphasized the need to invest more in agricultural research and 
education because all are beneficiaries of agriculture, he 
argued, and consequently, land-grant universities must have 
capacity to conduct agricultural research and education in the 
next levels of competency.
    I want to wrap things up here with four policy 
implications. First, agriculture, especially major crop 
agriculture, has global implications. Invest to meet those 
global challenges, but understand the importance of science 
applied locally. Two, emphasize partnerships appropriately. Be 
willing to apply Federal resources as a public good where the 
gaps exist. Three, emphasize competitiveness, but be smart 
about capacity, and work with the states to ensure the health 
of land-grant institutions. And finally, and this is very 
important, universities invest in scientific research in 
response to grantors. If resources are not apparent in 
agriculture, universities will invest in other areas.
    So with that, I wish to thank the Committee again for the 
opportunity to share our perspective, and we very much 
appreciate your support of agricultural research, education, 
and outreach.
    [The prepared statement of Dr. Hauser follows:]

    Prepared Statement of Robert J. Hauser, Ph.D., Dean, College of
    Agricultural, Consumer and Environmental Science, University of
                          Illinois, Urbana, IL
    Mr. Chairman and Distinguished Members of the Subcommittee on 
Biotechnology, Horticulture, and Research: My name is Robert J. Hauser, 
and my testimony is on behalf of the University of Illinois. I 
currently serve as Dean of the College of Agricultural, Consumer and 
Environmental Sciences, or ACES, and both the Illinois Agricultural 
Experiment Station and University of Illinois Extension are under the 
supervision of my college at Illinois.
    I would like to thank Congressman Davis, Chairman, Congresswoman 
DelBene, Ranking Member, and the other Members of the Agriculture 
Subcommittee on Biotechnology, Horticulture, and Research, for the 
opportunity to testify on the important subject of agricultural 
research and innovation, and to discuss associated policy challenges, 
such as ways to leverage Federal resources, cooperation between various 
institutions, means of extension and outreach, and other issues of 
importance to the agricultural research community.
    I have been asked to focus my comments primarily on agricultural 
research issues related to major field crops and renewable energy 
crops, and the associated role of USDA-NIFA funding. This is 
appropriate, because Illinois is in the heart of the Midwest and is 
typically the leading soybean producing state and the second leading 
corn producing state, the two most valuable crops in America.
    And the University of Illinois is among the leading institutions in 
the nation for research and development of biomass feedstocks for 
renewable energy.
    Following are some key messages that I hope you will take away from 
my comments.

  1.  The Federal-state partnership for agricultural research, between 
            USDA and state agricultural experiment stations, has been a 
            huge success story--and it must also be a success story, 
            going forward.

  2.  The continuum of agricultural research and development has 
            critical opportunities for partnership between public and 
            private institutions, but there are important roles for 
            each to play in their own domains--and there is still a 
            particularly important role for research as a public good.

  3.  The need for agricultural research, especially among the major 
            crops, is absolutely critical for the consumers of food, 
            globally--that means everyone--regardless of the relatively 
            small population of significant producers in America today.

    Our portfolio of research derives its support from many sources. 
For context, annual research expenditures within the college 
approximate $45 million, excluding our permanent state-funded personnel 
cost. Of that, the Illinois Agricultural Experiment Station receives 
about $7.2 million in Federal capacity funds allocated by formula from 
USDA-NIFA, mainly from Hatch and Hatch Multi-State allocations, and 
matched with our state resources. Similarly, University of Illinois 
Extension receives roughly $12 million of Federal funding, primarily 
from Smith-Lever and the Expanded Food and Nutrition Education Program, 
EFNEP, to support our outreach mission.
    Our competitive research grants from USDA roughly equal the formula 
research funds, and we have been even more successful in competition 
for funding from other Federal agencies, and from private companies. We 
also benefit from a very robust cooperative relationship with USDA's 
Agricultural Research Service. Several of their preeminent scientists 
have long-term assignments on our campus, particularly in the 
disciplines related to crop sciences. In recent years, we have also 
successfully competed for significant grants as part of the USAID Feed 
the Future initiative. Further, our scientists have engaged in major 
interdisciplinary programs that are situated outside of the typical 
wheelhouse of a land-grant agricultural college. It is here at these 
nodes of science that future breakthrough innovation is likely to 
happen. So the point is that we look for programs that will move our 
ideas forward into action and results, and USDA-NIFA programs are a 
necessary component of that mix.
    Our goals related to our work in crops could be summarized in 
several ways, but perhaps to put it simply, we work to help insure food 
and energy security, profitable agriculture and food systems, rural and 
family prosperity, and resource stewardship.
Successes
    We utilize support from our Federal partners in many ways to 
further our aims in crop sciences. Important projects are funded by 
USDA-NIFA, but it is important to keep in mind that they are very often 
part of larger, more significant programmatic initiatives, often 
involving other institutions and private firms.
    Just to cite a few examples--
    Our crop scientists have made significant contributions in 
molecular or genomic biology for corn and soybeans. In recent years, 
USDA-NIFA competitive grants have allowed our scientists to explore the 
mechanisms of nitrogen uptake and utilization in corn. Nitrogen is, of 
course, an essential plant nutrient and a source of environmental 
concern. Other AFRI funding supports genetic research in soybeans, such 
as flowering response to seasonal photoperiod changes, a critical 
factor to environmental adaptation of soybean plants.
    With the help of our partners in the seed industry, we established 
the Illinois Plant Breeding Center a few years ago, which is now 
recognized as the leading academic plant breeding program in the 
country. This model research and education effort is focused on 
training the next generation of scientists who will be needed to drive 
innovation forward in plant biotechnology, in order to achieve the 
output gains we need to meet future food demand. USDA-NIFA has funded 
research and education focused on achieving high corn yield under high 
planting density. That fits perfectly within the scope of the Illinois 
Plant Breeding Center.
    The University of Illinois has made major contributions to 
knowledge pertaining to energy crops, biomass production if you will. 
As a partner in the Energy Biosciences Institute with UC Berkeley, 
Lawrence Berkeley National Laboratory, and BP, we established the crop 
feedstock research program that has formed a scientific foundation for 
renewable crops. USDA-NIFA projects on the sorghum genome and economic 
analysis of tradeoffs for biomass production contributed to this 
effort, and the University of Illinois will continue to operate its 
unique Energy Farm as a renewable crops resource, even though the 
Energy Biosciences Institute is currently being phased out. As is often 
the case, USDA projects were instrumental in some of the foundational 
research that led a positive proof of concept, providing the incentive 
for other stakeholders to join in building and sustaining the research 
program.
    I have already emphasized the importance of ARS on our campus, 
particularly for crop sciences, where scientists are fully integrated 
into our research activities and making enormous contributions. Our 
groundbreaking work on photosynthesis has been led in partnership with 
ARS, and some of those scientists have been instrumental in our 
successful modeling of future environmental effects of climate changes 
on crop production, through our unique capabilities for free air 
concentration enrichment (SoyFACE) at field scale.
    Besides the pursuit of science that is directly related to growth 
and culture of crops, our mission is to also translate science for use 
in practice, whether that is provided as technology or information. 
That occurs not only through Extension programs, but also through 
technology commercialization processes, or by means of innovative 
research and education approaches that assist management decision 
making among the broader audience of users. To illustrate, USDA's 
support and data have been instrumental in our development of FarmDoc, 
one of the nation's leading platforms for farm management research, 
risk management information, and decision tools. Moreover, the grant 
for the USDA Producer Education Tools Project, awarded to Illinois from 
the Farm Service Agency, allowed us to put timely information and 
decision tools in the hands of producers during implementation of the 
most recent farm bill.
    Illinois also invests its formula or capacity funding in support of 
various programmatic initiatives. For example, we have invested Hatch 
resources to seed interdisciplinary research in the early stages, 
through our Future Interdisciplinary Research Explorations (FIRE) 
grants program, and we similarly fund the ACES Research Academy to give 
young scientists the necessary tools to success in a research 
environment.
    We work diligently to develop resource leverage from partnerships. 
In any of our cooperative relationships, it is essential to understand 
the roles and commitments of potential partners in each segment of the 
agricultural research process, basic to applied, and which change over 
time.
    Just yesterday, for example, a major chemical and agricultural 
technology company launched an innovation center on the Illinois campus 
that looks to partner with the university in several ways, including 
improved cropping systems.
    Our main building on campus for crop sciences, Turner Hall, is 
undergoing significant renovations to provide better learning and 
working space, in cooperation with several major benefactors from the 
crop industry. In the same way, we are reaching out to our industry 
partners to modernize our research infrastructure to utilize crops, in 
projects like our Integrated Bioprocessing Research Laboratory, which 
is under construction, and our Feed Technology Complex.
Challenges
    Crop sciences at Illinois includes multiple related disciplines: 
agronomy, agroecology, plant protection, plant breeding, biotechnology, 
and molecular genetics, bioinformatics, horticulture, sustainable 
landscapes, and specialty crops.
    In some respects our challenges at this point in time may be more 
extreme than for some of our peers in the Midwest, largely attributable 
to declining state support for the public goods involved in 
agricultural research and extension. Illinois is a major agricultural 
state, but it also has major urban populations, with significant 
competing demands.
    Specifically for crop sciences at Illinois, the trends we see are 
clear.

  <bullet> Attracting top students to enroll in undergraduate crop 
        science majors is a challenge, even though the job market for 
        those students has been excellent.

  <bullet> Our research productivity, measured in competitive grant 
        funding, has been excellent for our crop scientists. Being on 
        the leading edge of crop-related science is essential for long-
        term excellence, because other academic institutions and 
        industry aggressively compete for the same talent.

  <bullet> The portfolio of crops research is driven, to a significant 
        extent, by grant opportunities. The sources of grant funding 
        for locally applied research have diminished substantially over 
        the past decade.

  <bullet> Our crop scientists compete, not only for USDA or other 
        Federal resources, but also for resources within the university 
        that are derived from the state and elsewhere.

  <bullet> Illinois has experienced substantial permanent losses of 
        scientific capacity and other assets for crops research over 
        the past several years. One example is the very recent 
        announcement of base budget cuts that have prompted us to 
        reduce resources devoted to crops in four of our field research 
        and educations centers in Illinois

  <bullet> As our higher education budget model continues to rely more 
        heavily on student tuition, we lack the justification to 
        further subsidize agricultural research activity with student 
        tuition dollars.

    Nonetheless, the opportunity for Illinois and our sister 
institutions remains exceptionally bright and critically important--to 
build upon the success that is feeding the world today. Just a couple 
of weeks ago, Secretary Vilsack came to the University of Illinois to 
deliver an address on international food security issues. To paraphrase 
one of his points, he suggested that we must invest commensurately more 
in agricultural research and education, despite the fact that only a 
small part of our population is directly engaged in agriculture. 
Because all people are the beneficiaries of a robust and successful 
agricultural sector, allocation of resources must not be based solely 
on demographic patterns or variables. He also made it very clear that 
the land-grant universities must have capacity and infrastructure to 
conduct agricultural research and education at the next levels of 
competency. USDA-NIFA recently asked institutions like ours for 
information about their infrastructure assets, in order to better 
assess the capabilities and gaps for critical scientific progress going 
forward.
    States like Illinois are under tremendous fiscal pressure. Our 
decision to reallocate resources for our field research, the loss of 
personnel to carry out agricultural research programs, and years of 
decreasing investment in faculty scientists reflect that pressure.
    On the other hand, non-traditional partners may be waking to the 
needs and opportunities. An initiative called ``FARM Illinois'' is 
engaging the broader business and civic community, especially in 
metropolitan Chicago, with the agricultural interests across the state.
Policy Implications
    In closing, I would like to leave you with some broad ideas to 
consider as you deliberate Federal policies for agricultural research, 
education, and outreach.

  <bullet> Agriculture, especially major crop agriculture, has global 
        implications--but by its nature requires local knowledge. So 
        while investing to meet global challenges, understand the 
        importance of science applied locally.

  <bullet> Emphasize partnerships appropriately, and be willing to 
        apply Federal resources as a public good, where the gaps exist.

  <bullet> Emphasize competitiveness, but be smart about the necessary 
        capacity--and work with states to insure the health of land-
        grant universities and related institutions.

  <bullet> Universities invest in scientific research capacity in 
        response to the demands and criteria of grantors. If sufficient 
        opportunities for resources and scholarship are not apparent 
        for faculty or other scientific talent in agriculture to 
        succeed in the long-term, universities will invest in other 
        disciplines competing for scarce resources, especially those 
        where student demand is strong and tuition revenue is most 
        apparent. Real cooperation is needed among Federal partners, 
        states, and industry to promote student interest and research 
        needs in agriculture.

  <bullet> Finally, because our programmatic research initiatives rely 
        on multiple partners and sources of support, it is often 
        difficult to identify a unique contribution from a particular 
        partner. The temptation for any partner is to desire 
        accountability for their specific contribution, but 
        requirements need to be flexible enough for compliance without 
        significant administrative burden. It is in everyone's interest 
        to seek administrative efficiency at all levels of the 
        agricultural research and education process.

    I would like to thank the Committee once again for this opportunity 
to share our perspective with you, and we appreciate your support of 
agricultural research, education, and outreach.

    The Chairman. Thank you, Dr. Hauser.
    Dr. Moyer.

    STATEMENT OF JAMES W. MOYER, Ph.D., ASSOCIATE DEAN FOR 
RESEARCH, COLLEGE OF AGRICULTURAL, HUMAN, AND NATURAL RESOURCE 
                   SCIENCES, WASHINGTON STATE
          UNIVERSITY; DIRECTOR, AGRICULTURAL RESEARCH
                      CENTER, PULLMAN, WA

    Dr. Moyer. Thank you, Mr. Chairman, Ranking Member DelBene, 
Congressman Newhouse, and other Members of the Subcommittee.
    Washington agriculture is one of the most diverse in the 
United States, growing over 200 different crops, many of which 
are classified as specialty crops. Washington is number one 
nationally in the production of ten of those crops, including 
apples, cherries, hops, and pears, and second in production of 
eight others, including grapes, onions, and potatoes. Specialty 
crops represent more than \1/2\ of Washington's agricultural 
economy, and play a significant role in the agricultural 
economy of many other states as well. And further, specialty 
crops provide the fruits and vegetables that are the foundation 
of a healthy diet for everyone.
    Feeding an increasing global population in the face of 21st 
century challenges that include climate change, diminishing 
water supplies, and disease and pests, requires 21st century 
research responses. This morning, I would like to highlight 
WSU's unique contributions to the Specialty Crop Research 
Initiative, or SCRI, funded by the USDA, National Institute of 
Food and Agriculture, as part of that solution.
    SCRI is designed to serve the needs of the broader national 
agriculture industry by requiring multi-institutional and 
stakeholder involvement. This is a thoughtful feature that 
brings together the expertise needed to address complex 
problems, and to assure relevance. Since 2008, WSU faculty have 
been lead investigators, or funded collaborators, on 38 SCRI 
program grants that brought over $36 million to WSU to support 
Washington's agriculture, and a similar amount was awarded to 
collaborating land-grant institutions. These grants funded 
research to improve production practices, develop systems 
approaches to crop management, study climate change, pest and 
disease management, precision agriculture and automation, and 
develop genomic and bioinformatics tools to aid plant breeding 
efforts.
    This morning, I will highlight two projects that 
demonstrate the critical value of SCRI. First, is research on 
biodegradable plastic fabric for mulches. WSU, with 
collaborators, studied mulch fabrics that suppress weeds and 
saves water, and can also be used for high tunnels that prolong 
the growing season. This was only possible because of the 
research collaboration among five universities and farmers. In 
addition, the results allowed farmers from Washington, 
Tennessee, and Texas to access niche markets for strawberries, 
and to improve yields of other crops such as tomatoes. Further, 
researchers collected valuable information that was previously 
unavailable. They first collected information on the 
performance of biodegradable plastic fabrics used to construct 
the tunnels and mulch covers. They also collected information 
on the effects of biodegradation of microbial communities in 
soil, and identify fungi and bacteria responsible for 
degradation. This research led to a second project, now 
underway, focused on developing non-woven polymers that can be 
used to manufacture fabrics that have high utility as 
biodegradable mulch.
    The second example I will share is actually two projects 
that seek to improve the accessibility and application of the 
vast amounts of genomic data available for specialty crops. The 
data is valuable because it can be used to identify genes 
responsible for specific traits, and then by plant breeders to 
integrate these traits into varieties. The first project is the 
Genomic Database for Rosaceae, which is led by Dorrie Main. 
This is a publicly available database with whole genome 
sequences, and genetics and breeding data for apples, peaches, 
and strawberries, and partial sequences and data for other 
crops such as almonds and pears that can be used for breeding 
projects. In addition to SCRI funding, this research is 
supported by several other sources, including the National 
Science Foundation and the Washington Tree Fruit Commission.
    In the other project known as RosBREED, scientists from WSU 
and Michigan State University are leading 35 scientists from 14 
U.S. institutions to utilize information from 22 U.S. Rosaceae 
crop breeding programs. This initial project was so successful 
that a second phase was funded to develop and apply 21st 
century DNA tests and breeding methods to produce new varieties 
with improved horticultural quality and disease resistance.
    I have provided additional testimony for the record, 
describing these examples and the importance of SCRI funding to 
Washington agriculture.
    I thank you for this opportunity to offer the testimony 
today. Thank you.
    [The prepared statement of Dr. Moyer follows:]

    Prepared Statement of James W. Moyer, Ph.D., Associate Dean for 
    Research, College of Agricultural, Human, and Natural Resource 
                               Sciences,
 Washington State University; Director, Agricultural Research Center, 
                              Pullman, WA
Introduction
    My name is Jim Moyer and I serve as the Associate Dean of Research 
for the College of Agricultural, Human, and Natural Resource Sciences 
(CAHNRS) and as the Director of the Agricultural Research Center at 
Washington State University (WSU) in Pullman, Washington.
    Washington State University is Washington's state university. 
Through our five campuses, four research centers and WSU extension, WSU 
is physically present in every county, delivering education, research, 
and core services that benefit Washingtonians in their communities 
every day. The University also has a presence abroad with a new online 
global campus and international research. As a premiere, tier one 
research university and the state's land-grant university, WSU's 
mission is to drive education and innovation into our communities to 
support and grow the state's economy.
    WSU is led by Interim President Daniel J. Bernardo, Ph.D. (former 
Dean of the College of Agriculture, Human and Natural Resource 
Sciences) since July 2015 after the death of President Elson S. Floyd. 
President Bernardo is carrying on the legacy of Dr. Floyd to maintain 
WSU's land-grant mission of advancing, extending and applying knowledge 
through local and global engagement.
WSU Research
    Washington State University's research enterprise is driven by a 
diverse portfolio of extramural support with funding from state and 
Federal sources as well as commodity groups and industry. Competitive 
Federal funding streams from a variety of agencies are the primary 
source of funding for the institution.
    WSU faculty have a strong history of success in winning Federal 
competitive grants. For 3 of the last 4 years, the 5th Congressional 
District in Washington (which includes WSU) was in the top five U.S. 
Congressional districts for receipt of USDA-NIFA awards. WSU faculty 
also compete strongly for Federal awards from DOE, NSF, NIH, and DOI. 
These funds support a broad spectrum of programs that include biofuels 
and natural resource management, as well as the entire agriculture 
value chain to improve food safety and security, lead to healthier 
foods, and enhance production of specialty crops, including organic 
production.
    These grant awards support investigations in plant metabolomics, 
genomics and bioinformatics, plant breeding and animal reproduction, 
and pest management, as well as studies that affect end-use quality, 
transportation and marketing. Investigations supported by the NSF have 
contributed to our understanding of lipid metabolism in plants, as well 
as secondary metabolites such as riboflavin that contribute to 
healthier foods.
    Genomics and bioinformatics investigations have not only led to an 
increased understanding of plant and animal genomes, but also the 
development of knowledge-based decision tools for pest management and 
other production practices. Federal research partnerships also support 
studies to ensure high end-use quality for new plant varieties as well 
as transportation and marketing research.
    Our formula for success includes four research and extension 
centers located across the state staffed with over 50 faculty engaged 
in research, extension and teaching. Faculty at these centers and on 
the Pullman campus maintain strong relationships with growers and other 
members of the agribusiness community. This has translated into 
significant support for research, including endowed chairs designed to 
meet industry needs, as well as matching dollars and other forms of 
leverage, such as an internal seed grant program that enhances the 
competitiveness of faculty for Federal research funding. Faculty in the 
College of Agricultural, Human, and Natural Resource Sciences generate 
over $80 million annually in extramural support.
WSU Specialty Crop Research Initiative-Funded Projects
    Washington agriculture is one of the most diverse in the United 
States, growing over 200 different crops many of which are classified 
as ``specialty crops.'' Washington is number one nationally in the 
production of ten of those crops, including apples, cherries, hops and 
pears, and second in production of eight others including grapes, 
onions and potatoes. Specialty crops represent more than half of 
Washington's agricultural economy and play a significant role in the 
agricultural economy of many other states as well. Further, specialty 
crops provide the fruits and vegetables that are the foundation of a 
healthy diet for everyone.
    Feeding an increasing global population in the face of 21st century 
challenges that include climate change, diminishing water supplies, 
plus disease and pests, requires 21st century research responses.
    This morning I would like to highlight WSU's unique contributions 
to the Specialty Crop Research Initiative (SCRI), funded by the USDA 
National Institute of Food and Agriculture, as part of the solution.
    SCRI is designed to serve the needs of the broader, national 
agriculture industry by requiring multi-institutional and stakeholder 
involvement, a thoughtful feature that brings together the expertise 
needed to address complex problems and ensure relevance.
    Since 2008, WSU faculty have been lead investigators or funded 
collaborators on 38 SCRI program grants that brought over $36 million 
to WSU to support Washington's agriculture. A similar amount was 
awarded to collaborating land-grant institutions. These grants funded 
research to improve production practices; develop systems approaches to 
crop management; study climate change, pest and disease management, 
precision agriculture and automation; and develop genomic and 
bioinformatics tools to aid plant breeding efforts.
    I will highlight two projects that demonstrate the critical value 
of the SCRI. First is research on biodegradable plastic fabric for 
mulch. WSU developed mulch that suppresses weeds and saves water and 
can be used for high tunnels that prolong the growing season. This was 
only possible because of the research collaboration among five 
universities and farmers. In addition, the results allowed farmers from 
Washington, Tennessee and Texas to access niche markets for 
strawberries and to improve yields of other crops such as tomatoes. 
Further, researchers collected valuable information that was previously 
unavailable. They first collected information on the performance of 
biodegradable plastic fabrics used to construct the high tunnels and 
the mulch covers, a previous barrier to adoption. They also collected 
information on the effects of biodegradation on microbial communities 
in soil and the identity of fungi and bacteria responsible for 
degradation. This research led to a second project, now underway, 
focused on developing non-woven polymers that can be used to 
manufacture fabrics for biodegradable mulch.
    The second example I'll share is actually two projects that seek to 
improve the accessibility and application of the vast amounts of 
genomic data available for several specialty crops. The data is 
valuable because it can be used to identify genes responsible for 
specific traits and then by plant breeders to integrated them into 
varieties. The first project is the Genomic Database for Rosaceae,  
which is led by Dr. Dorrie Main. This is a publicly available database 
with whole genome sequences of apples, peaches, and strawberries that 
can be used for breeding projects. In addition to SCRI funding, this 
research is supported by several other sources of funding, including 
the National Science Foundation and the Washington Tree Fruit 
Commission.
    In the other project, known as RosBREED, scientists from WSU and 
Michigan State University are leading 35 scientists from 14 U.S. 
institutions to utilize information from 22 U.S. Rosaceae crop breeding 
programs. This initial project was so successful that a second phase 
was funded to develop and apply 21st century DNA tests and breeding 
methods to produce new varieties with improved horticultural quality 
and disease resistance.
WSU Projects for Specialty Food Crops funded by USDA
    The WSU portfolio of competitively funded research from USDA that 
supports specialty crop foods includes research in five areas.

  1.  Production practices and systems management includes the 
            previously mentioned projects for biodegradable mulches as 
            well as three projects in fruit trees to support 
            development of systems approaches to crop management.

  2.  Pest and disease management studies identified factors to reduce 
            losses from insect pests such as the brown marmorated stink 
            bug (tree fruit), the spotted wing Drosophila fruit fly 
            (all fruit including wine grapes) and spider mites (hops). 
            In addition, multiple projects have investigated viruses 
            that cause internal necrosis in potato tubers as well as 
            the transmission by insects of viruses that cause damage to 
            specialty crops.

  3.  Genomics and breeding includes projects on peas and cranberries 
            in addition to the highlighted projects above.

  4.  Precision and automated agriculture includes projects on water 
            management, selective mechanical weed control, blossom 
            thinning, and automated fruit canopy management.

  5.  The Organic Research and Extension Initiative (OREI) funds a 
            number of WSU projects that support specialty crop 
            production.

    The movement by the Federal Government toward supporting projects 
that are multi-disciplinary and multi-institutional has challenged 
institutions to provide more advanced administrative support for these 
projects. The preparation of these grants requires greater emphasis on 
integrating the granting processes, contract management and research 
administration cultures from the participating institutions. This is a 
critical phase of grant preparation as well as grant management. 
Traditional administrative support for single investigator, 
foundational grants is not necessarily directly scalable, due to the 
increased complexity and organization of the projects.
    Further, we have found that specific support for grant development 
to coordinate budgets, subcontracts and the compliance issues of the 
participating institutions is essential. In addition, the level of 
competitiveness requires support in the writing of the grants as well. 
Once the award is received, there is a high level of administrative 
work requiring additional resources to support team communication and 
organization. These additional resources not only detract from direct 
costs formerly available to the researchers, but also require 
institutional investments in a time when land-grant institutions are 
facing cuts on the state and Federal side. This is in addition to 
higher-level oversight needed to manage multi-institutional programs. 
All of this results in the lead faculty member devoting significant 
time to administrative tasks and less to the actual research. To 
respond to these needs, we have created positions specifically to 
support grant development, and we are experimenting with creating a 
group to assist with project management, which requires additional 
resources for administrative processes.
WSU's Grand Challenges
    In addition to the ongoing research efforts in the College of 
Agriculture, Human, and Natural Resource Sciences, the WSU research 
agenda has recently undergone a comprehensive review to address complex 
societal problems that require the expertise of research universities 
for real world solutions. The identification of these grand challenges 
was a collaborative, university-wide effort with faculty, staff and 
administrators working together to unite behind the challenge.
    Our strong Federal, state and community partnerships are essential 
to the pursuit of these grand challenges. WSU's value to Washington 
State and Washington, D.C., has never been more evident than through 
the successes of our partnerships with our Congressional delegation in 
helping position and grow WSU's leadership in five areas:

  <bullet> Sustaining Health: The Uncompromising Pursuit of Healthier 
        People and Communities.

  <bullet> Sustainable Resources for Society: Food, Energy and Water.

  <bullet> Advancing Opportunity and Equity: The Land-Grant Mission in 
        Today's World.

  <bullet> Improving Quality of Life through Smart Systems.

  <bullet> Fundamental Research in Support of National Security.

    These Grand Challenges are integral to the CAHNRS research 
portfolio, with many research programs in each of the five challenges. 
We have:

  <bullet> 77 research programs in sustaining health,

  <bullet> 157 research programs in sustainable resources for society,

  <bullet> 47 research programs in advancing opportunity and equity,

  <bullet> 28 research programs in improving quality of life through 
        smart systems, and

  <bullet> 15 research programs in fundamental research in support of 
        national security.

    The goal of the Grand Challenges is to increase collaboration 
between WSU faculty members and students, across disciplines and with 
researchers and partners worldwide, to explore integrated solutions.
    Thank you for this opportunity to provide background on the 
importance of the Specialty Crop Research Initiative and the importance 
of Federal research to land-grant institutions like Washington State 
University.

    The Chairman. Thank you, Dr. Moyer.
    Dr. Brashears.

   STATEMENT OF MINDY M. BRASHEARS, Ph.D., PROFESSOR OF FOOD 
              SAFETY AND PUBLIC HEALTH, TEXAS TECH
 UNIVERSITY; DIRECTOR, INTERNATIONAL CENTER FOR FOOD INDUSTRY 
                    EXCELLENCE, LUBBOCK, TX

    Dr. Brashears. Thank you very much.
    Mr. Chairman and Members of the Committee, thank you very 
much for allowing me to speak today about the importance of 
food safety research, and the need for future funding in this 
area. I am a Professor of Food Safety and Public Health at 
Texas Tech University, and I have spent my career studying this 
important topic.
    August 13, 1997, was a very significant day in my life. Not 
only was it my first day on the job as an Assistant Professor 
at the University of Nebraska, it was also the day of the 
Hudson Foods ground beef 25 million pound recall due to E. coli 
O157:H7 contamination, which was, at the time, the largest 
recall in U.S. history.
    Hudson Foods was located in Columbus, Nebraska, and I was 
hired with an extension role to work directly with the industry 
and to field media requests. I remember being interviewed on 
that first day, and I tried to be reassuring, but really 
wondering how can we ever solve this problem. On a day I 
expected to be unpacking boxes, I instead was thrown into the 
deep end of one of the biggest food safety crises in U.S. 
history.
    It turns out when you are thrown into the deep end, you can 
either sink or swim, or be thrown a life preserver. A life 
preserver is what I was given in the form of strong research 
funding to develop innovative technologies to control this 
pathogen.
    Later, I transferred to Texas Tech University, which is in 
the heart of the cattle-feeding industry. I partnered with 
other faculty to conduct several feeding studies to determine 
if a cattle probiotic I had developed controlled pathogens in 
the feedlot. To make a long story short, it did work. After 
several studies, we found that E. coli can be reduced up to 50 
percent in live animals; thus, reducing the risk of product 
contamination. This product has been commercialized and is used 
in many feedyards across the United States.
    Many other things happened in the beef industry to improve 
safety, including the implementation of HACCP and the use of 
antimicrobial interventions. I was able to set up a pathogen 
processing lab at Texas Tech where we developed and validated 
many interventions and simulated food processing environments. 
We formed a strong research team in the International Center 
for Food Industry Excellence, adding additional faculty and 
moving into new facilities.
    When you jump ahead to 2015, there is great news. 
Investment in food safety research in the past 20 years has 
saved lives. In the early 1990s, we were scrambling for 
solutions to control E. coli, but Federal investment in 
translational research delivered effective controls. The FSIS 
testing shows that ground beef contamination has fallen more 
than 90 percent, and the CDC reports that the human incidence 
has been cut in half. However, the food safety problem is far 
from being solved. The incidents of Salmonellosis remains 
steady, and illnesses associated with Campylobacter are 
actually rising. Antibiotic resistance actually decreases our 
ability to treat many of the illnesses associated with these 
pathogens. The availability of funds for food safety research 
has decreased, which leaves scientists scrambling for limited 
resources.
    Research at Texas Tech can address problems on both the 
pre- and post-harvest side of food processing. For example, 
recent data indicates that the probiotic that reduces E. coli 
in cattle also reduces Salmonella in lymph nodes, which is a 
significant source of beef contamination. We have several 
studies underway, studying the mechanisms associated with the 
emergence of antibiotic resistance. And finally, we have 
molecular scientists who study detection technologies so we can 
react to problems quickly. We are well poised and ready to meet 
emerging food safety challenges. Also, of critical importance, 
is a transfer of our knowledge to our stakeholders. We have 
engaged social scientists as a key part of our research team to 
study human behavior in the food plant environment in order to 
effectively implement useful technologies. I am finding that 
more scientists like myself are engaging with social media to 
provide clarity to consumers. I personally have a a site on 
social media, The Food Doctor, which can be found on Facebook, 
where I provide science-based information to the public.
    In summary, investments in research and education save 
lives. There is a need to address food safety issues in the 
U.S. and globally to improve the quality of life, and to 
protect public health for our population. Funding is the key to 
develop new technologies to control emerging pathogens, and to 
communicate science-based information to our final 
stakeholders.
    Thank you very much, and I will be happy to answer any 
questions.
    [The prepared statement of Dr. Brashears follows:]

  Prepared Statement of Mindy M. Brashears, Ph.D., Professor of Food 
      Safety and Public Health, Texas Tech University; Director, 
     International Center for Food Industry Excellence, Lubbock, TX
Food Safety Research
    I would like to introduce myself as a Professor of Food Safety and 
Public Health and the Director of the International Center for Food 
Industry Excellence at Texas Tech University. I received my B.S. in 
Food Technology at Texas Tech University and my M.S. and Ph.D. in Food 
Science with a specialization in food microbiology at Oklahoma State 
University. I began my career as an Assistant Professor of Food Safety 
at the University of Nebraska and moved to Texas Tech University where 
I have been conducting research and developing food safety and security 
educational programs for the past 14 years. Food safety and protecting 
public health has been the focus of my career. I currently serve as the 
Director of the International Center for Food Industry Excellence at 
Texas Tech University. My primary academic appointment involves 
research and outreach with an emphasis on food safety microbiology.
    Contamination of food with pathogenic organisms creates an enormous 
social and economic burden on communities, industry, and health systems 
all over the world (Ajayi, et al., 2011). In the United States alone, 
the Centers for Disease Control and Prevention (CDC) estimate that each 
year, one in six Americans suffers from foodborne illness attributed to 
one of 31 major pathogens transmitted through food (Scallan, et al., 
2011). The CDC estimate these pathogens are responsible for 
approximately 9.4 million foodborne disease episodes, 55,961 
hospitalizations, and 1,351 deaths in the U.S. every year (Scallan, et 
al., 2011). Non-typhoidal Salmonella, Clostridium perfringens, and 
Campylobacter appear in the top five most common bacterial pathogens, 
causing 11, 10 and 9% of illnesses, respectively (Scallan, et al., 
2011). Furthermore, O157 and non-O157 Shiga toxin-producing Escherichia 
coli (STEC) account for approximately 176,000 foodborne illness cases 
annually (Scallan, et al., 2011).
    Data from the Foodborne Disease Active Surveillance Network 
(FoodNet) show that in 2013 alone, 818 foodborne disease outbreaks were 
reported, resulting in 13,360 illnesses, 1,062 hospitalizations, 16 
deaths, and 14 food recalls. Outbreaks caused by Salmonella increased 
39% from 2012 (113) to 2013 (157). Outbreak-associated hospitalizations 
caused by Salmonella increased 38% from 2012 (454) to 2013 (628) (CDC, 
2015). A study conducted by the U.S. Department of Agriculture Economic 
Research Service found that foodborne pathogens impose over $15.5 
billion (2013 dollars) in economic burden on the U.S. public each year 
(Hoffmann, et al., 2015). Eighty-four percent of the economic burden 
from pathogens is due to deaths. This reflects both the importance the 
public places on preventing deaths and the fact that the measure of 
economic burden used for nonfatal illnesses (medical costs + 
productivity loss) is a conservative measure of willingness to pay to 
prevent nonfatal illness.
    At Texas Tech University we have assembled a team of research 
scientists to address global food safety issues. In addition to myself, 
the team includes the following faculty members: Dr. Guy Loneragan, Dr. 
Kendra Nightingale, Dr. Todd Brashears, Dr. Alejandro Echeverry, Dr. 
Leslie Thompson, Dr. Mark Miller, Dr. Chance Brooks, Dr. Marcos Sanchez 
and Dr. Henk Den-Bakker. Our team is a diverse group of scientists who 
have been strategically selected to address issues related to food 
safety and public health in the U.S. and around the world. Addressing 
food safety challenges involves a comprehensive farm-to-table proactive 
approach with regard to research and educational efforts. Our efforts 
do not stop in the laboratory or with a research publication. No 
research study will have impact on reducing illnesses if the final 
results are not transferred to the end user and therefore, in our of 
our research efforts, we strive to connect with our stakeholders. Most 
of our research has focused on beef safety, but we have also expanded 
to other commodities.
    It is important to note that Federal funding was responsible for 
early funding for the International Center for Food Industry Excellence 
(ICFIE) and the research and educational activities involved in this 
center. Our faculty team within ICFIE was able to leverage this money 
each year for a 5:1 or greater research match on the funding from 
competitive USDA, industry, commodity and other government sources. The 
funding has had a tremendous impact on the overall safety of the food 
supply in the U.S. and was responsible in part for most of the studies 
I will discuss in this testimony.
    Investment in food safety research over the past 20 years has saved 
lives. In the early 1990s, we were scrambling for solutions to E. coli 
O157 in ground beef. Federal investment in translational research 
delivered effective controls. The FSIS's testing shows that ground beef 
contamination has fallen more than 90%. The CDC reports that the human 
incidence has fallen in half and met the healthy people 2010 goals. 
Investment can now help solve other food safety challenges. 
Campylobacter, Salmonella, and other emerging pathogens continue to 
injure too many people. Moreover, Antimicrobial Resistance (AMR) makes 
it harder to treat some of these illnesses. Investing in Federal 
research programs will provides solutions and reduces the number of 
people injured by these pathogens, but continued progress is threatened 
by reduced funding of transformative ideas.
    Over the past several years, the availability of funds for food 
safety research at the Federal level has decreased which leaves 
scientists scrambling for limited resources from industry, foundations 
and other sources. Recent outbreaks and emerging pathogens can be 
controlled and even stopped through funding and educational efforts. 
Centers such as ICFIE are well positioned to solve food safety problems 
given the proper resources. In recent years, Federal funding has been 
awarded in large amounts to a small number of scientists limiting the 
application of the intellectual capacity that exists in the U.S. in the 
food safety arena. Additionally, the majority of food safety research 
addressed in the research conducted with these large funds has been 
directed towards STECs which are responsible for much fewer illnesses 
and deaths compared to Salmonella and Campylobacter. Salmonellosis has 
remained constant with little change and recent data indicate that 
Campylobacter is prevalent in many food products with increasing 
numbers of illnesses each year. We are unable to quickly react to 
emerging problems such as antibiotic resistance, Campylobacter and 
others due to the lack of funding available to address these problems. 
It is imperative that funding be available and even increased for food 
safety research and educational efforts in order to protect public 
health. I will highlight some of the research that has had a direct 
impact on improving the safety of the beef supply that has been 
conducted at Texas Tech University and with collaborating institutions.
Research Highlights from Texas Tech
Pre-Harvest Food Safety
    Beef is a staple product in the American diet. The beef production 
chain begins on the farm, prior to harvest. Cattle can harbor foodborne 
pathogens such as Salmonella and Shiga-toxin producing E. coli (STEC) 
such as E. coli O157:H7 that can be transferred to the carcass during 
harvest and can potentially threaten public health. The cattle's hide 
is the primary source of contamination of the final product but the 
carcass can also be contaminated through the environment, the employees 
or direct contact with the contents of the gastrointestinal tract. 
Industry groups such as NCBA provide educational opportunities to 
producers on best practices to follow on the farm which create a clean 
and healthy environment to raise cattle. Research at Texas Tech in the 
pre-harvest realm has targeted interventions that reduce pathogens 
prior to harvest.
    Over the course of my career, a primary focus of my research has 
been on the development of a pre-harvest intervention that reduces 
foodborne pathogens in cattle prior to harvest. The intervention is a 
Lactobacillus-based cattle direct-fed microbial (DFM) which is 
basically a cattle probiotic. The cattle feed additive containing the 
selected cultures has been commercialized and sold under the brand 
names of Bovamine and Bovamine Defend and has been widely implemented 
in the beef and dairy industries in the U.S. This product contains a 
specific strain of Lactobacillus (NP51) that has proven to be effective 
in reducing pathogens in the live animal prior to harvest in many 
research studies over the past 15 years. I have been involved in this 
work from the beginning and its initial development but the work has 
also been validated by other scientific groups. Funding for this work 
was provided by the Beef Checkoff and commodity groups such as NCBA and 
AMIF, direct industry support, the State of Nebraska, and funding from 
the Federal Government. I will summarize many of the studies and 
results of our work in this area.
    The microbial flora is an important component of the 
gastrointestinal tract and certain bacteria have long been recognized 
for beneficial properties and good health. Mechanistically, beneficial 
bacteria can prevent harmful bacterial colonization by competitively 
excluding, producing antibacterial compounds, and/or promoting healthy 
immune function (Berry, et al., 2010). DFM are live bacteria fed to a 
host to elicit a beneficial response, and are typically, but not 
limited to, Lactobacillus spp. strains. Numerous DFM have been 
identified and tested for efficacy against E. coli O157:H7 in cattle 
(Callaway, et al., 2009; Loneragan and Brashears, 2005; Sargeant, et 
al., 2007). The overall goal of our strategy was to identify bacteria 
that are competitive with, or antagonistic to, pathogenic bacteria that 
could be fed as a supplement to the cattle diet without having a 
detrimental impact on animal performance.
    In one of the first large-scale, feedyard studies (Brashears, et 
al. 2003), we evaluated 180 steers for shedding of E. coli O157:H7 on 
arrival at the feedlot, just before treatment with the DFM, and every 
14 days until slaughter. The prevalence on hides and carcasses at 
slaughter was also evaluated. Lactobacillus acidophilus NP51 decreased 
the shedding of E. coli O157:H7 in the feces significantly during the 
feeding period. E. coli O157:H7 was approximately twice as likely to be 
detected in control animal samples as in samples from animals not 
receiving the supplement. In addition, DFM supplementation 
significantly decreased the number of E. coli O157:H7-positive hide 
samples at harvest and the number of pens testing positive for the 
pathogen. The results of this first study suggested that feeding a 
Lactobacillus-based DFM to cattle decreases, but not eliminates, fecal 
shedding of E. coli O157:H7, as well as contamination on hides.
    Younts, et al. (2004) described the prevalence of E. coli O157 in 
the feces and on the hides of finishing beef cattle fed a standard diet 
and those fed diets supplemented with a DFM. Two hundred forty steers 
received one of four treatments: (1) control: (2) HNP51: high dose of 
L. acidophilus strain NP51 (10<SUP>9</SUP> CFU per steer daily) and P. 
freudenreichii (10<SUP>9</SUP> CFU per steer daily); (3) HNP51145: high 
dose of NP51 (10<SUP>9</SUP> CFU per steer daily), P. freudenreichii 
(10<SUP>9</SUP> CFU per steer daily), and L. acidophilus NP45 
(10<SUP>6</SUP> CFU per steer daily); or (5) LNP51145: low dose of NP51 
(10<SUP>6</SUP> CFU per steer daily), P. freudenreichii (10<SUP>9</SUP> 
CFU per steer daily), and NP45 (10<SUP>6</SUP> CFU per steer daily). 
Samples were collected from each animal and analyzed for the presence 
of E. coli O157 on day 0 (feces), 7 days before harvest (feces), and at 
harvest (feces and hide). At the end of the feeding period, cattle 
receiving HNP51 were 57% less likely to shed detectable E. coli O157 in 
their feces than were the controls. Cattle supplemented with a high 
dose of NP51 had reduced E. coli O157 prevalence in both fecal and hide 
samples, again indicating that this treatment may be an efficacious 
pre-harvest intervention strategy.
    A follow-up study by Younts, et al. (2005) evaluated the effects of 
three doses of L. acidophilus strain NP51 and a combination treatment 
of strains NP51 and NP45 on prevalence of E. coli O157 in cattle. Three 
hundred steers were assigned randomly to 60 pens and received one of 
five treatments: (1) control; (2) HNP51, high dose of NP51 at 
10<SUP>9</SUP> CFU per steer daily; (3) MNP51, NP51 at 10<SUP>8</SUP> 
CFU per steer daily; (4) LNP51, low dose of NP51 at 10<SUP>7</SUP> CFU 
per steer daily; and (5) NP51145, NP51 at 10<SUP>9</SUP> CFU per steer 
daily and NP45 at 10<SUP>6</SUP> CFU per steer daily. All DFM 
treatments included P. freudenreichii at 10<SUP>9</SUP> CFU per steer. 
Individual rectal fecal samples were collected on arrival and every 28 
days throughout the feeding period. Cattle receiving HNP51, MNP51, and 
LNP51 had a lower prevalence of E. coli O157 throughout the feeding 
period compared with the controls, and the dose response for NP51 was a 
linear decrease in prevalence with increasing dose. No decrease in 
prevalence for cattle receiving the combination NP51145 was detected 
compared with controls. E. coli O157 prevalence values averaged across 
collection times were 23.9, 10.5, 9.9, 6.8, and 17.3% for cattle in the 
control, LNP51, MNP51, HNP51, and NP51145 groups, respectively. We 
concluded that the greatest decrease in E. coli O157 carriage was 
achieved using NP51 at 10<SUP>9</SUP> CFU per steer.
    Two further subsequent studies demonstrated the effectiveness of 
NP51 in the control of E. coli O157:H7 shedding in cattle. In a study 
conducted by Stephens, et al. (2007), 500 yearling steers were housed 
in pens of ten animals each. Upon arrival, steers were randomly 
allocated to one of five cohorts. Four of the cohorts were fed various 
strains and dosages of Lactobacillus-based DFM throughout the feeding 
period. Fecal samples were collected from the rectum of each animal 
immediately prior to shipment to the abattoir. The prevalence in the 
controls (26.3%) was significantly greater than that in cattle 
supplemented with L. acidophilus strains NP51, NP28, or NP51-NP35 
(13.0, 11.0, and 11.0%, respectively). The greatest E. coli O157 
concentration was observed in the controls (3.2 log most probable 
number, MPN/g of feces); this concentration was significantly greater 
than that observed in positive animals receiving NP51, NP28, or NP51-
NP35 (0.9, 1.1, 1.7 log MPN/g of feces, respectively). We demonstrated 
that specific strains of Lactobacillus-based DFMs effectively reduced 
the prevalence and concentration of E. coli O157 in harvest-ready 
cattle. Another subsequent study we conducted (Stephens, et al. 2007b) 
evaluated the effectiveness of DFM in reducing E. coli O157 and 
Salmonella in beef cattle. Steers (n =240) received one of four 
treatment concentrations: control (lactose carrier only); low 
(10<SUP>7</SUP> CFU per steer daily Lactobacillus acidophilus NP51); 
medium (10<SUP>8</SUP> CFU per steer daily L. acidophilus NP51); and 
high (10<SUP>9</SUP> CFU per steer daily L. acidophilus NP51). All 
diets included 109 CFU per steer Propionibacterium freudenreichii NP24. 
Feces were collected from each animal at allocation of treatment and 
found to have no variation between cohorts concerning E. coli O157 
recovery. No significant dosing effects were detected for E. coli O157 
recovery from feces at the medium dose or from hides at the medium and 
high doses. E. coli O157 was 74% and 69% less likely to be recovered in 
feces from animals receiving the high and low diets, respectively, 
compared with controls. Compared with controls, E. coli O157 was 74% 
less likely to be isolated on hides of cattle receiving the low dose. 
No significant dosing effects were detected for Salmonella recovery 
from feces at the medium and low doses or from hides at any doses. 
Compared with controls, Salmonella was 48% less likely to be shed in 
feces of cattle receiving the high dose.
    Finally, Pond and Brashears (2013, unpublished data) evaluated the 
effect of feeding L. animalis strain NP51 on the prevalence and 
concentration of non-O157 STEC serogroups O26, O45, O103, O111, O121, 
and O145. In one study, conducted in a commercial feedlot, 
approximately 1,800 cattle were randomized upon arrival into treatment 
and control pens. The control pens were fed routine feedlot diets 
whereas treatment pens received a diet that only differed by the daily 
supplementation of 10<SUP>9</SUP> CFU of NP51 and 10<SUP>9</SUP> CFU of 
Propionibacterium NP24. Twenty-five fecal pats were taken from each pen 
(n = 600 samples) prior to transport to a regional abattoir for 
slaughter. A second study was conducted in a research-dedicated 
feedlot. One-hundred twelve cattle were blocked by weight and 
randomized into treatment or control pens at a research feedlot. Fecal 
grabs were collected from the rectum of each animal prior to transport 
to a regional abattoir for slaughter. In the commercial feedlot, E. 
coli O157 was detected in 45% fewer fecal pats compared to the 
contemporaneous control cohort. Within positive samples, the 
concentration of E. coli O157 was 1.23 log<INF>10</INF> CFU/g lower 
among treated animals compared to controls (P = 0.02). Genes encoding 
serogroups O26, O45, O103 and O121 were detected 53.2% (P = 0.01), 
41.2% (P < 0.01), 34.6% (P = 0.03) and 47.4% (P = 0.02), respectively, 
less frequently among treated animals compared to controls. In the 
research feedlot, E. coli O157 was recovered from 75% fewer treated 
cattle compared to controls. However, no differences were detected for 
the non-O157 serogroups evaluated. The results of this study show 
promising evidence that the use of DFM may be effective in reducing the 
prevalence and concentration of non-O157 STEC, along with a proven 
effectiveness for the reduction of STEC O157 and Salmonella in the 
feces and lymph nodes of beef cattle.
    As previously stated, many other research groups have evaluated the 
efficacy of NP51 in reducing pathogens in the gastrointestinal tract of 
cattle. In a recent study published in Zoonosis and Public Health 
(Wisener, et al., 2015), they conducted a Meta-analysis of 16 
independent research studies related to pathogen reduction in cattle 
when fed NP51. From the 16 studies, they concluded that the NP51 
significantly reduced E. coli O157:H7 prevalence and when used in 
cattle feeding systems could prevent human illnesses from beef 
products.
    While pathogen contamination in the GI tract is a concern, we have 
also generated significant data in recent years indicating that 
Salmonella can be harbored in the lymph nodes of the animals and can be 
incorporated into ground beef thus posing a public health risk. During 
the past 3 years, several studies have been conducted in the Food 
Safety Laboratories at Texas Tech University to evaluate the effect of 
DFM on the prevalence and concentration of Salmonella and STEC in 
bovine feces and lymph nodes. A study conducted in our lab (Vipham, et 
al., 2015) evaluated a total of 112 steers blocked by weight in a 
research feedlot with 14 pens/treatment and 4 steers/pen. Cattle were 
randomized to either a control group or a treatment group with 
10<SUP>9</SUP>/head/day L. animalis NP51 supplementation. Immediately 
after slaughter, LN were acquired from the steers (n=107). Salmonella 
prevalence in bovine subiliac LN from control cattle was found to be 
34.0%. A significant reduction in Salmonella prevalence of 88.0 % was 
observed between control cattle and cattle fed NP51. Salmonella 
concentration in treatment cattle were more likely to be low (at 1 log 
CFU/g or below the level of detection) while higher (4 log CFU/g) 
concentrations were more likely to be found in control samples. The 
results from this study indicated that supplementation with 
10<SUP>9</SUP>/head/day NP51 as a pre-harvest intervention will 
successfully reduce both the prevalence and concentration of Salmonella 
in bovine lymph nodes.
    Guillen and Brashears (2015, unpublished data) evaluated the effect 
of L. acidophilus NP51 at a rate of 10<SUP>9</SUP>/head/day (NP51) on 
the reduction of Salmonella prevalence in cattle lymph nodes. 
Approximately 1,800 cattle were randomized into two treatments in a 
commercial feedlot with 12 pens/treatment and 75 head/pen. Subiliac 
lymph nodes were obtained from approximately 25 animals/pen (n= 600) at 
the slaughter facility. Salmonella was recovered from 25% fewer LN for 
cattle fed NP51 when compared to controls. Quantitatively the NP51 
cattle had significantly less Salmonella in lymph nodes (3.1 vs. 4.2 
log<INF>10</INF> cfu/lymph node) and per gram of lymph nodes (1.9 vs. 
2.9 log<INF>10</INF> cfu/g). Control samples were more likely to have a 
higher concentration of Salmonella in lymph nodes with 10.4% vs. 11.7% 
between 3 and 4 log<INF>10</INF> cfu/g; 13.7% vs. 6.4% between 4 and 5 
log<INF>10</INF> cfu/g, and 7.5% vs. 2.1% greater than 5 
log<INF>10</INF> cfu/g. The results of this study indicated that 
supplementation with NP51 is an effective pre-harvest intervention to 
reduce the prevalence of Salmonella in cattle lymph nodes, which may 
lead to a decrease in the Salmonella prevalence if ground beef.
    Recently, a study was conducted to examine the efficacy of using 
Lactobacillus animalis and Propionibacterium freudenreichii (NP24) to 
control Salmonella within PLNs of feedlot cattle (Gragg, et al., 2013). 
Cattle were randomly allocated into either control or DFM treatment 
groups. Diets of treated cattle were supplemented with 10<SUP>9</SUP> 
CFU/head/day of the DFM, while control groups received no DFM 
supplementation. During slaughter, one subiliac lymph node (SLN) per 
carcass was collected from 627 carcasses from one study and 99 
carcasses from a second study. In the first study, effects of DFM 
supplementation varied across slaughter days. On the first and second 
slaughter days, the prevalence of Salmonella was significantly reduced 
by 50% and 31%, respectively. In the second study, Salmonella was 82% 
less likely (p = 0.008) to be recovered from SLNs of treatment cattle. 
While a greater relative risk reduction was observed in the latter 
study, absolute risk reductions were similar across studies. Once 
again, the results indicated that NP51 and NP24 supplementation may aid 
in reducing the prevalence and concentration of Salmonella in SLNs and, 
therefore, serve as an effective control measure to reduce Salmonella 
in ground beef products.
Post-Harvest Food Safety
    At Texas Tech University we have a very specialized set up to 
evaluate processes in simulated industry settings. More than 100 food 
processes have been validated in our pathogen processing area in which 
results are proprietary to protect specific companies. This validation 
service is offered for companies with a need to determine if their 
processes result in adequate reduction of pathogens during processing. 
In general, we have validated safe procedures for the production of 
cooked products, fresh products and even pet foods. We have also 
utilized this research laboratory space to a conduct research that 
addresses food safety issues to generate data that are directly 
applicable to the industry and can be used to make process decisions to 
produce safe food products.
    We have generated data on reducing the food safety risks of needle 
tenderized beef products. In one study, we evaluated three different 
intervention strategies (lactic acid, lactic acid bacteria, and 
acidified sodium chlorite) to control E. coli O157:H7 and Salmonella in 
mechanically tenderized and brine-enhanced beef strip loins when 
applied to the steaks prior to packaging and shipment for processing. 
After tenderization, lactic acid bacteria reduced internal E. coli 
O157:H7 loads 1.2 to 2.2 log cycles, while the acidified sodium 
chlorite and lactic acid reduced them between 0.8 and 3.0 log, 
respectively. Salmonella was also reduced internally after application 
of all interventions between 0.9 and 2.2 log. The application of 
antimicrobials to the steaks prior to packaging and shipment on day 0 
was effective in reducing internalization of both pathogens in non-
intact beef products. (Echeverry, et al., 2009) In a similar study, our 
aim was to validate the use of lactic acid bacteria (LAB), acidified 
sodium chlorite (ASC), and lactic acid (LA) sprays when applied under a 
simulated purveyor setting as effective interventions to control and 
reduce E. coli O157:H7 and Salmonella prior to tenderization. LAB and 
LA reduced internal E. coli O157:H7 loads up to 3.0 log, while ASC 
reduced the pathogen 1.4 to 2.3 log more than the control (P < 0.05), 
respectively. Salmonella Typhimurium DT 104 was also reduced internally 
1.3 to 2.8, 1.0 to 2.3, and 1.4 to 1.8 log after application of LAB, 
LA, and ASC, respectively. (Echeverry, et al., 2010).
    We also evaluated the impact of various interventions on the 
reduction of pathogens during ground beef production. These data are 
important to inform producers on the proper use of interventions in 
industry settings. We conducted a study to determine if acidified 
sodium chlorite (1,200 ppm) and acetic and lactic acids (2 and 4%) were 
effective in reducing foodborne pathogens in beef trim prior to 
grinding in a simulated processing environment. The reduction of 
Salmonella Typhimurium and Escherichia coli O157:H7 at high (4.0 log 
CFU/g) and low (1.0 log CFU/g) inoculation doses was evaluated. All 
antimicrobial treatments reduced the pathogens on the trim inoculated 
with the lower inoculation dose to non-detectable numbers in the trim 
and in the ground beef. There were significant reductions of both 
pathogens in the trim and in the ground beef inoculated with the high 
inoculation doses. On the trim itself, E. coli O157:H7 and Salmonella 
Typhimurium were reduced by 1.5 to 2.0 log cycles, with no differences 
among all treatments. In the ground beef, the organic acids were more 
effective in reducing both pathogens than the acidified sodium chlorite 
immediately after grinding, but after 1 day of storage, there were no 
differences among treatments. Overall, in the ground beef, there was a 
2.5-log reduction of E. coli O157:H7 and a 1.5-log reduction of 
Salmonella Typhimurium that was sustained over time in refrigerated and 
frozen storage. Very few sensory differences between the control 
samples and the treated samples were detected by a consumer panel. 
(Harris, 2006)
    In a similar study we compared the effectiveness of two application 
methods (dip versus spray) of 4.4% lactic acid for reducing pathogens 
on inoculated beef trim and in ground beef. Beef trim inoculated with 
cocktail mixtures of E. coli O157:H7, non-O157 Shiga toxigenic E. coli 
(STEC), or Salmonella (10<SUP>5</SUP> to 10<SUP>6</SUP> CFU/g) at 
separate times was subjected to five treatments: lactic acid spray 
(LS), lactic acid dip (LD), water spray (WS), water dip (WD), and 
untreated control (CTL). The dip treatment reduced all pathogens 
significantly (P < 0.05); E. coli O157:H7 was reduced by 0.91 to 1.41 
log CFU/g on beef trim and ground beef, non-O157 STEC by 0.48 to 0.82 
log CFU/g, and Salmonella by 0.51 to 0.81 log CFU/g. (Wulf, et al., 
2012)
    While the use of interventions is prevalent in the beef industry, 
mechanical interventions are also valuable. I have also been involved 
in the development of a spin-off company of Texas Tech University, 
MicroZap which is a technology company which has several U.S. and 
international patents on a process that utilizes the use of microwaves 
in unique configurations to solve a number of world problems including 
killing of MRSA (Methicillin resistant Staphlococcus aureus) (Laury, et 
al., 2011), pasteurizing eggs (Lakins, et al., 2008, 2009), improving 
water safety for third world countries and extending the shelf-life of 
bread by eliminating the molds thus decreasing food waste (Lakins, et 
al., 2008). The current goal of the use of the MicroZap system is to 
kill Salmonella in peanut butter. Overall, the microwave technology 
uses radio waves in the microwave spectrum in a novel and controlled 
process to reduce pathogens in foods without damaging the food. 
Pathogens and other microorganisms are killed without cooking the food 
when the microwaves are properly applied because in addition to the 
killing action of the temperature itself, the energy generated from the 
microwaves also cause a non-thermal killing effect which allows 
treatment at lower temperatures than simply using temperature alone.
    The MicroZap system kills of Salmonella on peanuts (Laury, et al., 
2011) and we found that 99% of the Salmonella was killed on the surface 
of the raw peanuts after treatment in the MicroZap chamber. We can also 
achieve a 3 log reduction (99.5%) of Salmonella in peanut butter in the 
jars. The use of the MicroZap system was highlighted by the BBC in 2012 
and there are many potential applications of the technology with the 
reduction of Salmonella in peanut butter being at the top of the list. 
The specific production parameters of the technology must be optimized 
to kill pathogens and also to preserve the quality of the food itself.
Safety of Imported Products and Food Security
    Much food safety research in our program has focused on improving 
food safety and security in Latin America and the Caribbean. Foodborne 
diarrheal illness is the number one cause of death in children under 
five in Mexico. This is a preventable problem as the key need is 
education. We do not need a new technology, we need to educate the 
industry and consumers on proper food handing. Currently we have active 
projects in Mexico, Honduras, Nicaragua, Costa Rica, Panama, Colombia, 
Bahamas, the Dominican Republic and Haiti. The bulk of the work is in 
Mexico, Honduras and the Bahamas. In our international program efforts, 
we have developed relationships and partnerships to improve food 
safety, security and public health through research and education. Our 
goals are to improve technical knowledge, share research innovations 
across borders, invest in international development of third world 
countries and to increase market access for U.S. industries.
    Of key importance is the validation of the safety of products from 
plants that export to product to the U.S. We have conducted validation 
studies in beef slaughter plants in Mexico, Honduras, Nicaragua and 
Costa Rica to validate the efficacy of the process with regard to 
Salmonella and STEC contamination. This was of key importance to the 
U.S. industry and to the company. In a Honduran beef plant that 
exported product to the U.S., the total Salmonella detected on hides 
was 17.5%, pre-evisceration carcasses contained 6.7% samples that were 
positive while there were none found on the final carcass (Maradiaga, 
et al., 2015). In Mexico, we evaluated both Salmonella and E. coli 
O157:H7 prevalence during beef harvest. With regards to Salmonella, the 
hides were 80% positive, the pre-evisceration carcasses had 15% of the 
samples positive for Salmonella while none of the samples from the 
cooler were positive. In the same facility in Mexico, 6% of the hides 
were positive for E. coli O157:H7 while none of the carcass samples at 
any sampling point were positive. The study was repeated in Nicaragua 
where 90% of the hide samples tested positive for Salmonella and none 
of the carcass samples were positive for the pathogen. We tested the 
prevalence of the non-O157:H7 O groups from the hide samples in 
Honduras and Nicaragua and found the majority were O26, O131 and O45. A 
similar trend was found in plants that export product to the U.S. in 
Costa Rica. The focus of this study was non-O157:H7 STECS. The hides 
were up to 96% positive, but very little pathogen contamination was 
found on the final carcasses with only two of 90 testing positive. The 
prevalent O groups were O103 and O45. In all inspected facilities that 
export beef to the U.S. and are overseen by FSIS oversight, the 
prevalence of pathogens is very low and equivalent to the U.S. pathogen 
baselines. The FSIS oversight in these countries is working to prevent 
public health hazards.
    In contrast, we also observed facilities and products from 
facilities that were not subjected to U.S. equivalency rules. These 
facilities are in desperate need of educational efforts. Salmonella 
prevalence in some of the facilities was up to 100% and poor dressing 
procedures were observed. These numbers correlated to high Salmonella 
prevalence in market samples with 80% being positive. Unfortunately, 
these markets serve the poorest, most vulnerable populations and there 
is a need to protect public health in these areas.
Communication and Outreach to Industry
Capacity Building
    In the fall of 2012, we received a capacity building grant from the 
USDA-NIFA Non-Land Grant Capacity Building (NLGCB) program in the 
amount of $690,000. This money was leveraged for an equipment donation 
from the Pall Corporation for an additional $150,000. The title of this 
project is ``Building Laboratory and Intellectual Capacity in order to 
Effectively Detect and Reduce Salmonella in the Food Supply.'' While 
much attention and funding has been directed at STEC detection and 
reduction in recent years, universities along the Southwest corridor 
are severely lacking in the equipment, knowledge and human capacity to 
effectively detect and mitigate Salmonella in foods, especially in the 
small ruminants and fresh fruits and vegetables that account for much 
of Hispanic diet in this region of the U.S.
    This program was built on three underlying needs. First, non-land-
grant universities such as Texas Tech have limited resources available 
to build research and educational capacity. Second, teams of scientists 
who can work to solve this issue must have the scientific skills to 
work in the laboratory and field, but must also have the relational 
skills to work effectively within multidisciplinary teams, and third, 
faculty teaching must constantly evolve and improve to meet the 
changing needs of the industry. In order to effectively address these 
three needs, our team proposed a multidisciplinary approach to 
efficiently meet four objectives.
    Our first objective deals with our ability to build human capital 
in all STEM fields related to this problem of detecting and mitigating 
Salmonella in the food supply. In order to identify high-ability 
undergraduate students who would work in the U.S. and in Latin America, 
we created the SOWER Scholar program. SOWER stands for Sustaining our 
World through Education and Research. The concept is to recruit, train 
and return students to countries where their academic preparation and 
directly affect food production. In conjunction with partnering 
universities, we have hosted 35 students from Zamorano University in 
Honduras. This USAID agricultural school recruits the best 
undergraduates from Latin American countries and trains them in 
agriculture. During their final year, they are required to complete an 
internship. We take 10-20 students each spring and match them with a 
faculty member for an intense 4 month program. They range from food 
safety, meat science, soil and plant science, communications, economics 
and human nutrition. This program is design to improve English speaking 
and writing, research skills, laboratory skills as well as identify 
which of these students are best equipped to return in for graduate 
programs. We currently have nine graduate students who have come 
through this program and it continues to grow as we hosted 30 
undergraduate interns this summer and have another 35 coming this fall 
for short-term experiences.
    Our second objective focuses on developing those graduate students 
to be change agents by equipping them with the knowledge, skills and 
abilities to dramatically impact the region from a food security 
perspective. While technical skills are a necessity and can be provided 
in many universities, we wanted to go beyond the traditional technical 
training to produce students with the ability and the passion to have 
positive impacts in agriculture. We exceeded our grant activities of 
providing limited distance resources and created a graduate certificate 
in Global Food Security that can be delivered on campus or at a 
distance. This certificate includes two all-new introductory courses in 
food security and four tracks that allow a student to specialize their 
educational experience. These tracks align with the U.N.'s Pillars of 
Food Security: Access, Availability, Stability and Utilization. Our 
track areas within these pillars include Production, Food Safety, Human 
Nutrition and Program Development and Analysis. This graduate 
certificate has been approved at all levels at Texas Tech and is 
waiting on approval from the Texas Higher Education Coordinating Board, 
which we expect in October. When this program launches in January, we 
expect 30+ graduate students from Texas Tech University, San Angelo 
State and California State University--Fresno to make up the first 
cohort.
    In addition to our two southwest regional partners, we have formed 
relationships with multiple universities and industry groups throughout 
the U.S. and Latin America. Our faculty continues to expand their 
knowledge and understanding of their role in improving food safety 
through training and professional development opportunities. Through 
the course of installing new equipment in laboratories at San Angelo 
State and CSU--Fresno, we have trained multiple faculty members and 
students on proper sampling and testing techniques. These training 
opportunities have also led to the expansion of our understanding of 
the breadth of the problem within the small ruminant population. Over a 
14 month period samples were collected to determine a microbial 
prevalence for sheep and goats. Fecal samples were collected from the 
Bahamas, Mexico, Texas, New Mexico and California from abattoirs and 
farm locations. Fecal samples from small-ruminants were found to have 
14.02% Salmonella prevalence (N=535), 15.30% Escherichia coli O157 
prevalence (N=477) and 80.68% Campylobacter prevalence (N=176). Retail 
samples collected from the Bahamas and U.S. were found to have a 
Salmonella prevalence of 16.98% (N=106). This analysis was conducted 
and completed by students and faculty using skills and equipment that 
only exist as a result of this grant project.
    Finally, this project has helped forge permanent collaborative 
partnerships at two levels. We have created horizontal connections 
focused on research, education and international experiences between 
the three universities in the southwest U.S. and better equipped them 
to detect and reduce Salmonella in the U.S. food supply. We have also 
created a wealth of vertical connections between our faculty and 
international partners in universities, government agencies and 
industry. The U.S. food supply is safer today because of the actions of 
this grant project that it would have been otherwise, but far more work 
is needed to protect consumers as markets continue to expand and 
globalize.
Consumer Education through the Media
    There is a strong effort to communicate our findings to our 
stakeholders, we hold food safety workshops for stakeholders (cattle 
producers, food industry, consumers), have a website (www.icfie.co) and 
participate in dozens of industry conferences each year. It is 
important for scientists like myself and our team to help consumers 
understand the safeguards in place and their role in food safety. I'm 
finding more scientists like myself engaging with social media to 
provide clarity to consumers. I personally have a site on social media 
(The Food Doctor) which can be found on Facebook where I provide 
science-based information for the public. I recently appeared on the 
Today Show to negate negative information that was conveyed in a 
Consumer Reports article about the beef industry. It is important for 
consumers to have a readily-available science-based source of 
information in order to make informed decisions about agriculture.
    In summary, investments in research and education save lives. There 
is a need to address food safety issues in the U.S. and globally to 
improve the quality of life and protect public health for our 
population. Funding is the key to develop new technologies to control 
emerging pathogens and to communicate science-based information to the 
consumer.

 
 
 
    1. Ajayi, O., L.L. Williams, J. Oluwoy, J.U. Johnson, F. Okafor, O-
 G. Sanders, and T. Wilson. 2011. Epidemiological Approaches to Food
 Safety. Food Protection Trends. 31, 560-568.
    2. Berrry, E. and J.E. Wells. 2010. Escherichia coli O157:H7: Recent
 Advances in Research on Occurrence, Transmission, and Control in Cattle
 and the Production Environment. Advances in Food and Nutrition
 Research. 60, 67-117.
    3. Brashears, M.M., M.L. Galyean, G.H. Loneragan, J.E., Mann, and K.
 Killinger-Mann. 2003. Prevalence of Escherichia coli O157:H7 and
 performance by beef feedlot cattle given Lactobacillus direct-fed
 microbials. Journal of Food Protection. 66, 748-754.
    4. Callaway, T.R., M.A. Carr, T.S. Edrington, R.C. Anderson, D.J.
 Nesbit. 2009. Diet, Escherichia coli O157:H7, and Cattle: A Review
 After 10 Years. Current Issues in Molecular Biology. 11, 67-80.
    5. Centers for Disease Control and Prevention (CDC). 2015.
 Surveillance for Foodborne Disease Outbreaks, United States, 2013,
 Annual Report. Available online at http://www.cdc.gov/foodsafety/pdfs/
 foodborne-disease-outbreaks-annual-report-2013-508c.pdf. Accessed on 09/
 23/2015
    6. Chaves, B.D., A. Echeverry, L.G. Garcia, M.T. Brashears, M.F.
 Miller, and M.M. Brashears. 2015. Seasonal prevalence of potentially
 positive non-O157 Shiga toxin-producing Escherichia coli (STEC) bovine
 hides and carcasses in Costa Rica. Meat Science. 110, 196-200.
    7. Chaves, B.D., M.F. Miller, M. Maradiaga, M.A. Calle, L. Thompson,
 S.P. Jackson, T. Jackson, L.G. Garcia, A. Echeverry, H. Ruiz, and M.M.
 Brashears. 2013. Evaluation of process control to prevent contamination
 of beef with non-O157 Shiga toxin-producing Escherichia coli (STEC) in
 U.S. export abattoirs in Honduras and Nicaragua. Food Protection
 Trends, 33(4):224-230.
    8. Crim, S., M. Iwamoto, J.Y. Huang, P.M. Griffin, D. Gilliss, A.B.
 Cronquist, M. Cartter, M. Tobin-D'Angelo, D. Blythe, K. Smith, et al.,
 2014. Incidence and Trends of Infection with Pathogens Transmitted
 Commonly Through Food--Foodborne Diseases Active Surveillance Network,
 10 U.S. Sites, 2006-2013. MMWR. 63, 328-332.
    9. Doores, S. 1999. Food Safety: Current Status and Future Needs.
 American Academy of Microbiology. Washington D.C. On-line version
 accessed on 03.06.15 at http://academy.asm.org/index.php/food-
 microbiology/437-food-safety-current-status-and-future-needs.
    10. Echeverry, A., J.C. Brooks, M.F. Miller, J.A. Collins, G.H.
 Loneragan, and M.M. Brashears. 2009. Validation of Intervention
 Strategies to Control Escherichia coli O157:H7 and Salmonella
 Typhimurium DT 104 in Mechanically Tenderized and Brine Enhanced Beef.
 Journal of Food Protection. 72, 1616-1623.
    11. Echeverry, J.C. Brooks, M.F. Miller, J.A. Collins, G.H.
 Loneragan, and M.M. Brashears. 2010. Validation Of Lactic Acid
 Bacteria, Lactic Acid, And Acidified Sodium Chlorite As Decontaminating
 Interventions To Control Escherichia coli O157:H7 And Salmonella
 Typhimurium DT 104 In Mechanically Tenderized And Brine Enhanced (Non-
 Intact) Beef At The Purveyor. Journal of Food Protection. 73, 2169-
 2179.
    12. Gragg, S.E., G.H. Loneragan, M.M. Brashears, T.M. Arthur, J.M.
 Bosilevac, N. Kalchayanand, R. Wang, J.W. Schmidt, J.C. Brooks, S.D.
 Shackelford, T.L. Wheeler, T.R. Brown, T.S. Edrington, and D.M. Brichta-
 Harhay. 2013. Cross-sectional Study Examining Salmonella enterica
 Carriage in Subiliac Lymph Nodes of Cull and Feedlot Cattle at Harvest.
 Foodborne Pathogens and Disease. 10, 368-374.
    13. Harris, K., M.F. Miller, G.H. Loneragan, and M.M. Brashears.
 2006. Validation of the Use of Organic Acids and Acidifed Sodium
 Chlorite To Reduce Escherichia coli O157 and Salmonella Typhimurium in
 Beef Trim and Ground Beef in a Simulated Processing Environment.
 Journal of Food Protection. 69, 1802-1807.
    14. Hoffmann, S.B. Maculloch, and M. Batz. 2015. Economic Burden of
 Major Foodborne Illnesses Acquired in the United States. United States
 Department of Agriculture Economic Research Service. Available online
 at http://www.ers.usda.gov/media/1837791/eib140.pdf. Accessed on 09/23/
 2015.
    15. Lakins, D., A. Echeverry, C.Z. Alvarado, J.C. Brooks, M.T.
 Brashears, and M.M. Brashears 2008. Quality and Mold Growth on White
 Enriched Bread for Military Rations Following Directional Microwave
 Treatment. Journal of Food Science. 73, 99-103.
    16. Lakins, D., C.Z. Alvarado, L.D. Thompson, M.T. Brashears, J.C.
 Brooks, and M.M. Brashears. 2008. Reduction of Salmonella Enteritidis
 in Shell Eggs Using Directional Microwave Technology. Poultry Science.
 87, 985-991.
    17. Laury A.M., K. Fermin, D. Stull, A. Neuber, J.C. Brooks, M.T.
 Brashears, C. Alvarado, and M.M. Brashears. 2011. Reduction of
 Methicillin-resistant Staphylococcus aureus (MRSA) on towels utilizing
 targeted directional microwave technology. 111th General Meeting of the
 American Society for Microbiology, May 21-24, New Orleans, LA.
    18. Laury A.M., K. Fermin, D. Stull, A. Neuber, J.C. Brooks, M.T.
 Brashears, C. Alvarado, and M.M. Brashears. 2011. Re-distribution of
 Methicillin-resistant Staphylococcus aureus (MRSA) during the
 laundering of cotton towels. 111th General Meeting of the American
 Society for Microbiology, May 21-24, New Orleans, LA.
    19. Loneragan, G.H. and M.M. Brashears. 2005. Pre-harvest
 interventions to reduce carriage of E. coli O157 by harvest-ready
 feedlot cattle. Meat Science. 71, 72-78.
    20. Mangen, M.-J., M.B. Batz, A. Kasboher, T. Hald, J.G. Morris, M.
 Taylor, A. Havelaar. I2010. Integrated Approaches for the Public Health
 Prioritization of Foodborne and Zoonotic Pathogens. Risk Analysis. 30,
 782-787.
    21. Maradiaga, M., M.F. Miller, L. Thompson, A. Pond, S.E. Gragg, A.
 Echeverry, L.G. Garcia, G.H. Loneragan, and M.M. Brashears. 2013.
 Salmonella in Retail Beef and Produce from Honduras and Mexico.
 Submitted to the International Journal of Food Microbiology (In
 Review). Journal of Food Protection. 3, 498-502.
    22. Narvaez-Bravo, C., M.F. Miller, T. Jackson, S. Jackson, A. Rodas-
 Gonzalez, K. Pond, A. Echeverry, and M.M. Brashears. 2013. Salmonella
 and Escherichia coli O157:H7 Prevalence in Cattle and on Carcasses in a
 Vertically Integrated Feedlot and Harvest Plant in Mexico. Journal of
 Food Protection. 76, 786-795.
    23. Sargeant, J.M., M.R. Amezcua, A. Rajic and L. Waddell. 2007. Pre-
 harvest interventions to reduce the shedding of E. coli O157 in the
 faeces of weaned domestic ruminants: a systematic review. Zoonoses and
 Public Health. 54, 260-277.
    24. Scallan E., Hoekstra R.M., Angulo F.J., Tauxe R.V., Widdowson M.-
 A., Roy S.L., et al., 2011. Foodborne illness acquired in the United
 States--major pathogens. Emerging Infectious Diseases. 17, 7-15.
    25. Stephens, T.P., G.H. Loneragan, E. Karunasena, and M.M.
 Brashears. 2007a. Reduction of Escherichia coli O157 and Salmonella in
 feces and on hides of feedlot cattle using various doses of a direct-
 fed microbial. Journal of Food Protection. 70, 2386-2391.
    26. Stephens, T.P., G.H. Loneragan, L.M. Chichester, and M.M.
 Brashears. 2007b. Prevalence and enumeration of Escherichia coli O157
 in steers receiving various strains of Lactobacillus-based direct-fed
 microbials. Journal of Food Protection. 70, 1252-1255.
    27. Vipham, J.L., G.H. Loneragan, L.M. Guillen, J.C. Brooks, B.J.
 Johnson, A. Pond, N. Pond, and M.M. Brashears. 2015. Reduced Burden of
 Salmonella enterica in Bovine Subiliac Lymph Nodes Associated with
 Administration of a Direct-fed Microbial. Zoonoses and Public Health.
 Article first published online: 17 MAR 2015. DOI: 10.1111/zph.12187
    28. Wolf, M.J., M.F. Miller, A.R. Parks, G.H. Loneragan, A.J.
 Garmyn, L.D. Thompson, A. Echeverry, and M.M. Brashears. 2012.
 Validation Comparing the Effectiveness of a Lactic Acid Dip with a
 Lactic Acid Spray for Reducing Escherichia coli O157:H7, Salmonella,
 and Non-O157 Shiga Toxigenic Escherichia coli on Beef Trim and Ground
 Beef. Journal of Food Protection. 75, 1968-1973.
    29. Younts-Dahl, S.M., G.D. Osborn, M.L. Galyean, D.J. Rivera, G.H.
 Loneragan, and M.M. Brashears. 2005. Reduction of Escherichia coli O157
 in finishing beef cattle by various doses of Lactobacillus. Journal of
 Food Protection. 68, 6-10.
    30. Younts-Dahl, S.M., M.L. Galyean, G.H. Loneragan, N.A., Elam, and
 M.M. Brashears. 2004. Dietary supplementation with Lactobacillus- and
 Propionibacterium-based direct-fed microbials and prevalence of
 Escherichia coli O157 in beef feedlot cattle and on hides at harvest.
 Journal of Food Protection. 67, 889-893.
 


    The Chairman. Thank you, Dr. Brashears.
    Dr. Heithaus.

   STATEMENT OF MICHAEL R. HEITHAUS, Ph.D., ASSOCIATE DEAN, 
             COLLEGE OF ARTS AND SCIENCES, FLORIDA
    INTERNATIONAL UNIVERSITY; EXECUTIVE DIRECTOR, SCHOOL OF 
         ENVIRONMENT, ARTS AND SOCIETY, NORTH MIAMI, FL

    Dr. Heithaus. Thank you. Chairman Davis, Ranking Member 
DelBene, Members of the Committee, especially our Florida 
friends, Congressman Yoho and Congresswoman Graham. It is an 
honor to be here to discuss some of the innovations advanced at 
Florida International University aimed at enhancing 
agricultural science and research nationwide.
    FIU is Miami's only public research university, and is the 
fourth largest university in the country, enrolling 55,000 
students and conducting over $130 million of research every 
year. We see FIU as a national resource for agricultural 
research at the USDA, who hired 50 of our grads last year.
    Together with the state's land-grant institution, 
University of Florida, and Miami-Dade County's agricultural 
office, led by Charles Laprad, FIU is helping address three 
major agricultural crises in our service area, whose ag 
industry employs over 20,000 people, and produced more than 
$2.7 billion in economic impact each year for the county. So 
these risks to our subtropical and tropical crops and 
ornamentals include exotic pests and disease, like citrus 
greening and laurel wilt that are being introduced into the 
U.S. at alarming rates. They have cost Miami-Dade County 
billions of dollars in treatment, eradication programs, and 
lost revenue. Local weather patterns and climate are shifting, 
and it is going to affect the crops we can grow and threatens 
food security. This is compounded with the water management 
challenges to ensure that we balance the needs of urban, 
agricultural, and natural systems. Finally, agriculture is an 
industry with an aging workforce. We have to find ways to bring 
in more young people and to diversify.
    I would like to share some thoughts on the unique ability 
of our country's Hispanic-serving agricultural colleges and 
universities, or HSACUs, of which there are 80 countrywide, to 
accelerate research and better complement the extension and 
teaching of our land-grants. In many ways, the collaboration 
and complementary roles played by FIU and UF are a metaphor for 
the future collaboration with HSACUs and what it should look 
like. As we see in Miami-Dade County, these agricultural 
challenges are too important to leave to a single institution. 
As a testament to FIU's efforts, it was one of the first 
universities in the nation to receive USDA's HSACU designation. 
And although FIU faculty staff and students are helping to 
address the challenges I mentioned previously, Federal 
partnerships and competitive funding are critical to ensuring 
that we maximize our impact.
    I would like to highlight four of our impact areas. First, 
we are helping to develop more resilient crops. Our researchers 
are working with collaborators to develop new crop varieties 
like chickpeas, lentils, and mangos that are more resilient to 
changes in climate. The wild relatives of our domesticated 
crops are better able to survive variation in growing 
conditions like droughts or too much rainfall. By using 
cutting-edge genetic techniques, we can incorporate that 
hardiness of the wild relatives of the crops, while maintaining 
the benefits of the domestic varieties.
    We are also helping to combat invasive pests. The 
aggressive Asian Redbay Ambrosia Beetle has Florida's 
multimillion dollar avocado industry in limbo. The insect 
spreads laurel wilt, which is deadly to avocado trees. And our 
researchers, led by our Provost, Dr. Ken Furton, have developed 
a unique detection program called Detector Canines that couples 
drone technology and canine scent detection. And this is a 
really important approach because it holds promise for 
detecting emerging diseases before they become so widespread 
that the cost of combating them just becomes crippling to an 
industry.
    We are also working with the University of Florida to build 
an agribusiness incubator that will help generate high-tech 
solutions, and add value to raw agricultural products that will 
help overcome food waste challenges, while stimulating further 
economic activity.
    Finally, we are training the next generation of farmers, 
particularly from underrepresented groups. The FIU Agroecology 
Program, with its partners, has trained hundreds of students 
and developed a veteran and small farmer training program.
    So what is the future of our nation's Hispanic-serving 
institutions in agriculture? Congress and USDA have made 
important strides to engage with the greater Hispanic-serving 
community, and particularly the heavy lift by the National 
Institute on Food and Agriculture, and several of its leaders 
like Director Ramaswamy and Drs. Qureshi and Lawrence.
    There are lots of examples with direct impact, but there 
are two thoughts on specific policy challenges. First, we have 
to build capacity at HSIs through the HSACU programs. Post-
secondary Hispanic students are now enrolled mostly at HSIs, 
with over 60 percent of Hispanics nationwide at these 
institutions. Hispanics represent 50 percent of all farm 
laborers and supervisors, but only three percent of doctoral 
recipients in the biological agricultural and life sciences. So 
we are leaving a ton of talent untapped, and we have not funded 
any of the programs authorized in 2008 for the HSACU.
    Second, we need to incorporate the Hispanic-serving 
institutions into the land-grant ecosystem. As UF and FIU have 
proven, collaboration between a land-grant and an HSI is a win 
for all involved. We need much more such collaborations around 
the country, and ways to incentivize better collaboration. 
There is tremendous opportunity in the future, and FIU looks 
forward to working with Congress and the USDA to accelerate 
agricultural research, extension, and teaching.
    Thank you very much.
    [The prepared statement of Dr. Heithaus follows:]

   Prepared Statement of Michael R. Heithaus, Ph.D., Associate Dean, 
    College of Arts and Sciences, Florida International University; 
                               Executive
   Director, School of Environment, Arts and Society, North Miami, FL
Part 1: Innovations in Research and Training Provided by a Member of 
        the Hispanic-Serving Agricultural Colleges and Universities
    Florida International University (FIU), Miami's only public 
research university, is finding solutions to some of the most 
challenging problems of our time. As the 4th largest university in the 
country, and the largest Hispanic-serving university in the United 
States, FIU enrolls more than 55,000 students and conducts over $132 
million in research expenditures every year. FIU is an anchor 
institution in South Florida contributing $8.9 billion each year to the 
local economy.
    FIU has been aggressively building agriculture and food-related 
research to complement and expand the local capacity offered by the 
state's Land Grant Institution, University of Florida. As testament to 
FIU's efforts in agricultural education and research, it was one of the 
first universities in the nation to receive the USDA's Hispanic-Serving 
Agricultural Colleges and Universities (HSACU) designation.
    FIU is the largest producer of STEM degrees for Hispanics in the 
U.S. It is ranked as a top institution in the United States for 
granting bachelor's and master's degrees to Hispanics, with more than 
60 percent of the university's 55,000 students coming from Hispanic 
populations. In 2013, FIU had the largest percentage of minority 
students in the U.S. with 61 percent Hispanics and 13 percent African-
Americans.
    Hispanic students graduating from FIU Environmental Studies, 
Sustainability, Dietetics and Nutrition, Biological Sciences have 
joined U.S. Department of Agriculture (USDA) Agricultural Research 
Service (ARS), Natural Resources Conservation Service (NRCS) and other 
agencies. Hispanic and other minority students graduating from FIU have 
joined graduate programs in some of the nation's prestigious 
agriculture and forestry institutes.
    FIU sees itself as a Solutions Center for the community--both 
locally and nationally. Our commitment to this mission is evident in 
our collaborative efforts to help solve the challenges of the 
agricultural industry in Miami-Dade County, one of the most diverse in 
the country. This important sector employs over 20,000 people and 
produces more than $2.7 billion in economic impact each year.
    The industry includes many subtropical and tropical crops that 
can't be grown anywhere else in the United States; additionally, a 
large ornamental industry leverages our local climate. But the 
agricultural industry faces accelerating and unprecedented challenges 
which require innovative research, policy changes, and targeted 
training of the next generation for the agriculture industry. For 
example,

  <bullet> Exotic pests and disease are being introduced into the U.S. 
        at startling rates. These introductions, like citrus greening, 
        emerald ash borer, Asian Long Horned Beetle, Redbay Ambrosia 
        beetle and fruit flies, have cost Miami-Dade county billions of 
        dollars in treatment, eradication programs and lost revenue.

  <bullet> Local weather patterns and climate are shifting and will 
        affect the crops we can grow and threaten food security. 
        Rainfall and temperature are predicted to shift. For example, 
        although predicting future changes in rainfall is one of the 
        harder challenges of global climate models to resolve at the 
        regional level, we expect shifts in the wet season to cooler 
        times of year, which will increase heat stress to crops during 
        the dry season. This is compounded with challenges in managing 
        water to balance needs for urban, agricultural, and natural 
        systems. In addition, sea level rise threatens to impact ground 
        water and agricultural production.

  <bullet> In south Florida, we also face a challenge in food waste. A 
        large portion of some crops, although edible, is discarded 
        because of imperfections. Changes in regulations regarding how 
        this waste can be used or disposed of represents a difficulty--
        but also an opportunity--for the local community.

  <bullet> Finally, agriculture is an industry with an aging workforce. 
        We need to find ways to bring more young people into the 
        industry and to diversify. Florida also has a large population 
        of socially disadvantaged farmers. In a region with 20,000 
        unemployed veterans and nearly 44,000 migrant farmworkers, it's 
        critical to work with the community to equip these individuals 
        with technical and entrepreneurial skills, and access to 
        government assistance which enables them to launch and sustain 
        viable farm operations.

    FIU faculty, staff and students are helping to address these 
challenges. The examples below show how Hispanic-Serving Agricultural 
Colleges and Universities can add to the expertise in our nation's Land 
Grant Institutions.
Developing More Resilient Crops
    As part of the International Center for Tropical Botany (ICTB), Dr. 
Eric Bishop von Wettberg is working with collaborators around the 
country and world to develop new varieties of crops that are more 
resilient to changes in climate. The wild relatives of many of our 
crops are better able to survive variation in growing conditions 
including droughts or periods of excessive rainfall. Using cutting-edge 
genetic techniques, research teams can breed new varieties that retain 
positive the qualities of domestic crops that incorporate the hardiness 
of wild plants. Currently, Dr. von Wettberg works on chickpeas, 
lentils, and mangoes. But, this approach holds promise for many other 
crop species growing in areas that--like south Florida--will face large 
changes in weather and climate. This innovative approach to developing 
the next generation of crops also holds promise for responding to 
emerging diseases.
Combating Invasive Pests
    The aggressive Asian Redbay Ambrosia Beetle currently has Florida's 
multi-million dollar avocado industry in limbo. The insect spreads 
laurel wilt, a disease so deadly that growers in affected areas can't 
ship or move any fruits or plants for fear that it could spread to 
other susceptible crops, potentially affecting 430 different fruits, 
vegetables and nuts (95 percent of the fruits and vegetables in the 
county).
    Detection is a major challenge. Diseased trees can begin to wilt 
within 2 weeks, and by the time symptoms are visible, the fungus has 
likely spread to nearby trees. This is a particular problem in 
commercial groves, where trees are planted close together.
    Florida International University researchers, funded by the Florida 
Department of Agriculture and Consumer Services, have developed a 
unique detection program, Detector Canines, which could have far-
reaching applications for the agriculture industry.
    This program, led by FIU Provost and Executive Vice President 
Kenneth G. Furton and Biological Sciences Professor DeEtta Mills 
couples drone surveillance with canine scent detection:

  <bullet> Drones carry spectral thermal digital imaging instruments 
        that search for stressed trees before symptoms are visible.

  <bullet> Canines, which have up to 50 times more olfactory receptors 
        than humans and can be hundreds to thousands of times more 
        sensitive to detecting odors, have successfully identified 
        infected trees that were not yet showing symptoms.

  <bullet> DNA tests confirm that the dogs are able to detect the 
        pathogen much earlier than any other method.

  <bullet> Trees that are detected early can be given an infusion or 
        injection of the fungicide ``Tilt'' to significantly increase 
        their chances of survival.

    To date, 85% of the pre-symptomatic trees identified have been 
saved and will continue to produce safe fruit for harvest. This is a 
stark contrast with 100% death rate of trees that are not detected 
early. The fungicide treatment is expensive but it protects the tree 
for 12 to 18 months. Waiting until symptoms appear jeopardizes not only 
the affected tree, but the entire grove. Prior to the development of 
this method, the main treatment method was removal of diseased trees 
and any surrounding trees.
    More than 6,000 of Miami's 74,000 avocado trees have been destroyed 
due to laurel wilt. This isn't just a Florida problem. From California 
to Latin America, there are growing concerns about how to respond to 
this aggressive disease. The spread of infestation has already reached 
Texas in its march along the Gulf Coast. With the potential to spread 
into California, whose industry is ten times that of Florida, and 
Mexico, who produces 100 times that of south Florida, the impact could 
be devastating to growers and consumers around the world.
    The approach pioneered at FIU holds promise for the early detection 
of emerging diseases so we can respond before they become so entrenched 
that the costs of treatment are crippling.
Adding Value
    Adding value to the raw products grown by the agricultural industry 
in critical to the long term success of the community. Value-added 
products--like new foods, soaps, oils, supplements or medicines--
provide avenues for reducing food waste, will create jobs, and enhance 
the local economy.
    FIU has been a long-time academic collaborator with the University 
of Florida, and in 2013 entered a partnership to develop an 
Agribusiness Incubator. The concept was developed at the request of 
agricultural stakeholders in the Redland.
    The agribusiness innovation center will:

  <bullet> Improve agricultural products.

  <bullet> Enter new markets and develop products.

  <bullet> Provide market opportunities and information.

  <bullet> Teach financial management skills and access to financing, 
        technical information and training, and mentorship.

  <bullet> Assist with regulations, standards and compliance.

      Miami-Dade county commissioners have decided to unanimously seek 
        state funding to support the Agribusiness Incubator, which will 
        include:

    <ctr-circle> a biotechnology production facility with specialized 
            clean labs including a contemporary tissue culture 
            facility.

    <ctr-circle> a technology production facility with high quality 
            infrastructure to accommodate flexibility in space uses 
            such as moveable walls, a loading dock, and a 
            ``brainstorming room'' that will be available for meetings 
            on a regular basis for scientists, entrepreneurs and others 
            to exchange ideas and concepts for forming new 
            agribusinesses.

    <ctr-circle> a Food Venture Center that will be a high-technology 
            service laboratory that contains numerous pieces of 
            equipment that will assist new businesses in product 
            development.

      This facility will be staffed by highly trained technicians who 
        will guide and direct adjustments needed in refining various 
        value-added oil, drinks, medicines, etc. FIU will be the lead 
        institution for the Food Venture Center, and STEM students will 
        be intimately involved in the work conducted there as well as 
        in labs at the Incubator.

    The Agribusiness Incubator is estimated to generate $45 in local 
taxes for every dollar invested and have incubated business conducting 
$17M of business per year after 5 years. In addition, a new FIU Kitchen 
Lab will improve the well-being of under-served communities, including 
low income immigrant food entrepreneurs. They will be able to formalize 
and grow their businesses through affordable commercial kitchen space, 
industry-specific technical assistance and access to new market 
opportunities. The Kitchen Lab will provide opportunities to link new 
products to local restaurants and grocery stores. It will also provide 
a storefront for innovative new products, making it a focal point for 
visitors and a gateway to agritourism in South Dade.
Planning for the Future
    An increasingly proactive approach to plantings is critical to the 
long-term sustainability of the industry in light of the myriad 
challenges outlined earlier. FIU's International Center for Tropical 
Botany--a collaboration with the National Tropical Botanic Garden--is 
working to not only enhance the genetic diversity of crops but to 
predict where crops will grow best in the future, what new crops or 
plants might be better adapted to future conditions, and combinations 
of plants that can be grown together to reduce unpredictability in 
economic yield for farmers and reduce susceptibility to pests and 
extreme weather.
K-12 Outreach and Workforce Pipeline
    The FIU Agroecology Program has developed an institutional alliance 
with area USDA ARS, Miami-Dade County Public Schools, Miami Dade 
College (another HSI), local non-governmental agriculture research 
organizations, in addition to several organic farms.
    Through FIU's organic garden, designated a USDA People's Garden in 
2011, the Agroecology program conducts hands-on learning activities for 
over 500 K-12 students each year and hosts summer workshops for K-12 
teachers. Organic garden activities draw students from disciplines 
across the University and throughout the community.
    This training creates a pipeline for future recruitment of minority 
students into higher agriscience related education. Through summer 
internships at FIU, high school students get hands-on experience in 
agriculture and related sciences.
    FIU researchers serve on the Miami-Dade County Public Schools 
Agriculture and Related Science Committee. Routine visits are conducted 
at area high schools to recruit minority students into agriculture and 
related sciences at FIU. These students participate in annual symposia, 
workshops, and conferences on agriculture and related sciences.
    By thoughtfully incorporating Hispanic-Serving institutions into 
the network of Land-Grant and Extension centers, the USDA has added to 
their agricultural and environmental research, education, and outreach 
mission. Some examples of FIU education and training programs 
complementing our partner Land Grant include:

  <bullet> Since 2005, the USDA has provided over $7 million in funding 
        to the FIU Agroecology Program to support undergraduate and 
        graduate student training and research on a wide range of 
        topics related to agriculture and natural resources. The 
        program has trained more than 500 students, with more than 40 
        going on to jobs at USDA or prestigious agriculture programs 
        for graduate studies.

  <bullet> The Veteran and Small Farmers Outreach Program is designed 
        for military veterans, socially disadvantaged and beginner 
        farmers, and nursery growers. The collaboration between FIU, 
        community partners and the Dade County Farm Bureau is made 
        possible by a grant from the U.S. Department of Agriculture's 
        Office of Advocacy and Outreach, This program, lauded before 
        Congress this past summer by U.S. Representative Carlos 
        Curbelo, assists participants in learning technical skills 
        through hands-on activities with tropical fruits, vegetables 
        and nursery plants, beekeeping, composting, and disease 
        management. Their training culminates with a farming 
        apprenticeship at a local farm or nursery operation.

  <bullet> The Florida-Caribbean Consortium for Agriculture Education 
        and Hispanic Workforce Development (FCCAgE), led by FIU and in 
        collaboration with Miami Dade College--North, St. Thomas 
        University, and Universidad Interamericana de Puerto Rico, 
        recruits and trains Hispanic students from communities that are 
        under-represented in agriculture sciences and natural resource 
        management. The multi-institutional consortium is funded by the 
        USDA Hispanic Serving Institutions Grants Program and supports 
        student travel, research, professional development workshops, 
        summer internships, and job placement. FIU, along with FCCAgE 
        partners Over 80 students have benefited from internships since 
        its inception.
Part 2: The Future of University Partnerships To Accelerate Agriculture 
        Research, Extension and Teaching
    In exploring opportunities for Congress and the United States 
Department of Agriculture to further accelerate the nation's 
agricultural research, extension and teaching priorities, it is 
important to consider the policy challenges facing the university 
research community.
    Adequate support for agricultural research is critically important, 
especially as the community aims towards greater sustainability in the 
food production chain and an increasing need to respond rapidly to 
major challenges from introduced pests, shifting growing conditions, 
and economic volatility. In addition to leveraging Federal research 
dollars, universities must also increase the direct relationships with 
industry and commodity groups in helping fund cutting-edge research, 
even beyond any one particular commodity. And of course, maintaining 
well-funded, viable, long-term research programs engages undergraduate 
and graduate students, who will be the future of providing science-
based solutions for agriculture.
I Continue to complement the extension network and regional 
        collaboration
    Extension is a critical mission of the nation's land-grant 
institutions and is built on the partnership between the land-grant 
colleges of each state, the Federal Government through the United 
States Department of Agriculture (USDA), and local county governments. 
Traditionally, each county of all 50 states has a local extension 
office, although some county offices have consolidated into regional 
extension centers. Today, there are approximately 2,900 extension 
offices nationwide. In south Florida, the University of Florida and 
Miami-Dade County, particularly Agriculture Manager Charles LaPradd 
provide outstanding extension services to the community. But, the needs 
of the community exceed the capacity. FIU, like other Hispanic-Serving 
Agricultural Colleges and Universities, have an important role to play 
in advancing the mission of extension by becoming part of the 
collaboration. In South Florida, FIU and UF have partnered on multiple 
initiatives to serve the community and have corresponded to build 
complementary expertise.
II The future of role of our nation's Hispanic-Serving Institutions in 
        Agriculture
    America's Changing Landscape and STEM Challenges

    As of 2013, according to U.S. Census Bureau population estimates, 
there were roughly 54 million Hispanics living in the United States, 
making people of Hispanic origin the nation's largest ethnic or race 
minority, at 17% of the U.S. total population.
    Increasingly, post-secondary Hispanic students are enrolled mostly 
at Hispanic-Serving Institutions (HSIs), which are defined in the 
Higher Education Act as institutions whose enrollment is made up of at 
least 25% Hispanic full-time equivalent (FTE) students. According to 
the Hispanic Association of Colleges and Universities (HACU), HSIs, 
like FIU, make-up 12.1% of nonprofit colleges and universities, yet 
enroll 20% of all students and 58.9% of all Hispanic students currently 
enrolled in higher education. The number of HSI's in the United States 
is rapidly growing. In 1990, there were 137 institutions; in 2005, 245 
institutions; and since 2013 over 400 institutions. Looking towards the 
future, almost 300 institutions are ``emerging HSIs'' with Hispanic 
enrollments between 15% and 24.9%.
    According to the United States Department of Agriculture (USDA), 
although Hispanics represented 15% of all U.S. wage and salary workers, 
as of 2012, Hispanics represented 50% of all farm laborers and 
supervisors in the U.S., only 16% at the management level. Looking at 
the Science and Engineering workforce, the source of many of our food 
scientists and engineers, only 3% of those doctoral recipients in the 
biological, agricultural, environmental and life sciences are Hispanic.

    Hispanic-Serving Institutions and Agriculture

    We salute Congress and the USDA for making important strides to 
engage with the greater Hispanic-Serving institution community. Notable 
efforts with direct impact on leveraging the research, outreach and 
educational missions of HSI's include:

  <bullet> USDA and the Hispanic Association of Colleges and 
        Universities have long been affiliated through a formal 
        Memorandum of Understanding (MOU) and active leadership group 
        meetings that recognize the need to include more HSIs in USDA 
        programs and research.

  <bullet> This past year at FIU, USDA piloted a new expedited Pathways 
        recruitment strategy for interns and full-time employment 
        targeting Hispanics, African Americans and other 
        underrepresented minorities. By working with multiple USDA 
        agencies and other universities in the area, the agency placed 
        25 successful candidates after one full day of interviews on 
        campus.

  <bullet> USDA's Hispanic-Serving Institutions National Program and 
        its leadership have ensured strategic partnerships between USDA 
        and HSIs like FIU to provide improved access to employment, 
        educational and institutional development opportunities.

  <bullet> In particular, the USDA HSI National Program's six regional 
        offices serve as important conduits for engagement and outreach 
        to universities. The Miami office has served to create 
        strategic partnerships between USDA and over 80 HSIs, serving 
        as a valuable asset to our faculty and students seeking to 
        assist students, faculty, and administrators in accessing 
        USDA's educational, employment, and funding opportunities.

  <bullet> National Institute of Food and Agriculture's Hispanic-
        Serving Institutions Education Grants Program (HSI) is a 
        competitive grants program intended to promote and strengthen 
        the ability of Hispanic-Serving Institutions to carry out 
        higher education programs in the food and agricultural 
        sciences. Funding for this important initiative is currently at 
        just over $9 million and has made possible over 80 grants in 
        recent years.

  <bullet> The HSI Education Grants Program has made possible the 
        Florida-Caribbean Consortium for Agriculture Education and 
        Hispanic Workforce Development described in Part I.

  <bullet> The E. Kika De La Garza Fellowship Program offers faculty 
        and staff from HSIs the opportunity to work collaboratively 
        with USDA to gain insight and understanding of the Federal 
        Government. This uniquely tailored experience brings together 
        HSI staff and Federal executives to address the spectrum of 
        challenges faced in the development of a well prepared Hispanic 
        workforce. Fellows spend 2 to 4 weeks in Washington, D.C. to 
        increase their understanding of USDA and other Federal 
        agencies, particularly at the national level, and be able to 
        identify mutual collaborative interests. FIU has been fortunate 
        to have had faculty and staff participate in this program.

  <bullet> The Multicultural Scholarship (MSP) Program and National 
        Needs Fellowship (NNF) Program have made an impact in 
        attracting diverse students to agricultural professions. Many 
        at FIU have benefited from this support because of diligent 
        staff at USDA.

    Going forth, we present some thoughts on specific policy challenges 
facing the research community in Hispanic-Serving universities:

  1.  Creatively incorporating Hispanic-Serving Institutions into the 
            land-grant ecosystem

        As FIU and UF have proven, collaboration between a land-grant 
            institution and Hispanic-Serving Institution is a win for 
            all involved, and one which advances agricultural research, 
            outreach and training. With only a handful of land-grants 
            currently being Hispanic-Serving Institutions nationwide, 
            the challenge for all involved is how to thoughtfully 
            incorporate HSI's into the network.

  2.  Building greater capacity at HSI's through the Hispanic-Serving 
            Agricultural Colleges and Universities (HSACUs) programs

        Laudably, the reauthorization of the Farm Bill in 2014 
            preserved the previously authorized programs for HSIs and 
            Hispanic-Serving Agricultural Colleges and Universities 
            (HSACUs) and added a new competitive grants program in 
            support of Hispanic agricultural workers and youth. These 
            programs are designed to strengthen the ability of HSIs to 
            offer educational programs that attract, retain and 
            graduate outstanding students who will enhance the nation's 
            food and agricultural, scientific and professional work 
            force. However, none of the HSACU programs authorized in 
            2008 has ever been funded by Congress and only the HSACU 
            Endowment program has ever been included in the President's 
            Budget Requests.

      Authorized, yet unfunded programs include:

        <bullet> $20 million for the HSACU Equity Grants Program.

        <bullet> $80 million for the HSACU Endowment Fund.

        <bullet> $40 million for the HSACU Institutional Capacity-
            Building Grant Pro-
                gram.

        <bullet> $40 million for the HSACU Fundamental and Applied 
            Research Grants
                Program.

        <bullet> $40 million for the HSACU Extension Grants Programs.

        <bullet> $5 million for the competitive grants program for 
            Hispanic agricultural
                workers and youth.

    HSIs receive 0.69 on the Federal dollar when compared to all other 
institutions of higher education. This funding inequity is evident in 
agricultural research and infrastructure development investment by the 
U.S. Government. HSIs enroll 60 percent of all Hispanic higher 
education students and that proportion is likely to increase.
    Congress should then not be surprised by the under-representation 
of Hispanics in agricultural-related programs and academic 
opportunities. Congress must correct this trend now or our nation's 
future food security and economic development will be unnecessarily 
limited.

  3.  Unintended consequences of the creation of the HSACU designation

        Considering the HSACU programs have not yet been funded and 
            implemented, caution is urged in restricting universities 
            that may be HSACUs from applying to other programs at USDA.

        One example is with the non-land-grant college of agriculture 
            program, which was also authorized in 2008 and has been 
            funded. This year's competition awarded $4 million, yet 
            HSACU applicants had to opt out of their respective 
            designation to qualify as non-land-grant colleges of 
            agriculture to be eligible for this program.

    FIU looks forward to working with Congress and the U.S. Department 
of Agriculture to accelerate agriculture research, extension and 
teaching and thanks the Committee for providing the opportunity to 
share our perspective.

    The Chairman. Thank you, Dr. Heithaus.
    Dr. Lacy.

       STATEMENT OF MICHAEL P. LACY, Ph.D., PROFESSOR AND
 DEPARTMENT HEAD, DEPARTMENT OF POULTRY SCIENCE, UNIVERSITY OF 
                      GEORGIA, ATHENS, GA

    Dr. Lacy. Chairman Davis, Ranking Member DelBene, 
distinguished Committee Members, I am grateful for the 
opportunity to represent the University of Georgia College of 
Agricultural and Environmental Sciences, and all land-grant 
universities across the nation to talk about the intrinsic 
value and vital role public university research plays in 
keeping American agriculture strong, our economy growing, and 
the world adequately nourished.
    I want to specifically thank Congressman Austin Scott, one 
of the University of Georgia's most distinguished alumni, for 
his support. He is a tremendous advocate for agriculture.
    All agricultural research is important, however, in this 
brief testimony, it will be best for me to focus on my area of 
expertise; poultry science. Nowhere else is agricultural 
research so open and readily accessible to farmers and 
consumers as it is in the United States. This unique quest for 
and application of new information relevant to agriculture is 
directly attributable to our land-grant university system. The 
land-grant model, coupled with USDA-ARS form a powerful 
combination that is the envy of the world in its effectiveness 
at addressing the critical needs of food production.
    A great example of that land-grant USDA collaboration can 
be seen in UGA and USDA efforts to address the threat of avian 
influenza. Earlier this year, the U.S. faced a renewed threat 
to our food security as AI spread through 21 western and 
central states, resulting in the loss of over 50 million birds, 
including 16 percent of the nation's egg-producing flocks. As 
waterfowl that carry the AI virus migrate south this fall, the 
threat of this disease intensifies. Because of the sheer size 
of the poultry industry in Georgia, a serious outbreak in our 
state would be devastating to our economy, and would impact the 
entire U.S. food supply. We have been conducting intensive 
programs to help producers strengthen biosecurity procedures to 
protect their poultry flocks. Our scientists have worked 
tirelessly on research related to response plans, humane 
euthanasia methods, composting mass-mortalities, in the event 
of a catastrophic AI outbreak.
    The USDA Southeast Poultry Research Laboratory in Athens, 
Georgia, is recognized as one of the leading poultry disease 
research facilities in the world. The work done there is of a 
measurable importance to the health of the nation's poultry 
flocks. The need for funding, recommended to expand the 
research facilities at SEPRL, is strategic and vital, as the 
serious consequences of the current AI situation vividly 
highlight.
    In concert with the biosecurity efforts focused on poultry 
producers, UGA 4-H is piloting a program with the Centers for 
Disease Control and Prevention to teach biosecurity principles 
to even our youngest citizens, helping them better understand 
and prevent disease transmission.
    Continuing this poultry health theme, interest in 
minimizing the use of pharmaceuticals has spurred research at 
UGA on novel ways to protect poultry from diseases such as 
coccidiosis. Non-disease-causing variants of the protozoa that 
cause this disease have been isolated, that allow poultry to 
develop resistance without contracting the actual disease. 
These variants have been employed to produce an effective 
vaccine now used extensively by poultry producers.
    Ag engineers and poultry scientists at UGA teamed up to 
address the serious problem of heat stress in fast-growing 
meat-type chickens. This work resulted in the development of 
ventilation and cooling systems which have eliminated both 
heat-related mortality and stunted growth during the hot summer 
months.
    I could list scores and scores of additional research 
projects that have had significant impact in poultry genetics, 
nutrition, food safety, et cetera, but in the final minute I 
have, allow me to call attention to the recent National Academy 
of Sciences report titled, The Critical Role of Animal Science 
Research in Food Security and Sustainability. This report 
details the important accomplishments of animal agriculture 
research, and documents the alarmingly small amount of USDA 
funding focused on animal agriculture, relative to its economic 
importance and future expectations. As this report concludes, 
the need for additional investment in animal agriculture 
research is critical.
    I do wish to thank the Committee for authorizing the 
extension of the Animal Health Research and Disease Section 
1433 Program. Full funding of the 1433 Program is still needed. 
A well-thought-out research blueprint has been established. The 
animal agriculture research community and industry counterparts 
came together in 2012 and identified research priorities which 
were published in the Farm Animal Integrated Research report, 
FAIR 2012. We are prepared to meet the challenges facing the 
future of animal agriculture when research funding is 
available.
    Again, I sincerely thank the Committee for your interest in 
and support of agriculture research. That support is never 
taken for granted. Thank you for the foresight you have in 
regard to providing the investment required to make the 
advancements needed to assure food security for a growing 
global population.
    [The prepared statement of Dr. Lacy follows:]

Prepared Statement of Michael P. Lacy, Ph.D., Professor and Department 
 Head, Department of Poultry Science, University of Georgia, Athens, GA
    I am honored to have the opportunity to represent the University of 
Georgia College of Agricultural and Environmental Sciences and all 
land-grant universities across the nation and to provide to the 
Subcommittee on Biotechnology, Horticulture, and Research of the U.S. 
House of Representatives Agriculture Committee testimony on the 
intrinsic value and vital role public university research plays in 
keeping American agriculture strong, our economy growing and the people 
of the world nourished.
    First, I want to thank you for your past support of our research 
programs, and I ask for your continued support of this critical 
component of our nation's economy and basic security. All agricultural 
research is important; however, in this brief testimony I believe it is 
best for me to focus primarily on my area of expertise, poultry 
science.
    Nowhere else is agricultural research so open and readily 
accessible to farmers and consumers as it is in the U.S. This unique 
quest for and application of new information and ideas relevant to 
agriculture is directly attributable to our land-grant university 
system. The land-grant model, coupled with USDA-ARS, form a powerful 
combination that is the envy of the world in its effectiveness at 
addressing the critical needs of food production.
    A great example of land-grant and USDA collaboration is the 
relationship between the University of Georgia and USDA in addressing 
the threat of Avian Influenza (AI). Earlier this year, the U.S. faced a 
renewed threat to our food security as AI spread across 21 western and 
central states, resulting in the loss of almost 50 million birds 
including 16 percent of the nation's egg producing flocks.
    As the waterfowl that carry the AI virus migrate south this fall, 
the threat of this disease intensifies in Georgia. Because of the size 
and importance of poultry in Georgia, the leading producer of poultry 
in the U.S., a serious AI outbreak in our state would be devastating to 
our economy and impact the U.S. food supply.
    Poultry scientists and veterinarians at USDA, the University of 
Georgia and at scores of other land-grant universities across the 
country have been conducting applied research and extension programs to 
help poultry producers strengthen biosecurity procedures to protect the 
nation's poultry flocks from AI. They also have been working tirelessly 
on research related to response plans including humane euthanasia 
methods and composting mass mortalities in the event of a catastrophic 
AI outbreak.
    This unexpected threat to poultry production in the U.S. 
underscores the critical need for a strong animal/poultry research 
infrastructure to address and respond to future major threats to animal 
agriculture that no one can currently predict but are almost assuredly 
to occur.
    The USDA Southeast Poultry Research Laboratory (SEPRL) in Athens, 
GA is recognized as one of the leading poultry disease research 
facilities in the world. The work done there is of immeasurable 
importance to protecting the health of the nation's poultry flocks. The 
need for the funding recommended to expand and modernize the research 
facilities at SEPRL is strategic and vital as the serious consequences 
of the current AI situation highlight vividly.
    In concert with the heightened biosecurity efforts of Georgia's 
poultry producers, the University of Georgia's 4-H program is 
developing and piloting a program with the Centers for Disease Control 
and Prevention to teach biosecurity principles to even our youngest 
citizens, helping them better understand and prevent disease 
transmission between animals and from animals to humans.
    Poultry and eggs are a major protein source important in providing 
vital nutrition for people around the world. We take the responsibility 
of producing safe, affordable and high-quality meat and eggs seriously, 
and will continue to be vigilant in our quest to address diseases that 
threaten the flow of food and commerce. By addressing biosecurity at 
all levels of our society, we are better protecting our people, our 
animals and our agricultural economy.
    Other research innovations related to poultry health include one of 
the most promising long-term solutions to disease prevention--
development of genetic resistance. At the University of Georgia, 
scientists are working at the basic level to enhance genetic resistance 
to viral respiratory diseases such as AI, Newcastle, Infectious 
Bronchitis, and Laryngotracheitis. These diseases are a considerable 
threat to the U.S. poultry industry, but in developing counties they 
frequently devastate entire flocks and can wipe out farmers' hopes of 
feeding their families.
    Land-grant universities are improving animal health and protecting 
the environment through better nutrition. Poultry do not have enzymes 
necessary to breakdown phytate phosphorous contained in typical corn/
soy diets. Poultry nutritionists have identified and commercialized 
phytase enzymes that are now added to most poultry diets in order to 
improve the utilization of this previously unavailable phosphorous 
source. These enzymes reduce the need for inorganic phosphorous to be 
added to diets. They also reduce the amount of phosphorous contained in 
poultry manure, thereby improving the nitrogen-to-phosphorous ratio in 
the manure and making it a more effective organic fertilizer.
    Animal production is an important user, and in many cases the only 
user, of byproducts of biofuel production, human food production and 
industrial production. The University of Georgia has been a leader in 
analyzing and providing research-based recommendations on the use of 
alternative feed ingredients in poultry feeds. These studies have 
effectively recycled byproducts, reduced costs for poultry producers 
and kept millions of tons of material out of landfills and other waste 
streams.
    Food safety, water conservation and waste minimization as related 
to poultry processing are high priorities for the poultry industry. UGA 
and other land-grant laboratories, in partnership with Federal poultry 
labs, are developing new processing methods looking at a systems 
approach. Scientists and engineers from a number of institutions are 
collaborating to examine poultry processing from the hatchery to the 
marketplace to enhance food safety, energy efficiency, and 
environmental stewardship. Research conducted at land-grant 
universities has been key in reducing foodborne pathogens on poultry 
products.
    Consumer and industry interest in reducing drugs and chemicals in 
poultry production has spurred research on vaccines to protect poultry 
from parasitical diseases such as coccidiosis. Variants of the protozoa 
that cause this disease have been isolated that allow poultry to 
develop resistance without causing the severe production losses 
associated with the disease. These variants have been successfully 
employed in safe and effective vaccines that are now used extensively 
in poultry production.
    Essentially all the research done at universities these days is 
multidisciplinary. Agricultural engineers and poultry scientists at the 
University of Georgia teamed up to address the long-standing problem of 
heat stress in meat-type chickens (broilers). This work resulted in 
development of cost effective tunnel ventilation and evaporative 
cooling systems which have virtually eliminated heat related mortality 
and decreased growth and efficiency of broilers during the hot summer 
months. The value of this research to Georgia poultry producers is 
estimated at $15 million annually. These ventilation systems and 
poultry housing designs are now the standard throughout U.S. and the 
world.
    As described clearly in the recent National Academy of Science 
(NAS) report, ``Critical Role of Animal Science Research in Food 
Security and Sustainability,'' the importance of animal/poultry 
production to food security and economic development is significant. 
Animal protein products account for 60-70 percent of the total U.S. 
agricultural economy. Estimates are that the combination of increased 
population and rising middle class in numbers of developing countries 
will result in a 73 percent increase in animal protein demand by 2050.
    The amount of research funding focused on animal/poultry research 
is alarmingly small relative to animal agriculture's economic impact 
and future expectations. USDA-ARS allocates 50 percent more to research 
related to plant crops and a greater percentage of its budget to 
environmental issues, food safety and nutrition than to animal 
production research. The NAS report referred to above states: ``In the 
past 2 decades, public funding, including formula funding and USDA-ARS/
NIFA funding, of animal science research has been stagnant in terms of 
real dollars and has declined in relation to research inflation rate.'' 
Further, ``animal agricultural research has borne the brunt of decades 
of neglect,'' in regard to research funding.
    Even so, the results of the modest public research investment that 
has been made in animal research are truly remarkable. For example, in 
1960 it took over 100 days to grow a meat-type chicken to a market 
weight of 5 pounds; today it takes less than 45 days. During the same 
time period, feed efficiency improved from 2.5 pounds of feed required 
to produce a pound of chicken to just 1.7 pounds today; and poultry 
geneticists predict feed efficiencies will approach 1.2 in the next 2 
decades. Annual egg production has improved from 230 eggs per hen in 
the 1960 to 300 eggs per hen currently. Similar improvements have been 
realized in poultry health and livability. These production and 
efficiency advancements have allowed for significant improvement in 
sustainability and amazing reductions in the environmental footprint of 
poultry production relative to water, feed and waste-per-pound of 
poultry meat and eggs produced.
    The value of the application of the research findings produced by 
our land-grant universities is significant, but equally valuable is the 
undergraduate and graduate training provided by our scientists. This 
development of human capital and training of the next generation of 
scientists that our nation needs to assure continued progress and 
success in food security may be the most important byproduct of the 
research funding you provide. The NAS report emphasizes the need to 
``revitalize research infrastructure (human and physical resources).''
    Because of the historic funding shortfall and the future demand for 
increased animal protein production, the need for additional investment 
in animal science research is nothing less than critical. I do wish to 
thank the Committee for authorizing the extension of the Animal Health 
Research and Disease Section 1433 program. Full funding of the Section 
1433 program is needed to address the priorities of food security, One 
Health and environmental stewardship. When that funding is provided, 
animal and poultry scientists will use it wisely and efficiently. The 
animal science research community and industry counterparts came 
together in 2012 and identified research priorities detailed in the 
Farm Animal Integrated Research report (FAIR 2012). We have a well-
thought-out blueprint and are prepared to meet the challenges and 
address the issues facing the future of animal agriculture.
    I will conclude on an economic note. Poultry's estimated economic 
impact in the U.S. is over $150 billion annually; $30 billion in 
Georgia alone. Poultry provides over 120,000 jobs in Georgia and over 
500,000 nationwide. Animal and poultry agriculture contributes over $43 
billion annually to our nation's trade balance. Poultry and animal 
products are an important source of affordable, high-quality protein to 
feed the world. Enhanced funding for animal research is an investment 
our country needs in order for the U.S. to continue to be the global 
leader in poultry and animal production. Investment in animal 
agriculture research will continue to pay significant dividends in 
improved health, environmental sustainability, food security and 
prosperity for farmers, consumers and society.
    As with any investment, there must be an expectation of return, and 
our track record in this regard stands out. More than 20 independent 
studies over the past few decades consistently show that for every $1 
invested in agricultural research $10 is returned.
    Again, I wish to express gratitude for this opportunity to provide 
testimony to the House Subcommittee on Biotechnology, Horticulture, and 
Research. Your interest in and support of agriculture research is 
appreciated by those of us working to help provide food security for 
our country and the world. The funding you provide is important; 
however, your acknowledgement, interest and encouragement in regard to 
the importance of our research, extension and education programs 
continue to inspire and motivate us. Thank you for the foresight you 
have in regard to providing the essential funding required to 
accomplish this critical work.

    The Chairman. Thank you, Dr. Lacy. And we still respect the 
University of Georgia, despite of the fact you reminded us all 
that our colleague, Mr. Scott, graduated from there.
    Dr. Lacy. Go Dogs.
    Mr. Scott. Go Dogs.
    The Chairman. Dr. Buhler, please.

         STATEMENT OF DOUGLAS D. BUHLER, Ph.D., SENIOR
            ASSOCIATE DEAN FOR RESEARCH, COLLEGE OF
 AGRICULTURE AND NATURAL RESOURCES, MICHIGAN STATE UNIVERSITY; 
         DIRECTOR, MSU AgBioResearch, EAST LANSING, MI

    Dr. Buhler. Well, thank you. Chairman Davis, Ranking Member 
DelBene, Congressman Moolenaar, thank you very much for the 
opportunity to be here today, and represent the hardworking 
research scientists and prevention professionals at Michigan 
State University.
    One of the benefits of going last is I can start out by 
saying I want to concur with all of the comments that have been 
made by the previous speakers. The critical nature of what we 
do has always been important to this country and the world, but 
I believe it is more important now than it has ever been as we 
look at the challenges of feeding a growing world, with the 
challenges that we face in terms of protecting our natural 
resources, et cetera.
    Michigan State University is very, very fortunate to have 
very strong support from the State of Michigan and industry 
partners. That support is very important because it allows us 
to leverage the Federal investment in our research and outreach 
programs. And so I really wanted to acknowledge that.
    Founded in 1855, Michigan State University was the first 
agricultural college of its kind in the country. It was 
actually founded as--it was called the Michigan Agriculture 
College. So we have very strong roots in agriculture, and if 
you look at the history of the institution, it is a very 
interesting history of starting from a state-based regional 
agricultural college, and growing into a world-class 
university, really starting and throughout the end of World War 
II to the present. Michigan is also a very heavily specialty 
crop state. And when you look at Michigan and you look at our 
geography, a lot of the places where we grow crops are very 
unique. And so when we talk about the importance of the Federal 
investment and the state investment in protecting our specialty 
crops, it is very critical because many of these crops depend 
on the university for support. These crops are very important 
locally, but they are not major crops on a national scale. And 
so you look at things like tart cherries, asparagus, things 
like that, that grow in a very unique environment, and so if 
the university is not there to support these industries, there 
is not a lot of back-up. And it is really important that we 
continue to support the public-sector research and outreach to 
support these important commodities.
    I also want to point out that a lot of the work that we do 
is often difficult to quantify because a lot of it is 
protecting productivity as opposed to really generating new 
outputs. And what I am particularly talking about here is pest 
management. We have made a great deal of investments to protect 
the inherent productivity of our crops, and that is something 
that we really need to keep in mind as we look forward because 
a huge part of what we do, whether it is in the animal 
industries or the crop industries, is protecting the 
productivity that we have inherent in our genetics and our 
environments where we grow our crops.
    So Michigan State University, as I said, is really rooted 
in agriculture. Many of the early pioneers at our institution 
were involved in things like helping to develop hybrid corn, 
some of the early plant breeding programs. Plant breeding and 
genetics continues to be a core of what we do, particularly in 
the specialty crops. For example, our edible Dry Bean Program 
has been producing a new variety that has been released into 
the industry at a rate of at least one per year over the last 
20 years. We have also been very involved in processing, 
particularly in the dairy industry, and we will continue to 
work in those areas.
    An area that I want to make a little bit of a point on, and 
it is really critical as we move forward, is that we look at 
the issues that are facing us in the future, they are very 
complex problems. And as we look at how do we attack some of 
these big problems like antimicrobial resistance, which has 
been mentioned, some of the weather issues, and others, climate 
and so on, some of the water issues, we really need to draw a 
broader range of scientists into our agricultural fields. We 
really need to bring in fundamental plant science, fundamental 
ecology, and things like that, and build teams that can address 
these issues in a multidisciplinary way. This often requires 
different funding, and it often requires, and would be very 
much improved if we could provide more opportunities to work 
across Federal agencies, particularly NIH and NSF, to bolster 
some of our agricultural investments. And so we really look 
forward to continuing to build some of these programs because 
we think that it is really critical to moving forward in the 
future.
    So I just want to wrap up by just making a point about the 
importance of the agricultural infrastructure and the 
facilities that we need simply to do our research. Agriculture, 
in many cases, is a little bit different than many of the other 
areas of science, in that we need long-term investments in 
things like animal herds, plant breeding programs, vineyards 
and orchards, to just give us the basic capacity to do our 
work. And that is really where, when you talk about why is 
agriculture different than other areas of science, I believe 
that is where that is rooted. We have to have these facilities 
available, often taking 20, 30, maybe even 50 years to build 
that capacity so that we can actually do our research. And so 
when I am asked why should agriculture have this more unique 
investment, that is the reason that I cite.
    So thank you again for this opportunity, and we really 
appreciate your support, and we look forward to moving forward 
and addressing these important issues of our country and the 
world. Thank you.
    [The prepared statement of Dr. Buhler follows:]

 Prepared Statement of Douglas D. Buhler, Ph.D., Senior Associate Dean 
 for Research, College of Agriculture and Natural Resources, Michigan 
    State University; Director, MSU AgBioResearch, East Lansing, MI
    Chairman Davis, Ranking Member DelBene, Rep. Moolenaar, and other 
Members of the Subcommittee, thank you for the opportunity to testify 
on behalf of Michigan State University (MSU) at today's hearing to 
highlight research innovations achieved by our nation's agricultural 
colleges and universities.
    I serve as both the Senior Associate Dean for Research in the 
College of Agriculture and Natural Resources, as well as Director of 
MSU AgBioResearch. It is my responsibility to oversee MSU's research 
portfolio in the areas of food, energy and the environment.
    There is perhaps no greater time than now to be in involved in 
research pertaining to sustainable food production. Today, the world 
population is growing by about 80 million people each year and is 
expected to continue this upward pace for the next several decades. 
This presents immense challenges to food supplies. At the same time, 
natural resources are being depleted--soil is eroding, water tables are 
dipping and fish counts are declining. We need solutions that will keep 
our food supply safe and secure while protecting our natural resources. 
Like many other agricultural universities, MSU remains committed to 
discovering practical, adoptable solutions that address these very 
serious issues. And it is through research and outreach that these 
sustainable answers will continue to be unearthed, shared and put into 
practice at home and around the globe.
Background
    Founded in 1855, MSU was the first agricultural college of its kind 
in the nation. It also served as a prototype for land-grant 
institutions under the Morrill Act, enacted by President Abraham 
Lincoln. In 1888, MSU also became one of the first U.S. institutions 
under the 1887 Hatch Act to create a network of agricultural experiment 
stations where research trials and field studies are conducted on 
behalf of farmers.
    Today, MSU AgBioResearch operates 13 such outlying research 
facilities located in strategic growing and climatic regions throughout 
the state, in addition to numerous laboratories and other research 
facilities on campus. Key findings from research assist the food and 
agriculture industry, which contributes more than $100 billion of 
annual economic impact to Michigan alone. With more than 300 
commodities produced on a commercial basis, Michigan is the second most 
diverse agriculture state in the nation (behind only California). The 
MSU College of Agriculture and Natural Resources, MSU AgBioResearch and 
MSU Extension work hand-in-hand with the commodity organizations to 
address the issues facing growers and producers throughout the state--
solutions on everything from disease management to food processing. 
These research results are vital to providing healthy, nutritional food 
at affordable prices and with fewer environmental impacts.
    Obviously, Michigan State has deep roots in agricultural research, 
some of which have even helped breathe vitality into modern-day 
farming. Some examples include:

  <bullet> In the late 1800s, botany professor W.J. Beal was one of the 
        pioneers in the development of hybrid corn, which doubled the 
        yield for farmers. In 2014, Michigan farmers harvested the 
        largest corn crop on record with total production exceeding 355 
        million bushels.

  <bullet> In 1915, F.A. Spragg released the first navy bean variety, 
        Robust. During the 20th century, 40 varieties of beans in eight 
        commercial classes were developed at MSU and released. And in 
        the first decade of the 21st century, ten new bean varieties 
        were introduced under the direction of MSU researcher James 
        Kelly, who continues as one of the world's top bean breeders. 
        MSU has helped Michigan become one of the leading dry edible 
        bean producers.

  <bullet> In 1929, dairy industry pioneer G. Malcolm Trout linked the 
        processes of pasteurization and homogenization, finding that 
        homogenized milk needed to be pasteurized first in order to 
        have an appealing taste. He also developed new processes to 
        make cheeses, yogurt and other products. Today, dairy is a 
        leading segment of Michigan agriculture, contributing $14.7 
        billion to the state's economy.

  <bullet> Horticulturist Jim Hancock has developed several blueberry 
        varieties, some of which are the most widely planted 
        blueberries in the world. For the past 70 years, Michigan has 
        been the No. 1 state for blueberry production--largely in part 
        to Hancock's influence.

  <bullet> In 1965, MSU partnered with the U.S. Department of Energy 
        (DOE) to form the MSU-DOE Plant Research Laboratory. 
        Researchers continue to look at ways to improve energy crop 
        production and unravel the intricate mechanisms by which 
        plants--the root of all biofuels--capture, convert and deposit 
        energy. This effort continues today with the goal of meeting 
        the cellulosic biofuel blending mark of 16 billion gallons by 
        2020--as mandated by Congress in 2007.

    These achievements help to show how agricultural research can lead 
to economic, environmental and health benefits that transcend time and 
impact the industry for decades to come.
Recent Highlights
    When avian influenza was detected in parts of the U.S. earlier this 
year, MSU AgBioResearch and Extension scientists immediately responded 
in an effort to assist farmers and educate the public. Educators worked 
in conjunction with both the Michigan Department of Agriculture and 
Rural Development and the Michigan Department of Natural Resources to 
ensure that appropriate steps were being taken to address this serious 
biosecurity threat. A website strictly devoted to avian influenza was 
developed, which included frequently asked questions and information, 
including a YouTube video for backyard farmers. In the end, Michigan's 
poultry population remained largely unaffected by avian influenza. This 
is just one example of how MSU works with state and Federal agencies, 
including the Centers for Disease Control and Prevention, to provide 
timely, fact-based information to minimize public concern and maximize 
human and animal health safety.
    MSU has also long been involved with the battle against soybean 
rust, a serious disease in Asia for many decades that arrived in the 
U.S. in 2004. It was considered such a threat to agriculture that it 
was listed as a possible weapon of bioterrorism. Although it cannot 
overwinter in areas with freezing temperatures, it can spread rapidly 
and explosively over large distances. MSU scientists have been helping 
farmers put action plans in place and to define best practices in terms 
of early identification and treatment. While the disease has hit states 
in southern U.S., Michigan has remained free of the disease.
    Through USDA funding, MSU horticulturist Amy Iezzoni led the 
development of the RosBREED project to help breeders working with the 
Rosaceae family (which includes apples, peaches, sweet and tart 
cherries, raspberries, plums, pears and strawberries) incorporate the 
latest genetic knowledge and tools in their work. Not only are new 
varieties of fruit being created more quickly and less expensively than 
ever before, the project is also improving disease resistance. By 
applying the latest genetic tools and knowledge, Iezzoni's team has 
been making advancements to reduce the crops' vulnerability and keep 
the nation's food system more secure. In Michigan alone, Rosaceae crops 
are valued at nearly $230 million per year.
    Dr. Paolo Sabbatini, with funding from USDA, is leading efforts to 
alter grape cluster microclimates, thwart disease and improve grape 
quality. MSU has long worked on ways to keep grapes free of pest and 
disease, and are now also moving into more studies on new varietals 
conducive to the Great Lakes region. Each year Michigan's wine, grapes 
and grape juice products and related industries produce nearly $790 
million of total economic value to the State of Michigan, pay more than 
$42 million in state and local taxes in Michigan and an additional $42 
million in Federal taxes. The industry also accounts for 5,000 jobs 
across the state and a payroll of more than $190 million.
    And with the boom of microbreweries within the state, MSU is 
working to help farmers fulfill the need to grow hops and barley to 
meet escalating demand for locally grown ingredients. Researcher Russ 
Freed recently was able to resurrect 80 year old barley developed by an 
MSU plant breeder in 1916. Fittingly called ``Spartan,'' the cultivar 
had higher production capabilities and superior quality and by 1950, 
was found on farms around the country. Eventually, Spartan was 
surpassed by other barleys and the seeds locked away in a USDA gene 
bank in Utah. Now a team of MSU researchers is growing Spartan barley 
in trials in the northern region of the Upper Peninsula. And Michigan 
brewers are expressing interest. Today, more than 2,300 craft brew 
businesses are in operation around the nation, representing more than 
104,000 jobs and a nearly $20 billion industry.
MSU's Multidisciplinary Appeal
    Not only does MSU have a rich agricultural history, it is a 
university steeped in multidisciplinary efforts. Faculty members are 
encouraged to collaborate beyond college and department lines, reach 
across disciplines and work together to achieve results with lasting 
impacts. There are many examples, a few of which are described below:
    Felicia Wu, a John A. Hannah Distinguished Professor in the 
departments of Food Science and Human Nutrition and Agricultural, Food 
and Resource Economics, came to MSU in 2013 because of its robust 
agricultural research coupled with strong medical programs--a rare 
combination for a land-grant university. With funding from USDA, NIH, 
USAID and other sources, Dr. Wu is now heading up a new center aimed at 
studying the overall implications agricultural practices have on human 
health. The Center for Health Impacts of Agriculture (CHIA) focuses on 
three pathways by which agriculture affects human health: nutrition, 
which includes the quality, macro- and micronutrient content, and 
diversity of food; economics also play a pivotal role, particularly in 
underdeveloped areas where resources are at a premium; and the 
unintended negative consequences of agriculture on human health and the 
environment.
    Antibiotic resistance, declared a major public health threat by 
both the Food and Drug Administration and the World Health 
Organization, is a high priority topic within CHIA research as well as 
other laboratories at MSU. Increasing and occasionally inappropriate 
prescription of antibiotics has led to significant bacterial resistance 
in humans. In animals, the use of antibiotics to promote growth, in 
addition to fighting bacterial infections, decreases the drug's ability 
to efficiently eradicate illness when needed. When used in excess, 
antibiotics end up in the environment--in the air, water and soil--and 
humans can become exposed not just to the antibiotics but to 
antibiotic-resistant bacteria. A goal is to illuminate these pathways 
of exposure by studying the transportation and fate of antibiotics and 
antibiotic-resistance genes in the environment.
    David Kramer is another example of a researcher who came to MSU 
because of the university's multidisciplinary research culture. His 
laboratory is reminiscent of a start-up business, a convergence of 
diverse minds and skills with the same end goal--to improve plant 
science. Funded by USDA, NSF, USAID, MSU and others, his group is 
looking to solve some of the worldwide challenges related to human 
population growth and the need for more food. The John A. Hannah 
Distinguished Professor in Photosynthesis and Bioenergetics is leading 
a team of scientists, engineers and software developers in a project 
called PhotosynQ that is changing the way farmers and researchers think 
about collaboration. Growing better crops using new management 
strategies relies heavily on how researchers approach information 
collection and analysis, particularly with small-scale farming.
    The scientists have developed a prototype instrument, which costs 
around $100, and includes sensors that measure the temperature, 
relative humidity, carbon dioxide, chlorophyll content and several 
other facets of plant health. Adaptability is essential, so the sensors 
can be easily changed for a wide range of projects. Once data is 
collected, it is instantly uploaded to the PhotosynQ website and 
available for all users. Researchers can even post a project and 
instructions that allow other scientists to contribute. This vast plant 
science social network illustrates extraordinary possibilities. There 
are roughly 200 devices currently in use around the world. To date, 
more than 600 users have taken in excess of 100,000 measurements. The 
volume of data is growing exponentially and allowing farmers to make 
more accurate predictions about yields, which varieties to use, and 
when to apply fertilizers.
    Entomologist Rufus Isaacs is another fine example of an MSU 
researcher who is leading work that transcends barriers--this time of 
the geographical sort. He is leading a multi-state, multi-institutional 
project that impacts crops from apples to pickling cucumbers. As honey 
bee populations decline, Dr. Isaacs is looking at alternative 
pollinators to help maintain the vitality of U.S. crops that are 
pollinated every spring and valued at more than $14 billion annually. 
Major funding from Dr. Isaacs program comes from USDA, MSU Project 
GREEEN and industry organizations.
    Dr. Isaacs and several colleagues are also addressing ways to 
control the Spotted Wing Drosophila (SWD), an invasive species that 
seriously threatens fruit crops such as apples and cherries. Unlike 
most pests, the SWD mandible is so strong it is able to burrow its way 
into unripe fruit, leaving irreparable damage to the fruit and 
unavoidable economic loss to the grower. The Asian insect is believed 
to have come to the U.S. via food crates and has become one of our 
region's greatest fruit production threats.
    MSU's Bruno Basso, an expert in precision agriculture, is leading 
an initiative funded by USDA and industry organizations involving an 
unmanned aerial vehicle (UAV), or drone, that collects data by flying 
over the field. Attached sensors measure plant nutrients, temperature 
and size. Using the data, a grower can determine how to apply the right 
amount of fertilizer at the right place and time. The research covers 
nearly 20,000 acres across the Midwest. Once data is collected, Dr. 
Basso uses a modeling software developed at MSU called the System 
Approach to Land Use Sustainability. He can then input soil, water and 
nutrient data to model crop performance by simulating weather patterns 
across several years.
    But as issues, such as emerging invasive species and drought 
resistance, continue to mount, investments in agricultural research 
have unfortunately begun to dwindle.
Facing Challenges
    Funding for Formula Programs has declined. These funds, commonly 
termed capacity funds, provide critical infrastructure at State 
Agriculture Experiment Stations and for Cooperative Extension that 
facilitate the success of the U.S. agriculture system. According to 
USDA-NIFA data, capacity fund programs have lost as much as 40 percent 
in buying power over the last 20 years (Figure 1). These reductions 
have been exacerbated by differential budget cuts to Agriculture 
Experiment Stations and Extension in many states. Simply put the same 
or new innovations cannot be provided with fewer funds.
Figure 1 (Data Provided by NIFA, constant 1993 dollars)
NIFA Appropriations in Constant 1993 Dollars, 1993-2012
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The top Federal funding priority for State Agricultural Experiment 
Stations and Cooperative Extension organizations is maintaining steady 
increases in capacity funds, ideally at least recovering lost buying 
power. There are few other Federal programs where limited funds have 
been leveraged at least five to six times with state funds annually 
over a period of decades, in this case to yield ongoing positive 
impacts on the nation's food and fiber system, as well as related 
issues such as alternative fuels, environmental sustainability, 
economic development, and health and well-being of our citizens in both 
urban and rural settings.
    While there have been marginal increases in Agriculture and Food 
Research Initiative competitive program, the current level of $243 
million is woefully short of the authorized $700 million and is 
insufficient to meet current demand. The most recent AFRI Annual 
Synopsis for 2010 indicates that there were over $2.6 billion in highly 
meritorious proposals that would have been awarded if funds were 
available. Unfortunately, only 403 proposals could be funded from the 
available $232,649,478. Inadequate funding of NIFA competitive and 
capacity programs jeopardizes the world's most productive and 
successful Agricultural Research and Cooperative Extension system.
    We are thankful that Congress has long agreed with the land-grant 
systems' proposition that strong Hatch Act funding is critical to 
maintaining vibrant food and agriculture sector, strong national 
emergency response capability and research infrastructure required to 
meet both U.S. imperatives and global food security requirements. 
Investments in agricultural research have a huge impact on agricultural 
productivity. From 1970-2004, the marginal rate of return on investment 
was approximately 50 percent annually. Today's farmers also grow twice 
as much food as their parents--using less land, energy and water--while 
promoting environmental stewardship.
    Predicted world population growth, higher incomes and energy 
demands will require a further doubling of global food supply by 2050. 
Investing in agricultural research pays off in home-grown jobs: 
agriculture is one of the nation's largest employers, with more than 
two million farmers and some 19 million in allied industries--and where 
the jobs pay $2,600 more per year than other private sectors.
National Endeavors
    The USDA's flagship competitive grants program--Agriculture and 
Food Research Initiative--benefits the nation by providing America's 
farmers and foresters with genomic data and biotechnology tools to 
expand good and fiber production, processing and international trade; 
healthcare professionals with insight into the relationships between 
diet and health; farmers, landowners and ranchers with expanded 
knowledge about soil and water quality; university funding to train new 
generations of food, agriculture, natural resource scientists and 
cooperative Extension educators.
    The U.S. has been able to adopt policies promoting the production 
of renewable fuels and other bioproducts to improve national energy 
security. This is an area that continues to need additional funding to 
assess the effects on water use, soil fertility and other environmental 
conditions. Economic analyses are needed to better understand how food, 
feed and fuel prices are interrelated.
    As the U.S. struggles with obesity and diabetes epidemics, expanded 
research is necessary to more scientifically inform nutrition education 
and guidance programs and improve the nutritional value and 
availability of crops, fruits and vegetables and other food.
    There is an urgent need to educate and support more young men and 
women--especially those from diverse backgrounds and ethnic 
communities--to conduct agricultural research and outreach, and to lead 
public and private sector organizations. Today, there are two jobs 
available for every qualified candidate in many fields of agriculture. 
We need people who want to serve the nation as the next farmers, 
foresters, ranchers and bioenergy producers.
    More funding is also urgently needed to fight plant and animal 
diseases that threaten public health and agricultural output and food 
security. Many important challenges exist for managing and protecting 
our water resources as well.
Moving Forward
    A new national center is being established on the campus of 
Michigan State University. The Center for Research on Ingredient Safety 
(CRIS) is a partnership between the food, beverage and consumer 
products industries, in association with the Grocery Manufacturers 
Association and MSU. This independent, academic, science-based center 
will serve as a reliable and unbiased source for information, research, 
training and analysis on the safe use of chemical ingredients in 
consumer packaged goods including foods, beverages, cosmetics and 
household consumer products.

  <bullet> Ensuring the safety of food products--and maintaining the 
        confidence of consumers--continues to be a top priority at MSU. 
        We continue strong collaborative efforts like this one that 
        combine our leading programs in packaging and food processing 
        to agricultural economics and toxicology.

    CRIS will work to achieve the following goals:

  <bullet> Expand the opportunity to conduct basic and applied research 
        on the safety and toxicology of ingredients in food, packaging, 
        cosmetics and household care products.

  <bullet> Develop and validate testing methods and strategies for 
        evaluating the safety of ingredients in food, packaging, 
        cosmetics and household care products.

  <bullet> Establish a graduate training program that prepares 
        scientists for a career in assessing the safety and toxicology 
        of ingredients in food, packaging, cosmetics and household care 
        products that includes training in risk assessment and U.S. and 
        international regulatory policies.

  <bullet> Inform the public, health professionals, regulators and the 
        scientific community on research matters reflecting the state-
        of-the-science pertaining to the safety and toxicology of 
        ingredients in food, packaging, cosmetics and household care 
        products.
Maintaining the Momentum
    Like other agricultural universities, we look forward to continuing 
to generate and disseminate new knowledge and educate young people to 
work in the ever-important areas of food production. As the world 
population is expected to reach nine billion within the next few 
decades, our work is more important than ever.
    While we have been incredibly successful for many decades, the 
system faces major challenges. The declining buying power of 
appropriations referenced earlier in this document make it difficult to 
maintain the long-term programs essential to addressing many 
agricultural issues. The cost of research is rising and funding 
limitations not only slows progress of scientists in traditional areas 
of agricultural research, but it also impedes our ability to bring a 
broader array of scientists to address agricultural problems. Low 
levels of funding in competitive grants programs has resulted in 
extremely low funding rates, leaving meritorious projects undone and 
discouraging young scientists from entering the field. In short, it is 
creating a system that is not welcoming to the best and brightest young 
scientists. If this continues, it will erode our ability to respond to 
the challenge of feeding the world.
    We look forward to continuing our tradition as a strong land-grant 
university--educating future generations to meet the growing demands 
and discovering and sharing advancements that will benefit our state, 
the nation and the world. Agriculture is America's oldest career, and 
today it is arguably one of the most complex, technology-driven, 
knowledge-based industries in the world. We've come a long way, but 
there continues to be so much more to do.
    Thank you for this opportunity and your support.

    The Chairman. Thank you, Dr. Buhler.
    I am going to follow a practice that has become standard in 
this hearing room. I am going to ask one question, and then I 
can get back to my follow-up questions so that we can get to my 
fellow Members that much more quickly.
    My question, obviously, is for Dr. Hauser. Thanks again for 
coming in from Champaign-Urbana.
    According to the U.S. Census, the average age of a farmer 
is 58, despite large participation in positive experiences in 
programs like 4-H, and it just seems the passion for ag begins 
to dip as kids grow older. Why do you think that is, and why 
aren't there more young people choosing ag as a profession?
    Dr. Hauser. Well, fewer and fewer students come from the 
farm, the demographics are clearly in that direction, but what 
isn't recognized, regardless of where they come from, is the 
breadth of what we have to offer in colleges that are 
represented here. We are talking about food production and 
feeding the world, and that is much more than cows and plows 
and things that the ``kids'' tend to think about these days 
when they think about programs. That is particularly related 
now, we fear, to crop sciences, the focus of my remarks. There 
is just not that much that is sexy about crops and plants and 
things that involves--until they get there and they learn there 
are jobs. And as soon as they start learning there are jobs is 
when we start seeing transfers come in and getting those seats 
filled.
    The Chairman. So they may be going less to the farms and 
more to the agribusiness sector to----
    Dr. Hauser. Agribusiness, processing, distribution, trade, 
policy.
    The Chairman. Yes. One quick follow-up question before I 
turn it over to the Ranking Member. When Congress created NIFA, 
the clear construction intent was for an independent scientific 
policy setting agency for the good and ag sciences sector. Do 
you believe this intent, Dr. Hauser, has been achieved?
    Dr. Hauser. It has been achieved. We continue to do the 
scholarship that that legislation had in mind when it was 
created. I think that the difference is that we now do it in 
much more of a partnership than we did when it began.
    The Chairman. Great, thank you, Dr. Hauser. I will yield 
back, and I now recognize the Ranking Member for 5 minutes.
    Ms. DelBene. Thank you, Mr. Chairman, and thanks to all of 
you for your testimony.
    Dr. Moyer, you mentioned gathering genomic data and gene 
sequencing, and how critical that was, and I wondered if you 
could elaborate a little bit more about really why this 
information is so important and what it is used for.
    Dr. Moyer. Well, the plant genome is foundational to all of 
the information that makes up a productive variety. And we know 
that the pressures that are being placed on our agricultural 
production, particularly as we look forward in the demands 
between now and 2050, we are going to have to produce more 
abundant yields than we ever have before. For rapid advances, 
we have to have the technology to identify the specific genes 
in the genome that are responsible for the traits that we are 
breeding for, and then we have to have the efficient tools to 
use that information in order to rapidly integrate and reduce 
the time that it takes to make a variety that is adopted by the 
farmers.
    Ms. DelBene. Okay. And then you also talked about the 
research being done on biodegradable plastic fabric, and that 
it led to a second project on non-woven polymers to help 
manufacture biodegradable mulch. Do you find regularly that one 
project leads to another, and that that is how research builds 
on itself?
    Dr. Moyer. Yes. I think it is extremely important. I 
wouldn't say it is rare, but it is certainly a hallmark of a 
successful project when it receives a second round of funding. 
It shows the success. That is why it is even a measure of 
success of the SCRI Program, bringing together teams that are, 
in fact, actually contributing to the solutions of complex 
problems.
    Ms. DelBene. Yes.
    Dr. Moyer. And so, like I said, it is a winnowing process, 
but getting that second round of funding is a hallmark of 
something that really is truly having impact. And also this is 
just not peer reviewed, but in order to get the call back from 
a preproposal, it undergoes stakeholder review. So this is a 
two-tiered process. The rigor is pretty--the bar is pretty 
high, and yes, that is a very positive sign.
    Ms. DelBene. Okay. Thank you. This is a question for all of 
you. There have been multiple studies that have looked at the 
need for more agricultural research funding or making changes 
in how we actually fund agricultural research, and as someone 
on the frontlines, what are your experiences in addressing the 
funding question, as well as the best type of funding mechanism 
for competitive awards? And by funding mechanism, I am 
referring to whether collaborative, long-term, larger grant 
funding is the way to go, or if, given the amount of ag 
research funding, whether smaller grants, not just focused--
whether smaller grants might be helpful, not just focused on 
multi-institution work. What do you think is the best bet, or 
what feedback would you give all of us on how to best structure 
funding? And anyone who wants to respond.
    Dr. Heithaus. I will jump in, coming from a somewhat unique 
position of being a non-land-grant institution. And the answer 
is a mix. I think that having these large, multi-institution 
grants are very beneficial, especially long-term as we are 
facing changing conditions. And we really need to be projecting 
what the needs are going to be 5 or 10 years from now, rather 
than reacting to what worked best last year. And I think that 
the collaborative grants do allow us to bring expertise from 
multiple institutions, and help catalyze that collaboration 
that I think would help bring in expertise from outside the 
traditional land-grants while really teaming it up. But I think 
that you do still need those mix of the small, more targeted 
grants that don't require collaboration as well because so many 
of these challenges are very local, and you don't want to kind 
of throw the baby out with the bathwater on that.
    Dr. Hauser. May I speak on behalf of my friend from 
Michigan State?
    Ms. DelBene. I guess that is a question for him.
    Dr. Hauser. He made the point at the end of his remark, 
which is an excellent one, and that is, agricultural research 
often involves very land-intensive, capital-intensive 
infrastructures that have to be maintained, regardless of what 
kind of projects you are doing. It is like farming; you have to 
have land, you have to have capital, you have to have 
equipment, regardless of what you are doing, and that for us is 
often the most challenging part of maintaining the operation 
that we need to do the scholarship that is expected of us. And 
so it is a combination of competitive grant running the right 
way, plus the ability to be at the right capacity level.
    Ms. DelBene. Thank you.
    My time has expired. I yield back, Mr. Chairman.
    The Chairman. Thank you, Ranking Member DelBene.
    The gentleman from Georgia is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Dr. Lacy, I will be stepping out after my questions because 
I have an Armed Services Committee as well at the same time, 
but I do want to thank you for being here and I appreciate your 
kind comments. My professors might take issue with you at the 
University of Georgia. But we are the leading producer of 
poultry in the U.S., and as you testified in your opening 
statement, a serious outbreak of avian influenza would be 
devastating to our state's economy, and especially to certain 
regions of our state and our food supply. This avian influenza 
has been around a long time. It is something that we just now 
seem to be coming to grips with that it is here in our country 
and a major risk for us. Can you explain in more details the 
work that you are doing to help the producers to help protect 
the poultry flocks from avian influenza, and what other 
potential diseases are there that we see in other countries 
that have not yet made it to America?
    Dr. Lacy. Thank you. The avian influenza is a disease that 
has been around, I think it was identified in the early 1900s, 
and we have had outbreaks of avian influenza in the United 
States. I remember in Virginia and Pennsylvania in the 1980s, 
and Texas a few years ago. But our industry is so sophisticated 
and so on top of being able to diagnose avian influenza that we 
are able to stamp it out quickly in the past. This particular 
year we weren't able to stamp it out as we have in the past. It 
caught us by surprise. So our efforts have been to educate 
growers, to educate the industry on the seriousness of the 
present situation, and to redouble our biosecurity efforts to 
try to keep the virus from entering the commercial chicken 
houses, commercial chicken production.
    Other diseases that cause us problems in poultry production 
are, actually, mostly respiratory diseases, as avian influenza 
is; infectious bronchitis, laryngotracheitis, those are two 
particular diseases. Those we can control by vaccine. Avian 
influenza, because of trade implications, we have chosen not to 
vaccinate for avian influenza in the United States.
    Mr. Scott. What is the difference this year and in prior 
years? Why did it get ahead of us this year instead of us 
controlling it the way we had in the past?
    Dr. Lacy. Another really good question, and again, the 
importance of that Southeast Poultry Research Laboratory in 
Athens, Georgia. They have been able to determine that this 
particular variant of the avian influenza virus is different 
than what we have encountered before. Like the human flu virus, 
it is a flu virus, it changes each year. So this particular 
strain of high-path avian influenza is unusual, it is 
definitely more of a problem in our turkey and layer flocks 
than what we have experienced before, and I think that that 
coupled with the fact that we haven't had an avian influenza 
outbreak in some time, again, caught us a little bit by 
surprise.
    Mr. Scott. Have you been able to partner with the ARS 
facilities and other universities on this, or did you speak to 
potentially CDC and other government agencies, and how you are 
able to coordinate and work together?
    Dr. Lacy. We are--it is amazing in Georgia, and I can't 
speak for other states, but the response there has been superb. 
The response of all state agencies; USDA, CDC, and our state's 
Department of Natural Resources, Department of Agriculture, 
Environmental Protection, all of those agencies have come 
together, FEMA, come together to plan for a worst case scenario 
that we hope never happens, but the amount and the 
effectiveness of that state and Federal collaboration has been 
amazing.
    Mr. Scott. Well, I want to thank all of you for being here. 
And, Mr. Chairman, this just reemphasizes the value of not only 
research in agriculture, but extension, that protects the food 
supply of the United States and, quite honestly, the largest 
food supply in the world.
    So thank you all for what you do. I certainly appreciate 
you being here, and I hope to see you in Athens.
    The Chairman. Thank you to my colleague from Georgia. And I 
also want to give him a thanks because he is my predecessor in 
this chair for this Subcommittee, and did a great job during 
the last Congress too, so thank you.
    I tried to avoid the next questioner by going to Mr. 
Peterson, but, Jim, he didn't have any questions, so I am going 
to you.
    Mr. McGovern. Thank you. I appreciate it.
    And I really don't have any questions either, other than to 
say thank you to the panel. I think it is really important that 
you are here and talking about the incredible research that you 
are all doing; because, for a lot of Members of Congress, 
especially those who are not on this Committee, they don't 
quite make the connection between our agricultural colleges and 
universities and what they contribute in terms of agriculture, 
but in terms of business and in terms of the economy. So I 
appreciate you being here.
    I have seen firsthand how important our land-grant 
universities are and the incredible work they are doing. I am 
proud to represent the flagship campus of the five-campus 
University of Massachusetts system, the UMass Amherst, in 
Amherst, Massachusetts. And over the years, UMass has expanded 
into a major research university that covers many areas of 
research and education, including cutting-edge research and 
advanced materials and manufacturing, applied life sciences and 
health data science, and security and many other important 
fields, driving economic growth in Massachusetts and across the 
country. But through all that transformation, the school has 
never forgotten its proud history and roots as an agricultural 
institution. And I have seen firsthand some of the most 
innovative and exciting projects revolve around agriculture. 
Some of you pointed out that some of what you do is unique to 
the states and areas that you live in. In Massachusetts I have 
seen this incredible cutting-edge research on cranberries out 
of UMass. But what is equally exciting to me is the work that 
they are doing to help, not only protect our food here in the 
United States, but help find ways to feed the hungry around the 
world, and to deal with plant diseases and animal diseases, and 
all the kinds of stuff that oftentimes result in catastrophes.
    So I am just here to say thank you. I support our 
investment in all of you, and it is important that we brag 
about it a little bit more because I am not always sure that 
people get it. When you think of agriculture, oftentimes people 
don't automatically think about colleges and universities; they 
think of people working on a farm. But, like I said, I have 
seen firsthand in my own state, and you have all talked about 
it here today, unbelievable research. It is worth every penny. 
And it is cost-effective and you have saved lives in the 
process too. So anyway, I just wanted to say thank you.
    I yield back.
    The Chairman. Thank you. And I echo the comments from my 
colleague, Mr. McGovern. And thank you for those comments too.
    Mr. Moolenaar, is recognized for 5 minutes.
    Mr. Moolenaar. Thank you, Mr. Chairman. And I also want to 
thank all of you as panelists for being here, and especially 
appreciate Dr. Buhler from Michigan State University. We are 
very proud of Michigan State.
    And I wanted to just direct some of my questions to you if 
that is all right, and then maybe have one question for the 
entire group. But first of all, thank you for testifying. And 
Michigan State has really played a lead role in our country, 
and especially in our state, in agricultural research. And I 
had a few questions for you based on the understanding I have, 
and these are kind of technical questions, but one of the 
questions would be on the Hatch Act, requiring dollar-for-
dollar matching funds from state-appropriations. Also requires 
each state to use 25 percent of its Hatch Act funds to support 
multi-state or regional research. Do you believe those 
percentages should be modified at all, or is that the right 
approach?
    Dr. Buhler. Well, I am very comfortable with the 
percentages as they stand because one of the things that we 
need to do, and we are doing much more effectively, is working 
across state boundaries. One of the positive impacts that we 
have had in recent years over some of our tough budget times 
has really driven us to speak more seriously about how we work 
across state-lines, how do we move information back and forth. 
So the requirement to use a sizeable portion of the money that 
way makes a lot of sense, and it is really on the backs of 
people like us to make sure that we are working with each 
other. As a matter of fact, the meeting that I left, and I am 
going back to, is our annual meeting of the directors of 
research at the land-grant universities, and one of the things 
that we do at that meeting is talk about how we can more 
effectively collaborate. So I believe that continuing to put an 
emphasis on the collaboration--you heard many examples here of 
how we already work with each other, we need to do more of 
that.
    Mr. Moolenaar. And then in your comments you also mentioned 
working across agencies. Could you speak to that a bit more 
also?
    Dr. Buhler. Yes. I believe that we are quite fortunate in 
Michigan is that we have very good relationships with our 
Department of Agriculture and Rural Development. For example, 
the Department of Environmental Quality, as well as the 
Department of Natural Resources. And so we have very good 
interactions there. We also have many very strong commodity 
groups that we interact with very closely. Many of those groups 
have their own research funding programs that we work with 
collaboratively. Actually, most of those programs are actually 
administered through my office, and so we provide that 
assistance to those groups.
    We also have a state-funded program called Project GREEEN, 
which is specifically a grassroots program that provides 
funding annually for mostly applied research, with support of 
the plant and agriculture industries of Michigan, and it is 
very much integral with the commodity groups. They sit on our 
review panels, they provide priorities every year, and it has 
been a very, very successful program, and it is a very, very 
good example of how universities and industries and state 
government can work together in an effective manner.
    Mr. Moolenaar. Along those lines, USDA recently began 
implementing a two-stage review process for competitive grants, 
that relevancy is considered under that as well as peer review. 
Do you think this emphasis on relevancy can improve the 
producers' support for these programs?
    Dr. Buhler. I very much believe that it can, and I really 
come from the experience that I just referenced in terms of 
working with this Project GREEEN Program. The fact that we have 
the producers at the table in every stage of the process, and 
they are actually there in the room and understand the 
interaction of their priorities with strong science, and 
balancing all of the different priorities of all of the 
different industries is really critical. So I think it is 
really important maybe more how it is done. I am more in favor 
of maybe an integrated program where everybody is kind of 
reviewing things together so that the science and the relevancy 
are reviewed together, but the bottom line is I support it, 
particularly as it relates to programs that relate to applied 
research, and then moving those results into our community.
    Mr. Moolenaar. Okay. And then I want to ask you a little 
bit about cooperative extension, improving communications to 
constituents involving our food supply. One of the things I 
wanted to ask all of you is, as we did this GMO labeling bill, 
it was clear to me that a lot of the advances in biotechnology 
are being viewed with fear or suspicion, and I just wonder what 
your universities' role or cooperative extension might play in 
that.
    Dr. Buhler. Well, just real quickly, we are working very 
hard to try to get our arms around that. For me personally, we 
have really gotten the confusion of the technology of genetic 
modification with some of the discomfort, with some of the 
specific products that have come from that, and we have really 
got to figure out how we help people understand. We are talking 
about new ways of doing it because we don't feel that we are 
being effective with where we are. So we have to step back and 
be honest with ourselves, and relook at some of the things we 
are trying to do.
    Mr. Moolenaar. Thank you.
    Mr. Chairman, I know we are out of time, I don't know if 
any of the others wanted to comment on that topic, or if you 
have additional questions.
    The Chairman. Let's get to some of the other Members----
    Mr. Moolenaar. Okay.
    The Chairman.--and we can go back to that----
    Mr. Moolenaar. Thank you very much.
    The Chairman.--if possible.
    Dr. Buhler. Thank you.
    The Chairman. Thank you.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. And I appreciate you all 
being here. And, Dr. Heithaus, I appreciate you being a fellow 
Floridian and doing the research you guys do.
    Working off Congressman Moolenaar here, aside from the 
communications on the success of ag research, how do you 
believe we can help elevate the importance of ag research? You 
guys are doing incredible research. I mean it is phenomenal. I 
look at what we have done in Florida, like on the Papaya 
Ringspot Virus. It was done over 10 years ago but yet we 
haven't been able to market it because of the threat of GMO. 
And, to do the research is great, but if we can't market that--
I would like to hear from you guys. What are your thoughts on 
how we can do that better, because we are constantly being 
bombarded, and there is a lot of false science out there and a 
lot of fear, and, of course, there are people that are fueling 
that, and it is crippling the end-use of what you guys have 
created. So I will start with you, Dr. Heithaus.
    Dr. Heithaus. Well, I think that the first thing is that, 
unfortunately, a lot of scientists like to put their head down, 
do the work, and get the satisfaction of knowing that they have 
helped the industry and helped solve a problem. And we need to 
be very intentional about how we market and communicate about 
these issues. I think that it is really important that we do 
this. In south Florida, a lot of people don't know how 
important ag is, even as an industry. I mean they just think of 
beaches and tourists, but the ag industry is critical to the 
success of south Florida, and is really important nationwide. 
So I think that we need to be very intentional and targeted in 
how we talk to not just the local agricultural community, but 
the wider consumer community about what we are doing. And as we 
build this agribusiness incubator with the University of 
Florida, one of the components that we are going to be working 
to train community members in and farmers that work there is in 
the marketing of their products and how do we talk about this 
specifically.
    Mr. Yoho. Dr. Moyer, did you want to weigh-in on that?
    Dr. Moyer. Yes. I think one of the things that we really 
need to do, and one of the things we have learned from the GMO 
situation that has now been going on for over 25 years, is that 
the importance of involving the social scientists in the 
integration of new technology, and the push on--or the 
suggestion--strong suggestion of many of these grants of having 
that multidisciplinary team and involving the social scientists 
in the project, and then conducting those studies that will 
hopefully anticipate some of the problems that might arise, and 
thereby facilitate the integration of new technologies. And 
that is something that we have to do.
    Mr. Yoho. I agree. And it needs to be a concerted effort 
that when a new product comes out, we need to blast that 
throughout the media and not have a television personality 
coming out and saying, ``Oh, this is bad,'' and it just starts. 
Dr. Hauser?
    Dr. Hauser. So that raises an interesting communication 
issue. The emotion associated with biotech and a lot of things 
in agriculture is communicated how? It is mostly through social 
media. So while it is good to get social scientists involved, 
and I am one of those, I am glad to hear that suggestion, it is 
also good to start thinking about how we communicate, and we 
are not very good in academia, of getting it out into the forum 
that people are paying attention to.
    Mr. Yoho. Well, and you bring up a good point there because 
last week, we had a discussion on the Freedom of Information 
Act----
    Dr. Hauser. Yes.
    Mr. Yoho.--how these researchers are doing the research, 
and then these groups are going after them, making them look 
like the devil not even in disguise. And they are squashing the 
researchers' desire to go out and do that.
    Let me move on to something else. Dr. Lacy, you were 
talking about the vaccines that we are not using for avian 
influenza. I am a veterinarian by trade. I have been around ag 
pretty much my whole life. Are you guys doing anything in 
conjunction with NIH about the avian influenza or--not the 
avian influenza, but the DNA recombinant vaccines that are 
multivalent? They are using a fraction of the inside cell code 
to glycoprotein to produce that. Are we working on that with 
the avian species?
    Dr. Lacy. There are veterinarians that are working on that. 
The issue with trade is that if you vaccinate a chicken for 
avian influenza, you can't really tell whether----
    Mr. Yoho. Right.
    Dr. Lacy.--whether they had the disease----
    Mr. Yoho. If they are a carrier or not----
    Dr. Lacy.--or whether they just have the----
    Mr. Yoho.--yes.
    Dr. Lacy.--antibodies from the vaccine. So there is work 
going on to try to be able to show that, okay, this chicken is 
protected from avian influenza but it is not because it had 
avian influenza.
    Mr. Yoho. Okay. And, Dr. Brashears, I just wanted to give 
you a shout-out for your great research on probiotics. I mean 
it has been--it has changed the whole industry and I commend 
you for doing that, especially cutting down the E. coli., the 
incidents with 90 percent in humans, it dropped it down to 
about \1/2\ as far as infection. So I thank you for your 
research. And if the Chairman will let you respond, that would 
be great. Nothing like being put on the spot. And if not, I am 
sure he will later.
    The Chairman. Go ahead. Make it quick. I will----
    Dr. Brashears. Okay.
    The Chairman. I will take it out of Mr. Newhouse's time.
    Dr. Brashears. Okay, great. Yes, well, thank you. We have 
invested quite a bit in developing the cattle probiotic, and 
like I said, we have found that it does reduce E. coli in 
cattle by up to 50 percent, which obviously doesn't eliminate 
it, but through the food processing system, it is an 
elimination or reduction of risk----
    Mr. Yoho. Yes.
    Dr. Brashears.--from each step. And that is the importance 
of taking a farm-to-table approach, whether it be with an 
animal product or a fruit and vegetable product, every segment 
of the industry counts with regard to reducing the risk, all 
the way down to the consumer. And we have to get that 
information to the consumer so that they know how to properly 
handle foods, and to ensure public health. But thank you. We 
have done a lot of work in that. Like I said, it is 
commercialized and we are very happy with the outcome of that 
research.
    Mr. Yoho. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Dr. Brashears. My colleague, Mr. 
Yoho, takes advantage of our niceness all the time. No, no 
problem, Ted.
    And Mr. Newhouse is recognized for 5 minutes.
    Mr. Newhouse. Thank you, Mr. Chairman. And I appreciate 
having Mr. Yoho in my debt for over 1 minute, let the record 
show. But thank you very much for having this hearing. I want 
to welcome Dr. Moyer and his participation here today. As a WSU 
alumnus myself, I have a soft spot for Washington State 
University, and really appreciate your being here to 
participate today.
    Some of the--I don't know if you even know this, but some 
of the research that is happening at WSU is--there is a small 
project on my own farm where Dr. Michelle Moyer and--I don't 
think any relation, and her research team, part of which is my 
own daughter, Jensina, is working on some wine grape projects 
on our own farm. So I am very much personally aware of the 
importance of ag research. As the former director of 
agriculture for the State of Washington, also very happy to 
have been a great partner, our agency and--as Washington State 
University, and so appreciate everything that you do. With all 
of our representatives here from research universities around 
the country, I don't understand why the line isn't out the door 
this morning to listen to some of the exciting things that are 
happening in agricultural research. Every one of us, as 
Americans and citizens of the world, are a part of agriculture 
at least three times a day, and this is very exciting, the 
important stuff that we are working on.
    Dr. Moyer, you talked a little bit about the Specialty Crop 
Research Initiative Program, and I helped to administer that, 
was responsible for making sure that projects that were worthy 
were selected, and important enough to get the funding. I 
wanted to give you a little bit of an opportunity to elaborate 
on the importance of that, maybe help explain to some of my 
colleagues who may not be as informed on what the Specialty 
Crop Program does and can do?
    Dr. Moyer. Well, first of all, the Specialty Crop Research 
Initiative is a relatively recent addition to the farm bill, 
and it targets those crops that may have been, or were, under-
served. I think the--a lot of the research--the federally 
funded research was at--either at the very basic pioneering 
discovery end of the spectrum, or it tended to focus on the big 
three; wheat, corn, soybeans, and there was this whole body of 
other crops that were languishing because there was not a 
vehicle to get that pioneering research into practice. And so 
with the Specialty Crop Research Initiative, it really fills a 
unique void. It is that gap, some called it the valley of 
death, between pioneering research and the day-to-day real 
world immediate needs of the commodity groups we are funding. 
And so to get new innovations into practice, there needed to be 
a vehicle. And I think the insight then to get this done was a 
very high level of involvement from the stakeholders, as well 
as targeting these groups. And the groups were ready to do 
exactly what I described, because it took these teams to really 
tackle the complex problems. It is a unique project----
    Mr. Newhouse. Yes.
    Dr. Moyer.--program and it is great.
    Mr. Newhouse. Well, thank you. I agree. It is very 
important. It has been very significant in some of the things 
that resulted from that. Could you also help us understand the 
National Clean Plant----
    Dr. Moyer. Yes.
    Mr. Newhouse.--Network?
    Dr. Moyer. The National Clean Plant Network, also 
relatively new, it is part of the effort to make germplasm 
available to users. It is a program that facilitates the 
storage--it is like a germplasm repository for cultivars.
    Mr. Newhouse. Yes.
    Dr. Moyer. There are several centers around the nation; 
Cornell, Davis, Washington State. They each have 
responsibilities for specific crops. Again, they are 
vegetatively propagated crops, as opposed to seed crops. Again, 
this was a void. There really wasn't----
    Mr. Newhouse. Yes.
    Dr. Moyer.--Federal funding to support vegetatively 
propagated crops. And so they provide the grower with pathogen-
tested, true-to-type varieties that they can rely on. They know 
that the variety is what they say it is, and that it is void of 
harmful pests.
    Mr. Newhouse. Yes.
    Dr. Moyer. And so this is a national network. And again, 
these vegetatively propagated crops tend to be specialty crops.
    Mr. Newhouse. Yes. Very important part of the economic 
fabric of agriculture.
    Dr. Moyer. Extremely critical.
    Mr. Newhouse. Yes. Well, thank you very much. And again, I 
thank all of you this morning for being here with us.
    Thank you, Mr. Chairman.
    The Chairman. Well, now Mr. Yoho only owes you 20 seconds.
    Okay, Mr. Thompson.
    Mr. Thompson. Thank you, Chairman. Thanks to all of you on 
the panel. This is a very important topic. The research that 
you do, or universities do. I have to do a shout-out to my 
university where I graduated, Penn State University, their 
agricultural sciences. What you all do is about national 
security. I would say it is one of the number one important 
things we have for national security, but it is also about 
combating hunger.
    And so my first--Dr. Brashears, is there an estimate in 
terms of the work from biotechnology of essentially--I mean 
just cut to the quick, how many lives that have been--how many 
people have been prevented from starvation because of the 
result of biotechnology being applied in agriculture? Are there 
any estimates at all?
    Dr. Brashears. I don't have an exact number of how many 
lives have been saved, but we do know that biotechnology does 
save lives. It increases our ability to produce crops and more 
abundance in certain environments where, in the past, we could 
not have done that because of the resistance to disease. It 
allows us to feed animals and provide protein to the different 
groups of people that need it. So the number of lives saved is 
tremendous.
    As you know, this week there were some new goals set forth 
of zero hunger, zero poverty over the next several years. And 
do I believe that that is achievable? Yes, because I don't 
think that you should set a goal--or you should set your goals 
very high, and that you can do things to achieve it. And that 
can be done through research. We do have the issue of dealing 
with public perception and getting that knowledge to the 
individual who doesn't understand science. And I am guilty as 
well of looking at the consumer and thinking, well, here is the 
data, how come they don't believe that. But this involves 
engaging our social scientists and understanding what motivates 
them to make that decision. And it becomes more of 
understanding the knowledge and having it, and understanding 
that person as an individual and what motivates them to make 
those decisions. It becomes a part of their belief system. And 
we are gaining more information on that through research on 
vaccines and why people choose to vaccinate their children or 
not. One of the classic examples we use is raw milk. People 
perceive that raw milk is healthier, but it can contain deadly 
pathogens. If you feed it to your children they can get sick 
and even die. And that is the bottom line. Getting that message 
out becomes difficult because parents think I am doing 
something healthy, something better for my children, and which 
piece of scientific information do I believe.
    So yes, biotechnology saves lives. We need to continue to 
develop technologies to improve crop production, animal 
production, around the world in order to achieve these new 
goals of zero hunger, zero poverty around the globe.
    Mr. Thompson. Very good. The rest of the panelists, is 
there any research that has made an attempt to quantify kind of 
a ballpark of lives impacted by technology anybody is aware of?
    Dr. Lacy. I am not aware of any. There should be if there 
is not. But, in addition to saving lives, one of the great 
things about genetically modified organisms and biotechnology 
is the decreased impact that we have had on the environment----
    Mr. Thompson. Right.
    Dr. Lacy.--in order to reduce the amount of pesticides 
used, the amount of water, fertilizer inputs, that type of 
thing, that is just huge. To me, we ought to label everything 
as genetically modified because everything has been genetically 
modified since the first time we planted a corn kernel or a 
wheat kernel, we have been doing it for thousands and thousands 
of years. I would argue that we actually know more about what 
we are modifying now than we did previously, which should be a 
positive thing from a safety standpoint.
    Mr. Thompson. I have run out of time on this, one of the 
things that Dr. Brashears--to come back, how do you get the 
outcomes, your findings, how does that get disseminated into 
research so that the end-users; the consumers, the producers, 
the processors, can actually use that information?
    Dr. Brashears. We take multiple approaches. A lot of our 
work is directly applicable to the food industry. So we work 
through our commodity groups, such as AMI or NAMI and NCBA, 
they have been very supportive of our work, and they can help 
us reach our stakeholders, either through workshops that we can 
do at Texas Tech or on-site for different companies or 
organizations, or even cattle producers. So workshops, our 
website, social media. As I said, I have a social media page 
where I try to convey information to producers as well as 
consumers. So we utilize these different resources we have in 
order to get our research results to the public, and we work 
with our communications group to put those messages, to tailor 
those in a way where they understand, so we are not too 
scientific and going over their heads where we are going to 
turn them off, to make the message appealing to the general 
population and our stakeholders.
    Mr. Thompson. Thank you very much. Thanks to the panel. 
Thank you, Mr. Chairman. I appreciate you charging any overtime 
I have to Mr. Yoho.
    The Chairman. Gladly. Done. Hey, actually, I want to thank 
the Ranking Member, Ms. DelBene, too. Traditionally, we go back 
and forth, back and forth, but she wanted to make sure 
everybody here on our side that was still here got a chance to 
ask questions in case they had another hearing to go to, and 
because of that, I want to say thank you, and I am going to 
recognize you for 5 minutes for follow-up questions.
    Ms. DelBene. Thank you, Mr. Chairman. And I just actually 
had one general question for all of you, which is, the impact 
from the recent farm bill on funding for your institutions and 
for the work you are doing, any feedback that you have for us, 
positive and negative, on how that has gone so far? And anyone? 
Dr. Moyer?
    Dr. Buhler. I--if nobody--I guess I would say that----
    Ms. DelBene. Okay.
    Dr. Buhler.--we are very pleased that the Specialty Crop 
Research Initiative, was reauthorized with the new farm bill. 
That was very, very critical, and I see a nod down there 
because I believe Washington State, Michigan State, and 
University of Florida have probably gotten more money than 
anybody else. So for us, it really is a good complement to some 
of our state funding, and so we really appreciate that because 
that has really been an important tool for us to advance our 
specialty crop work. So we are very thankful for that.
    Ms. DelBene. Okay, thank you.
    Dr. Moyer. Yes. Eighty percent of our Federal funding in 
our college comes from USDA. So having the farm bill funded, we 
are very reliant on those competitive funds. So we are highly 
dependent on our agricultural and natural resource research on 
the funding that is authorized by the farm bill.
    Ms. DelBene. Any other feedback? Dr. Lacy, I see you trying 
to turn on the microphone.
    Dr. Lacy. Didn't want to jump in too quickly. We are very 
grateful to the support that the Agriculture Committee has 
given to research through formula funds and through competitive 
research. And I mentioned the Section 1433 funding. We were 
really grateful that that was authorized at $5 million. We were 
hoping that maybe, if there were more research funds available 
in the future, that that might jump up to $10 million in the 
future. And there is a formula there where a certain percentage 
of that goes to formula funds, and then the rest goes to 
competitive funds. That would be a huge help to that shortfall 
in animal agriculture research.
    Dr. Hauser. Just one particular, like the others, we were 
grateful for what was--the general outcome for research, but 
the farm bill also allowed us to take the lead on educating 
producers about the new farm bill and the new policies, and 
that was a huge success. Translating the farm bill is often a 
challenge, to say the least, and with Congressman Davis' help, 
we were able to get a structure and a process set up to very 
much do that across--in our case, across the Midwest.
    Ms. DelBene. Yes.
    Dr. Heithaus. And I would say there are lots of successes 
in there. As you have heard, the return on investment in 
research is really high, so what we see in south Florida is a 
general need for greater investment in research. Also I would 
just kind of like to echo that comment that the Hispanic-
serving agricultural colleges and universities have multiple 
programs that were authorized but haven't been funded. So 
funding those would certainly help us maximize our impact and 
add to what is going on in the land-grant institutions.
    Ms. DelBene. Great, thank you very much. And I will also 
say, having that long-term visibility I know is critically 
important because when we make sure that farm bill is in place 
and that we have it for multiple years so you can plan, and 
researchers know--those researchers are going to be available. 
I know is very, very critical. We can't start and stop research 
very easily, and so that is something else I know is important 
for all of us to keep in mind for you to be able to do that 
great work.
    So thank you again. And I yield back, Mr. Chair.
    The Chairman. She yielded back time, Ted. Wow. No, thank 
you, Suzan.
    Since we are starting our second round of questions, I am 
going to go ahead and go.
    I had one for you, Dr. Heithaus, in regards to the 
Hispanic-servicing ag colleges and universities. The 
establishment of the Capacity Grant Program, when first 
authorized, the number of institutions qualifying was expected 
to be relatively low. That number has increased dramatically so 
that now approximately 100 institutions would divide the 
funding. Should the eligibility criteria be amended so that 
funding, if appropriated, would have a significant impact on 
the institutions that receive it?
    Dr. Heithaus. Well, I think that, yes, at the base level, 
yes, funding this, and even if it has to be divided many ways, 
it would have an impact. A lot of our universities are very 
used to making very efficient use of funds, and so it would 
have a real impact. However, the designation level for what 
qualifies might be something that we need to create a new 
funding mechanism, or multiple criteria, so that the allocation 
of those funds is done in such a way that it will maximize its 
impact in terms of the areas where there is the greatest need. 
But there certainly is that need for capacity funding, and 
there are also some of the unintended consequences of this 
designation where we can't qualify for certain non-land-grant 
funding unless we give up that designation. So I think that we 
do need to do some tweaking on it to make sure that these 
universities are able to access funding, and that it is 
allocated in a mix of competitive grants and then capacity-
building funding.
    The Chairman. Great. Thank you, Dr. Heithaus.
    Dr. Hauser, you mentioned that you had to cut budgets at 
four research centers recently. Can you expand on that a little 
bit as to why and what you did?
    Dr. Hauser. It is related to a point that I made about 
capacity funding, and that Doug made as well. Facilities such 
as that require a lot of investment, they are fixed costs, and 
so competitive grants do not help to recoup those costs. As 
funding has gone down at the state level for us in particular, 
we have had to reduce expenditures, and reduce expenditures, 
and reduce expenditures over the last 5 to 10 years, actually. 
We have not gotten to that point where we are actually taking 
away research fund capacity, until now. But now we are here. 
And it is unfortunate, but it also speaks to, again, the need 
that we have heard several times today expressed which is the 
capacity and an infrastructure that has to really be emphasized 
when you are thinking about research in the food and 
agricultural area.
    The Chairman. Thank you. And you also emphasized the 
importance of partnerships with the private-sector in doing 
crop research. When is that appropriate?
    Dr. Hauser. Wow, that is a question that could take the 
rest of the afternoon.
    The Chairman. We will charge Mr. Yoho.
    Dr. Hauser. There are a lot of gaps, if you will, in the 
private research arena that can be addressed by the public and 
by research institutions represented here, whether it relates 
to market incentives, such as profits in the short-run that 
they are dealing with, whether it relates to public goods, 
there are lots of partnerships. And 20 to 30 percent of our 
research portfolio in my college is in partnership with 
corporations and the private-sector, and it is very, very 
useful as long as you can be extremely transparent about 
everything you do, as long as you are very objective, and as 
long as you apply the best science and scholarship, if you have 
those three things, that partnership with the private-sector 
and corporations works out wonderfully, and we hope to do even 
more.
    The Chairman. Great. Dr. Hauser, thank you.
    I will yield back the balance of my time, and recognize the 
gentleman from Florida for 5 minutes.
    Mr. Yoho. Thank you again, Mr. Chairman. And before my time 
starts, how is your dog doing, Mr. Chairman?
    The Chairman. Mr. Yoho has----
    Mr. Yoho. Thank you.
    The Chairman.--utilized his veterinary services to help me 
solve a problem with my Yorkie. So thank you, Mr. Yoho----
    Mr. Yoho. Thank you, sir.
    The Chairman.--publicly.
    Mr. Yoho. Getting back to some of the stuff we were talking 
about. Of course, George Washington said that you can't have a 
secure nation if you don't have a secure food source. And I 
commend again all the research you guys do that you bring to 
market. And the question comes up, how much is GMO--how many 
lives has it saved, and all we need to do is look at Dr. 
Borlaug with the genetic GMO wheat. Billions of people have 
been saved in the world because of that, and that is a 
marketing campaign we could do a retrospective study and just 
look at the results of what we had. But what I wanted to ask 
you three questions. One is, the funding mechanism, you have 
the formula and competitive grants, you guys have all 
experienced both of these, if you could rewrite how 
universities get their money, do you have ideas that you would 
just like to throw off, or write a response to us and give us 
ideas? Dr. Brashears?
    [The information referred to is located on p. 63.]
    Dr. Brashears. I want to jump in just real quick. Texas 
Tech University does not get the traditional agriculture 
formula funding because we are not land-grant. I think that not 
at the expense of other universities, the land-grant 
institutions, I do think that there are many large agricultural 
universities who do not qualify for the formula funding that 
could benefit from a program that provides some sort of 
baseline funding for the work that we do. In the words of our 
Dean, Dr. Mike Galyean, he says that Texas Tech has a much 
larger research footprint than many of our land-grant 
counterparts, and it would be very beneficial for us to move 
ahead in the research arena if the non-land-grant ag-related 
programs could have some type of program to support them on a 
very basic foundational level. And I just wanted to jump in and 
give that before everyone else makes their comments.
    Mr. Yoho. I was just curious because, I don't want to take 
anything from the land-grant, coming from the University of 
Florida----
    Dr. Brashears. Absolutely, yes.
    Mr. Yoho.--and IFAS, we are very proud of what we get and 
the research they do, but yet if there is a better mechanism 
where we think outside of the box about how we can get the 
money to the researchers and take that research again to the 
marketplace, if you have thoughts on that, feel free to contact 
our office or anybody on the Agriculture Committee.
    The other thing is biosecurity research, this is 
something--there are a lot of people that don't like our 
lifestyles of liberty and freedom and it is something with the 
conflicts going on in the world and the unstable political 
structure of today's world that we have always have to be 
vigilant about that. Are you guys doing research on somebody 
contaminating our water supply or our food supply, grain 
elevators, is there any active research--anybody doing that, 
and if not, is that something you would be interested in doing, 
sounds like crickets.
    Dr. Lacy. We--this is something that we have thought long 
and hard about after 9/11, and there were meetings and studies 
done in terms of trying to identify those critical industries 
in Georgia, and I am sure across the country, that needed to be 
protected, that we needed to think about what we would do from 
a security standpoint. And in Georgia, the poultry industry was 
definitely one of those things that we took a long, hard look 
at. I don't think that there have really been any research 
studies done that I am aware of. It has been more on the 
practical side, trying to determine where the weaknesses were 
in those security issues and address those.
    Dr. Buhler. Just to add real briefly, there is a network, 
it is a Plant Diagnostic Network though, it is not quite as 
striking as some of the animal issues, but there is the Plant 
Diagnostic Network that does work on issues that would look at, 
for the example, of purposeful release of plant pathogens to 
destroy food production, things like that. So that actually 
came out after 9/11, and continues today in Michigan State as 
one of the regional hubs in that system.
    Mr. Yoho. Okay, thank you. And I yield back, Mr. Chairman.
    The Chairman. Thank you, Mr. Yoho.
    Any questions, Chairman Conaway? Are you good?
    Well, again, I want to say thank you to all the witnesses 
here. I hope you understand how important ag research is to all 
of the Members of this Subcommittee. Many of us have land-grant 
universities in our districts. We have grown up around some of 
the progress that land-grant universities have given us. And it 
was great to hear other stories about universities getting 
similar designations, and working in areas that may not be like 
mine in central Illinois.
    I want to thank Chairman Conaway for allowing us to have 
this hearing to talk about this important subject. And again, 
each and every one of you deserves our thanks for spending the 
time and the energy it takes to get out here to Washington, 
D.C., and talk about agricultural research and its importance 
to America's ag economy. So the Ranking Member DelBene has 
left, but she wanted me to also echo her thanks for you all 
being here today.
    And I have to say, under the rules of the Committee, the 
record of today's hearing will remain open for 10 calendar days 
to receive additional material and supplementary written 
responses from the witnesses to any questions posed by a 
Member.
    This Subcommittee on Biotechnology, Horticulture, and 
Research hearing is now adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Supplementary Material Submitted by Robert J. Hauser, Ph.D. and Douglas 
                            D. Buhler, Ph.D.
          Mr. Yoho. Getting back to some of the stuff we were talking 
        about. Of course, George Washington said that you can't have a 
        secure nation if you don't have a secure food source. And I 
        commend again all the research you guys do that you bring to 
        market. And the question comes up, how much is GMO--how many 
        lives has it saved, and all we need to do is look at Dr. 
        Borlaug with the genetic GMO wheat. Billions of people have 
        been saved in the world because of that, and that is a 
        marketing campaign we could do a retrospective study and just 
        look at the results of what we had. But what I wanted to ask 
        you three questions. One is, the funding mechanism, you have 
        the formula and competitive grants, you guys have all 
        experienced both of these, if you could rewrite how 
        universities get their money, do you have ideas that you would 
        just like to throw off, or write a response to us and give us 
        ideas? Dr. Brashears?

    As a follow up to last Tuesday's (September 29, 2015) Subcommittee 
hearing, attached please find a supplemental statement jointly prepared 
by the Dean of Urbana's College of Agricultural, Consumer and 
Environmental Sciences as well as the Senior Associate Dean for 
Research at MSU's College of Agriculture and Natural Resources. The 
statement is in response to a question posed by Representative Ted Yoho 
regarding funding mechanisms for formula and competitive grants.
                               attachment
Supplement to Statements Submitted to the U.S. House of Representatives 
        Agriculture Subcommittee on Biotechnology, Horticulture, and 
        Research
Robert J. Hauser, Ph.D., Dean, College of Agricultural, Consumer and 
        Environmental Science, University of Illinois; and
Douglas D. Buhler, Ph.D., Senior Associate Dean for Research, College 
        of Agriculture and Natural Resources, Michigan State 
        University; Director, MSU AgBioResearch
    At the conclusion of the Committee hearing held last Tuesday, 
September 29, 2015, Representative Ted Yoho of Florida posed a question 
about the funding mechanisms for formula and competitive grants 
[administered by USDA's National Institute of Food and Agriculture]. He 
asked the panelists for suggestions concerning the existing mechanisms 
and how they could be rewritten in future legislation [for increased 
effectiveness].
    Based on our respective experiences within the land-grant 
university system, and on behalf of the University of Illinois and 
Michigan State University, we would like to offer a few relevant 
thoughts.

  <bullet> Capacity [formula] funding is critically important to the 
        land-grant universities in each state, because it serves as a 
        stable source of revenue, upon which universities and their 
        state agricultural experiment stations can base long-term 
        decisions about their research infrastructure needs, which have 
        substantial fixed cost components. This is particularly 
        relevant in the food and agriculture sector, where significant 
        investments are needed to build and maintain research 
        infrastructure, ranging from fundamental bench science to 
        applied field research and development, and where a large 
        number of producers and firms are involved across multiple 
        value chains. In such a fragmented industry environment, 
        notable gaps in scientific knowledge exist, creating 
        opportunities for substantial returns on public good 
        investments.

  <bullet> Inherent in the Federal-state partnerships that underpin the 
        USDA's formula support of state agricultural experiment 
        stations, it is important to insure that Federal capacity 
        funding is used appropriately--to support long-term investment 
        in the fixed costs of research infrastructure and programs.

  <bullet> For these reasons and to sustain our highly successful model 
        for progress in agriculture and related sciences, Congress 
        should maintain the current level of research capacity funding 
        for state agricultural experiment stations.

  <bullet> Beyond that base level of Federal formula funding for 
        research capacity, it is imperative that competitive funding 
        levels be increased, commensurate with the indispensable 
        requirements for an abundant and safe food supply and proper 
        stewardship of our resources. Criteria for competitive research 
        funds should direct resources to opportunities for the highest 
        returns on investment and to selectively address the most 
        strategically important problems in the scientific domains that 
        are aligned with the missions of USDA, state agricultural 
        experiment stations, and eligible universities.

    The relationship between the Federal Government, the states, and 
their universities has proven to be extraordinarily effective for 
advancing science in agriculture and related subject areas. We suggest 
that Congress build upon that firm foundation and give incentives to 
our most ingenious minds to solve the problems we face in the future.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
